<html>
<title> - DOMESTIC ABSTINENCE-ONLY PROGRAMS: ASSESSING THE EVIDENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
       DOMESTIC ABSTINENCE-ONLY PROGRAMS: ASSESSING THE EVIDENCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

                           Serial No. 110-115

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform
       DOMESTIC ABSTINENCE-ONLY PROGRAMS: ASSESSING THE EVIDENCE



       DOMESTIC ABSTINENCE-ONLY PROGRAMS: ASSESSING THE EVIDENCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

                           Serial No. 110-115

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE
46-712 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2008...................................     1
Statement of:
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California; and Hon. Sam Brownback, a U.S. Senator from 
      the State of Kansas........................................    15
        Brownback, Hon. Sam......................................    25
        Capps, Hon. Lois.........................................    15
    Keckler, Charles, Acting Deputy Assistant Secretary for 
      Policy, Administration for Children and Families, U.S. 
      Department of Health and Human Services; and Marcia Crosse, 
      Ph.D., Director, Healthcare, U.S. Government Accountability 
      Office.....................................................   296
        Crosse, Marcia...........................................   312
        Keckler, Charles.........................................   296
    Santelli, John, Department Chair, professor of clinical 
      population and family health, Mailman School of Public 
      Health, and professor of clinical pediatrics, College of 
      Physicians and Surgeons, Columbia University; Georges 
      Benjamin, executive director, American Public Health 
      Association; Margaret J. Blythe, M.D., Chair of American 
      Academy of Pediatrics' Committee on Adolescence; Stanley 
      Weed, Ph.D., director, Institute for Research and 
      Evaluation; Harvey Fineberg, M.D., Ph.D., president, 
      Institute of Medicine of the National Academies; Max 
      Siegel, policy associate, AIDS Alliance for Children, Youth 
      and Families; and Shelby Knox, youth speaker...............    84
        Benjamin, Georges........................................   153
        Blythe, Margaret J.......................................   162
        Fineberg, Harvey.........................................   191
        Knox, Shelby.............................................   217
        Santelli, John...........................................    84
        Siegel, Max..............................................   202
        Weed, Stanley............................................   171
Letters, statements, etc., submitted for the record by:
    Benjamin, Georges, executive director, American Public Health 
      Association, prepared statement of.........................   155
    Blythe, Margaret J., M.D., Chair of American Academy of 
      Pediatrics' Committee on Adolescence, prepared statement of   164
    Brownback, Hon. Sam, a U.S. Senator from the State of Kansas, 
      prepared statement of......................................    27
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California, prepared statement of.......................    19
    Crosse, Marcia, Ph.D., Director, Healthcare, U.S. Government 
      Accountability Office, prepared statement of...............   314
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    13
    Fineberg, Harvey, M.D., Ph.D., president, Institute of 
      Medicine of the National Academies, prepared statement of..   193
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio, prepared statement of.............................   257
    Keckler, Charles, Acting Deputy Assistant Secretary for 
      Policy, Administration for Children and Families, U.S. 
      Department of Health and Human Services, prepared statement 
      of.........................................................   298
    Knox, Shelby, youth speaker, prepared statement of...........   219
    Sali, Hon. Bill, a Representative in Congress from the State 
      of Idaho:
        Heritage Foundation study................................   229
        Prepared statement of....................................   226
    Santelli, John, Department Chair, professor of clinical 
      population and family health, Mailman School of Public 
      Health, and professor of clinical pediatrics, College of 
      Physicians and Surgeons, Columbia University, prepared 
      statement of...............................................    87
    Siegel, Max, policy associate, AIDS Alliance for Children, 
      Youth and Families, prepared statement of..................   204
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, staff report.............................    37
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     5
    Weed, Stanley, Ph.D., director, Institute for Research and 
      Evaluation, prepared statement of..........................   173


       DOMESTIC ABSTINENCE-ONLY PROGRAMS: ASSESSING THE EVIDENCE

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, 
Watson, Yarmuth, Norton, McCollum, Hodes, Sarbanes, Welch, 
Davis of Virginia, Burton, Shays, Souder, Duncan, Issa, Foxx, 
Sali, and Jordan.
    Staff present: Phil Barnett, staff director and chief 
counsel; Kristin Amerling, general counsel; Karen Nelson, 
health policy director; Karen Lightfoot, communications 
director and senior policy advisor; Naomi Seiler, counsel; 
Earley Green, chief clerk; Teresa Coufal, deputy clerk; Jesseca 
Boyer, investigator; Caren Auchman and Ella Hoffman, press 
assistants; Zhongrui ``JR'' Deng, chief information officer; 
Leneal Scott, information systems manager; Kerry Gutknecht, 
William Ragland, and Miriam Edelman, staff assistants; Larry 
Halloran, minority staff director; Jennifer Safavian, minority 
chief counsel for oversight and investigations; Keith Ausbrook, 
minority general counsel; Ashley Callen, minority counsel; Jill 
Schmaltz and Benjamin Chance, minority professional staff 
members; Brian McNicoll, minority communications director; and 
Ali Ahmad, minority deputy press secretary.
    Chairman Waxman. The meeting of the committee will come to 
order.
    We are all here today because we are concerned about the 
well-being of America's youth. We may not see eye-to-eye about 
policy, but we share the common goal of improving adolescents' 
health.
    The statistics are shocking. A few weeks ago the Centers 
for Disease Control released data showing that one in four 
teenage girls in the United States has a sexually transmitted 
infection. Of all American girls, 30 percent become pregnant 
before the age of 20. For African American and Latino girls, 
the rate is 50 percent. And thousands of teenagers and young 
adults in the United States become infected with HIV each year.
    If we are serious about responding to these challenges, we 
must base our policy on the best available science and 
evidence, not ideology.
    We are here today to discuss evidence on the effectiveness 
of abstinence-only programs. There is a broad consensus that 
the benefits of abstinence should be taught as part of any sex 
education effort. But abstinence-only programs teach only 
abstinence. In federally funded abstinence-only programs, 
teenagers cannot receive information on other methods of 
disease prevention and contraception, other than failure rates.
    To date these programs have gotten over $1.3 billion of 
Federal taxpayer money, along with hundreds of millions of 
dollars in State funds, to conduct programs in schools and 
communities throughout the country. Meanwhile, we have no 
dedicated source of Federal funding specifically for 
comprehensive classroom sex education.
    The purpose of this hearing is to examine whether the 
evidence on abstinence-only programs justifies this expenditure 
of $1.3 billion in taxpayer funds.
    I respect the commitment and intentions of people who run 
abstinence-only programs. They are doing it because they care 
about young people and want to counter the sexual messages that 
are all too pervasive. Young people who work in these programs 
demonstrate to their peers that not all teens are having sex, 
which is an important message. But we will hear today from 
multiple experts that, after more than a decade of huge 
Government spending, the weight of the evidence doesn't 
demonstrate abstinence-only programs to be effective. In fact, 
the Government's own study showed no effect for abstinence-only 
programs.
    In 2007, the Bush administration released the result of a 
longitudinal, randomized, controlled study of four federally 
funded programs. The investigators found that, compared to the 
control group, the abstinence-only programs had no impact on 
whether or not participants abstained from sex. They had no 
impact on the age when teens started having sex. They had no 
impact on the number of partners. And they had no impact on 
rates of pregnancy or sexually transmitted diseases.
    There is a lot of talk about the failure rates of condoms. 
It is time we face the facts about the failure rate of 
abstinence-only programs.
    There are also serious concerns about the content of some 
of these programs. A report I released in 2004 found false or 
misleading medical information in the majority of the 
abstinence-only curricula most frequently used by Federal 
grantees.
    While some of these errors have been corrected, recent 
reviews have continued to find misinformation. Some programs 
are still teaching stereotypes about gender, like the idea that 
men judge themselves based on their accomplishments and women 
judge themselves based on their relationships. And the 
exclusive focus on abstinence until marriage ignores the needs, 
and sometimes even the existence, of gay and lesbian youth.
    Meanwhile, more and more research shows that many well-
designed, comprehensive programs that teach about abstinence 
and contraception are effective. Comprehensive, age-appropriate 
programs have yielded results including increasing 
contraceptive use, delaying sex, and reducing the number of 
sexual partners. In other words, the evidence demonstrates 
that, not only do good comprehensive programs not encourage 
teen sexual activity, they actually decrease it.
    This shouldn't be too surprising, because in effective 
comprehensive programs, young people are taught that abstinence 
is the safest choice, the healthiest choice, the choice that 
they should never feel pressured to abandon.
    Americans want taxpayers' dollars to be watched for 
carefully by the Congress. They want us to fund programs that 
produce results. Yet we are showering funds on abstinence-only 
programs that don't appear to work, while ignoring proven, 
comprehensive sex education programs that can delay sex, 
protect teens from disease, and result in fewer teen 
pregnancies.
    This triumph of ideology over science is bad economics and 
even worse health policy.
    Today we are going to hear from experts at the American 
Public Health Association and the American Academy of 
Pediatrics. They will tell us that, based on their professional 
assessments, the weight of the evidence does not support the 
continuation of current abstinence-only policy. Instead, both 
organizations support comprehensive education that includes 
both abstinence and information on contraception.
    The Society for Adolescent Medicine has submitted a 
statement that says, ``Efforts to promote abstinence should be 
provided within health education programs that provide 
adolescents with complete and accurate information about sexual 
health.''
    The American College of Obstetricians and Gynecologists 
have a similar view. They submitted a statement that states, 
``Careful and objective scholarly research during the last two 
decades has shown that sexuality education does not increase 
rates of sexual activity among teenagers; rather, sexuality 
education increases knowledge about sexual behavior and its 
consequences and increases prevention behaviors among those who 
are sexually active.''
    The American Psychological Association submitted a 
statement recommending that, ``[p]ublic funding for the 
implementation of comprehensive sexuality education programs be 
given priority over public funding for the implementation of 
abstinence-only and abstinence-until-marriage programs until 
such programs are proven to be effective.''
    And the American Medical Association has an official policy 
stating that it ``supports Federal funding of comprehensive sex 
education programs that stress the importance of abstinence in 
preventing unwanted teenage pregnancy and sexually transmitted 
infections and also teach about contraceptive choices and safer 
sex.''
    All of these professional societies have reached the 
conclusion that abstinence-only programs are not supported by 
the weight of the evidence and that the Government should 
support more comprehensive programs for youth.
    States are also reaching that conclusion. Today 17 States, 
including California and Virginia, decline to accept these 
abstinence-only funds. Many of these States cite the lack of 
evidence supporting abstinence-only programs and the 
restrictive program guidelines as a basis for their decisions.
    We will hear testimony from witnesses who believe that 
abstinence-only education does have positive effects. I respect 
the depth of their commitment, but ultimately we need to focus 
on the full body of evidence on what works to achieve our 
shared goals of keeping teenagers safe and reducing teen 
pregnancies.
    We have already spent over $1.3 billion on abstinence-only 
programs. The question we must ask today is whether we can 
justify pouring millions more into these programs when the 
weight of the evidence points elsewhere.
    I look forward to our witnesses' testimony today.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T6712.001

[GRAPHIC] [TIFF OMITTED] T6712.002

[GRAPHIC] [TIFF OMITTED] T6712.003

[GRAPHIC] [TIFF OMITTED] T6712.004

[GRAPHIC] [TIFF OMITTED] T6712.005

[GRAPHIC] [TIFF OMITTED] T6712.006

    Chairman Waxman. I want to recognize our ranking member, 
Mr. Davis, for his opening statement.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    I know I have to go to the floor to manage our side of some 
of the committee's bills, so I will not be here for the full 
hearing, but I want to thank you for convening this hearing to 
review the performance of federally funded education programs 
on sexual abstinence.
    Not surprisingly, we can expect strong feelings and views 
to be expressed on all sides today, because we are talking 
about an issue of fundamental importance to public health and 
to the healthy development and well-being of our children. But 
disagreements need not turn disagreeable. To be constructive, 
mutual respect and understand of divergent perspectives should 
drive our discussion.
    We proceed from the premise that everyone here today speaks 
and acts only out of a sincere and well-informed interest in a 
healthy future for young people throughout our Nation. Despite 
differences over how to best reach it, the goal of delaying 
sexual activity among teenagers is widely--almost universally--
shared. The benefits of abstinence are as absolute and obvious 
as they are difficult to convey through the inconsistent surge 
of teenage hormones, cultural stereotypes, and peer pressure.
    In the public health realm, scientific certainties are 
rare, but we know without question not having sex absolutely 
protects young people from the physical and emotional perils 
that can and do befall those who engage in high-risk and age-
inappropriate behaviors. High school is a difficult enough time 
without the added pressures of complex sexual relationships 
that too often result in pregnancy, sexually transmitted 
diseases, and emotional trauma.
    Young people should be spending that time of their lives 
focusing on school, extra-curricular activities, friends, and 
their futures, not succumbing to the risks of early age sex. 
And those risks are substantial. A third of American young 
people will become pregnant before the age of 20. A third of 
those between the ages of 15 and 17 reportedly already feel 
pressure to have sex. One in four teenage girls is infected 
with STDs. And, tragically, STDs are found at almost twice that 
rate in African American young women. And half of all new HIV 
infections occur in people under the age of 25.
    As dire as these numbers may seem, progress has been made 
since the early 1990's. Between 1990 and 2004, the teen 
pregnancy rate fell 38 percent. The percentage of high school 
students who have had sexual intercourse also declined over the 
same decade. Today it is estimated less than half of American 
high school students have ever had sex.
    Despite these important gains, the United States compares 
unfavorably in these measures with other developed nations. 
Particularly among racial minorities, troubling disparities 
persist.
    So we appropriately ask today how well Federal programs 
support abstinence education. It is a fair question, but it is 
not the only question that bears on how to protect public 
health and the welfare of precious young lives.
    In this discussion we should abstain from an urge to take 
an all-or-nothing approach or make false choices between 
abstinence-only programs and more clinical--some might say 
permissive--sex education. Particularly today, against cultural 
trends that glamorize the immediate gratification of physical 
and material wants while minimizing personal responsibility, we 
need to use every means available to reach young people to help 
them make responsible decisions.
    Focusing only on the performance of abstinence-only 
programs also risks leaving the impression the Federal 
Government funds only those courses, or that just those efforts 
need oversight. In fact, the Federal Government funds the full 
spectrum of sex education, as it must under our Constitutional 
system. Decisions about the nature and content of sex education 
in schools are made at the State and local district levels, 
with strong input from parents. Different communities have 
different mores and traditions. What works in Utah may not be 
what is needed or wanted in rural Mississippi or inner city Los 
Angeles.
    The Federal Government's role is to empower States and 
localities to make those choices, not supplant the judgment of 
parents, teachers, and school boards. So we permit States, 
school districts, and community organizations to seek Federal 
funds for the types of sex education they judge best to meet 
the needs of their students. We should not deny them the option 
of abstinence education programs because some perform better 
than others. Each life saved is of immeasurable value.
    Data on the impact of abstinence education programs may be 
difficult to capture or slow to be recognized, but problems 
with how abstinence is taught cannot be allowed to undermine 
its indispensability as a core element of what is taught. It is 
inaccurate and unfair to claim all abstinence education 
programs are the same or that all such programs fail, therefore 
none should be funded.
    To bring a more nuanced view to the evaluation, we asked 
that Dr. Stan Weed be invited to testify. His work in this 
field should shed a needed light on the elements of an 
effective abstinence education program. I thank Chairman Waxman 
to agreeing to our request for this witness. Identifying what 
works and what doesn't can help focus Federal funding on the 
best practices and the most efficient programs.
    We welcome all of our witnesses this morning and look 
forward to a constructive conversation on how to fund the very 
best abstinence education programs.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.007
    
    [GRAPHIC] [TIFF OMITTED] T6712.008
    
    Chairman Waxman. Thank you very much, Mr. Davis.
    First of all, by unanimous consent, without objection, all 
Members will be permitted to enter opening statements in the 
record.
    We are pleased to have two of our colleagues with us today 
to present their position on this issue. We have Congresswoman 
Lois Capps, representing the 23rd District of California, where 
she serves on the Energy and Commerce Committee. She is the 
founder and co-chair of the House Nursing Caucus and is the 
Democratic Chair of the Congressional Caucus for Women's 
Issues.
    We are pleased to have you with us.
    Senator Sam Brownback is the senior Senator for Kansas. He 
serves on the Appropriations, Judiciary, and Joint Economic 
Committees and is the ranking member on the Joint Economic 
Committee.
    We are pleased to have you here, as well.
    I guess before we do that, I should inform you and all the 
witnesses that it is the practice of this committee that 
everyone who testifies before us testifies under oath, so even 
though you are Members of Congress I think we ought to apply 
the same rules to you, as well.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that the 
witnesses answered in the affirmative.
    Ms. Capps, why don't we start with you. Your prepared 
statements will be in the record in full. We would like to ask, 
if you would, to keep your oral presentation to around 5 
minutes.

  STATEMENTS OF HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF CALIFORNIA; AND HON. SAM BROWNBACK, A U.S. 
                SENATOR FROM THE STATE OF KANSAS

                  STATEMENT OF HON. LOIS CAPPS

    Ms. Capps. Thank you, Chairman Waxman, for inviting me to 
participate today. It is an honor for me to appear with my 
esteemed colleague from the Senate.
    I sit before you today both as a colleague in the House and 
as a registered nurse. Long before I entered the halls of 
Congress I worked as a school nurse and health educator for the 
Santa Barbara Public School Districts. My responsibilities then 
were to make decisions that best meet the needs of my students 
and school district, much as they are now to make decisions 
that best represent the needs of my constituents and the 
American people.
    As a public health nurse, it was natural for me to 
reinforce that prevention is a most important component of 
health education. Teaching young people about healthy 
behaviors, including the risks associated with unprotected sex 
and teen pregnancy, are important messages that need to be 
conveyed, always in alliance with the parents involved.
    I know from my first-hand experience what does and doesn't 
work with youth. That is why I promoted comprehensive health 
education for all students, including age-appropriate 
information about reproduction and decisionmaking associated 
with sex, always with the parents' permission.
    Knowing about mitigating the risk of sexually transmitted 
disease and ways to prevent pregnancy are important life skills 
needed in today's world. Withholding this information from 
teens does a great and perhaps dangerous disservice to them, 
and one that runs contrary to my training and education as a 
public health nurse.
    In my work as a school nurse I have been part of many 
curriculum review panels regarding sex education at both the 
school site and the local school district level. These panels 
are always centered around parents and include teachers, 
administrators, board members, and often community health 
professionals such as pediatricians.
    As a school nurse I also had the privilege of directing a 
program for pregnant and parenting teens, which allowed them to 
stay in regular high school with their peers. Part of this 
program was, of course, to provide care for their children 
while they were studying and in class, but, more importantly, 
this teen parenting program provided education on life skills 
with an emphasis on parenting, as well as an education on how 
to prevent or delay further teen pregnancies. After all, teen 
parents are all too likely to have a second birth relatively 
soon. About one-fourth of teenage mothers have a second child 
within 24 months of that first early birth.
    Mr. Chairman, according to a 2005 CDC study, 46.8 percent 
of all high school students reported having had sexual 
intercourse. For high school seniors, this figure reaches 63.1 
percent. The bottom line is, as much as parents and teachers 
and all of us alike stress abstinence among teens, sexual 
activity is a reality for many young people. So what can we do 
to confront that reality?
    Some say that abstinence-only education is the answer, but 
claiming that the only proper information with teens, even 
teens who are already parents, is abstinence only and nothing 
else means withholding scientifically based medical 
information. This is completely unrealistic, in my view.
    Of course, abstinence is at the core of any comprehensive 
sexual education curriculum. Practicing 100 percent complete 
abstinence is 100 percent effective in preventing pregnancy, 
and that is a primary message. For many young people, this 
message reinforces positive behaviors, but it is not realistic 
to expect such behavior from all teens, so the best thing we 
can do to protect young people from the negative consequences 
of unsafe sex is to give them the information they need. We 
know this works.
    A national campaign to prevent teen pregnancy study 
revealed that over 40 percent of the comprehensive education 
programs that were evaluated delayed the initiation of sex, and 
more than 60 percent reduced unprotected sex. Furthermore, no 
comprehensive program hastened the initiation of sex, according 
to the study, or increased the frequency of sex.
    Conversely, just last year a federally funded evaluation of 
the Title V abstinence-only programs conducted by Mathmatica 
Policy Research, Inc. found no evidence that these programs--
that is abstinence-only--increased rates of sexual abstinence. 
Scientific study after scientific study has shown that these 
programs are ineffective and often contain false information, 
something that bears out in my own anecdotal survey of them.
    I urge us not to add to the $1.3 billion in Federal dollars 
that have been invested over the past decade in programs that 
are ineffective and many of them downright false.
    I am proud that my own State of California has rejected 
these dollars from day one. In fact, California is the only 
State that has never applied for and never received Title V 
abstinence-only until-marriage funding. California would have 
been eligible for over $7 million in Title V abstinence-only 
until-marriage funding in fiscal year 2007, but the State chose 
not to apply for these funds due to the extraordinary 
restrictions upon how the money must be spent. This was based 
on the State's previous experience in the 1990's with a State-
funded abstinence-only education program that proved to be 
ineffective. Evaluation of the program proved that youth who 
were given abstinence-only education were not less likely than 
youth in the control groups to report a pregnancy or a sexually 
transmitted infection.
    California isn't the only State to draw these conclusions. 
The Kansas Department of Health and Environment conducted a 
2004 evaluation of abstinence-only until-marriage programs, and 
this evaluation found that there were no changes noted for 
participants' actual or intended behavior, such as whether they 
planned to wait until marriage the have sexual.
    The evaluation also revealed negative changes in attitudes. 
After participating in abstinence-only until-marriage programs, 
students surveyed were less likely to respond that the teachers 
and staff cared about them, and significantly fewer students 
felt that they had a right to refuse to have sex with someone. 
Researchers therefore concluded that, rather than focusing on 
abstinence-only until-marriage, data suggests that including 
information on contraceptive use may be more effective at 
decreasing teen pregnancy. This evaluation is, unfortunately, 
all too typical of the result of the abstinence-only education 
programs.
    Mr. Chairman, as of 2008, January, 17 States have rejected 
Title V abstinence-only funding based on sound public health 
concerns and because Governors have deemed the program to be 
inconsistent with their State's values or public health 
mandates.
    I commend these States for making smart decisions regarding 
the health of their young people and listening to parents who 
want more comprehensive education for their children. Recent 
polling reveals that a vast majority of adults support a 
comprehensive approach to sexuality education. According to a 
study conducted by the National Campaign to Prevent Teen and 
Unplanned Pregnancy, 78 percent of California residents support 
programs that teach about abstinence as well as how to obtain 
and use contraceptives.
    Furthermore, residents believe that the Federal Government 
should pay for this instruction. That is why I am proud to be a 
cosponsor of legislation such as the Responsible Education 
About Life [REAL] Act, and the Prevention First Act. It is in 
the best interest, I believe, of public health of our entire 
society to ensure that all students are receiving 
scientifically and medically accurate information that will 
enable them to make the healthiest lifestyle decisions for 
them.
    Furthermore, I believe that we must discontinue any funding 
that is Federal for abstinence-only education programs. I 
believe they have been a waste of taxpayer dollars and have 
produced no positive results. As a Member of Congress, again, 
as a registered nurse, this is a position I encourage my 
colleagues to adopt as we have a responsibility, I believe, to 
protect the public health. We should follow the recommendations 
of the Institutes of Medicine: ``Congress, as well as other 
Federal, State, and local policymakers, eliminate the 
requirements that public funds be used for abstinence-only 
education and that States and local school districts implement 
and continue to support age-appropriate, comprehensive sex 
education and condom availability.''
    Thank you, again, for the opportunity to testify today.
    [The prepared statement of Hon. Lois Capps follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.009
    
    [GRAPHIC] [TIFF OMITTED] T6712.010
    
    [GRAPHIC] [TIFF OMITTED] T6712.011
    
    [GRAPHIC] [TIFF OMITTED] T6712.012
    
    [GRAPHIC] [TIFF OMITTED] T6712.013
    
    [GRAPHIC] [TIFF OMITTED] T6712.014
    
    Chairman Waxman. Thank you very much, Ms. Capps.
    Mr. Brownback.

                STATEMENT OF HON. SAM BROWNBACK

    Senator Brownback. Thank you very much, Mr. Chairman. Thank 
you for allowing me to be here and to testify. I am glad to 
join Ms. Capps. I have worked with her on a number of different 
issues over the years, and it is always a pleasure to join her. 
I think we have a bit of a different opinion on this one. I 
look forward to the discussion on it.
    I come here because I am in the U.S. Senate, but I have 
five children and I have a fair amount of practical experience 
dealing with this. Our oldest is 21, youngest two are 10. I 
think I identify with most parents. I want the best for my kids 
and there is hardly anything I wouldn't do for them to see that 
they do have the best.
    I am like most parents in this country: I want them to 
abstain from sexual activity until they are married. That 
doesn't happen to be just in the Brownback household. There is 
a Zogby poll in my testimony; 8 in 10 parents want that for 
their children.
    I think also I am like most parents in that I feel often 
that the current culture pushes against what we try to teach in 
the Brownback family, that you have respect for other people, 
that everybody is a dignified human, that we think this is 
something that should be retained for marriage, and that is the 
best place.
    It is something that we would hope our Government would 
back us up on. That, I think, is at the crux of what the debate 
is here, and it is about desire of parents and what is best for 
their kids, high expectations, not low expectations, high 
expectations for our children and a desire to lead them toward 
that.
    We have a crisis in the country today. It is striking--I 
thought stunning--when I read this number, that one in four 
teenager girls in the United States has a sexually transmitted 
disease. One in four, according to CDC. That is a truly 
shocking number.
    Clearly, where we have put the bulk of our money in sex 
education, which is the comprehensive programs, have not 
worked. We have a culture that pushes another way that rarely 
shows consequences of early sexual activity but really just 
says let's just go ahead and do it.
    The end of this debate has been the push against abstinence 
education, which I think probably if we surveyed most Members 
here toward their own children they would say no, that is what 
I would hope my kids would do, and that is what I encourage 
them to do. I would just say then why wouldn't we have the 
Government do similarly.
    I have followed a number of the studies that have been 
coming out looking at this. I don't think all of them have been 
followed, though. The Heritage Foundation just recently 
released a report looking at 15 studies that have examined 
abstinence based programs only. They didn't do the study on the 
programs, they just pulled 15 programs out, and they found 11 
of these programs on abstinence reported positive findings, 
many of them quite extraordinary positive findings.
    It seems to me that the route we should do, in listening to 
parents and listening to our own hearts here, would be to say, 
OK, what of these abstinence programs are not working, and 
let's not fund the areas that are not working rather than 
throwing the whole idea out, which is supported by most 
parents.
    I am most familiar with one here in Washington, DC, that I 
have worked with over a number of years. I am the ranking 
member on the Appropriations Committee for D.C., have been the 
authorizing chairman for D.C. I have been very concerned about 
what is happening here in the District. The best one I am 
familiar with is Best Friends program in Washington, DC. They 
had a 2005 study evaluation of the impact of the program. They 
found this about their program: teenage girls in the six middle 
schools that participated in the program were substantially 
less likely to engage in sexual activity than similar teenager 
girls in the District who did not participate in Best Friends.
    And they found collateral support, as well, or collateral 
positive things. Best Friends girls were also significantly 
less likely to use illegal drugs, smoke or drink, compared to 
their peers. And the program worked.
    You have Dr. Stan Weed that has done a more thorough 
investigation on the impact of the programs. I would hope that 
his testimony would be seriously considered.
    I think there is a way forward on this, Mr. Chairman, and I 
think it is to examine the abstinence programs, because not all 
of them are created equal. Clearly we have a huge problem. 
Clearly comprehensive sex education has not worked with the 
level of STDs that we have in this country.
    I would hope what we would do is look at what in these 
programs and which ones and what design of it has worked, and 
let's replicate and let's support and let's push that. And 
let's be very supportive of it rather than this constant public 
debate of attack that I think reads out to most of the public, 
Well, we just don't like this approach. Then the public goes, 
Well, I guess you are going to attack my parental ideas again. 
They get very frustrated. I know I can speak as one.
    I would hope we could work together on this. I don't think 
this needs to be a partisan divide on it. I think it is one 
that we can work with parents and work with these programs and 
help design them to work better. It would be my hope, my pledge 
to you and to others to work to make them work better and to 
use the models of the ones that do work.
    Thank you for allowing me to be here, Mr. Chairman.
    [The prepared statement of Senator Sam Brownback follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.015
    
    [GRAPHIC] [TIFF OMITTED] T6712.016
    
    [GRAPHIC] [TIFF OMITTED] T6712.017
    
    [GRAPHIC] [TIFF OMITTED] T6712.018
    
    [GRAPHIC] [TIFF OMITTED] T6712.019
    
    [GRAPHIC] [TIFF OMITTED] T6712.020
    
    [GRAPHIC] [TIFF OMITTED] T6712.021
    
    [GRAPHIC] [TIFF OMITTED] T6712.022
    
    Chairman Waxman. Thank you very much, Senator Brownback.
    I want to start off by telling you I agree with you. We 
ought to see what works. I don't think we ought to ignore the 
idea of trying to emphasize abstinence. I think we ought to 
have that emphasis, because the culture does push our young 
people to become much more sexually active, and it is contrary 
to what many of us as parents and grandparents want for our 
children.
    But the Federal Government only funds abstinence education 
programs. We don't fund comprehensive sex education programs 
for teenagers. That is done at the State and local level. I 
don't think we ought to fund abstinence-only programs that 
won't talk about other alternatives, talk about a comprehensive 
approach, encouraging abstinence but also at the same time 
explaining some public health realities to young people.
    Some States, as Ms. Capps pointed out, Representative Capps 
said some States have looked at the Federal requirement and it 
is like the Federal Government telling them they had to do it 
only one way, and the States didn't like that.
    I think we ought to let the States, if we are going to put 
Federal dollars into it, make a decision. I would hope that all 
of them would emphasize abstinence, and then I hope all of them 
would inform people about basic health information.
    Ms. Capps, is that the point that you were making?
    Ms. Capps. I appreciate the chance to respond. I want to 
also agree with the Senator. There is so much that we have in 
common in what we desire for our young people. We want them to 
grow up to be healthy. I will confess my strong bias, which is 
on behalf of health education, period. When you think about the 
diseases that are so costly to us today--obesity, heart 
disease, and sexually transmitted diseases and unwanted 
pregnancies--so much of it relates to healthy behaviors, which 
can be taught starting at a very young age.
    I have always been in favor of comprehensive health 
information so that young people know about their bodies, know 
how their emotions work, and at age-appropriate times, with the 
permission of parents, that this can be done, including 
sexuality and reproductive matters.
    Now, I am in favor of local decisionmaking about this. That 
is how important I think it is. It is always the prerogative of 
parents to have a say on sensitive issues of what their 
children learn and don't learn. That is why I believe that 
abstinence-only education really directs something that should 
be decided at a more local level.
    We do have legislation that is in the process of being 
addressed in the House that undergirds the importance of 
prevention, and that is something I would champion.
    Chairman Waxman. Senator Brownback, do you think we ought 
to look at these programs in a cool, cold-hearted way to see 
whether they are working or not, and if they are not working 
say that we ought to adjust them? And, second, do you think 
that we ought to bar, at the Federal level, any funds for these 
sex education efforts to talk about anything other than 
abstinence? Do you think it ought to be possible for the local 
areas to decide to use the funds, as well, for a more 
comprehensive approach that talks about ways to stop the 
sexually transmitted diseases and unintended pregnancies 
assuming young people decide to be sexually active?
    Senator Brownback. Well, the answer to your first question, 
absolutely. But I think you have to also then look at the whole 
gamut, and not just say, OK, we are going after abstinence 
education, which, Mr. Chairman, that is what this appears to 
be. And if you say OK, let's look at the whole gamut because we 
have a crisis here, and STDs, one in four girls, and I think in 
certain segmented communities it is one in two, and the current 
approach has not worked.
    I believe you have testimony later on five to one on 
comprehensive. Nationwide, the dollars have been five to one on 
comprehensive. So, I mean, if I were you as chairman and you 
are saying let's look at this realistically, then apparently 
the broad breadth of these dollars, it is not working. I would 
submit to you that if you are just going to peg in on the 
abstinence piece of this, OK, that is fair enough, but then I 
can show you programs in the abstinence field where it is 
working. I can show you places where it is not. The idea there 
would be to target more appropriately how you get the 
abstinence programs to work. But then you should also back up 
and say obviously the overall approach has not worked. We have 
to look at all of it. We can't just tag in on the abstinence 
piece of this because of whatever agenda.
    Chairman Waxman. Thank you.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    As you know, we have debated this subject before. We held a 
hearing when I was chairman of the subcommittee and we issued a 
report, Abstinence and its Critics. I would ask that this would 
be inserted in the committee report of this hearing.
    Chairman Waxman. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.023
    
    [GRAPHIC] [TIFF OMITTED] T6712.024
    
    [GRAPHIC] [TIFF OMITTED] T6712.025
    
    [GRAPHIC] [TIFF OMITTED] T6712.026
    
    [GRAPHIC] [TIFF OMITTED] T6712.027
    
    [GRAPHIC] [TIFF OMITTED] T6712.028
    
    [GRAPHIC] [TIFF OMITTED] T6712.029
    
    [GRAPHIC] [TIFF OMITTED] T6712.030
    
    [GRAPHIC] [TIFF OMITTED] T6712.031
    
    [GRAPHIC] [TIFF OMITTED] T6712.032
    
    [GRAPHIC] [TIFF OMITTED] T6712.033
    
    [GRAPHIC] [TIFF OMITTED] T6712.034
    
    [GRAPHIC] [TIFF OMITTED] T6712.035
    
    [GRAPHIC] [TIFF OMITTED] T6712.036
    
    [GRAPHIC] [TIFF OMITTED] T6712.037
    
    [GRAPHIC] [TIFF OMITTED] T6712.038
    
    [GRAPHIC] [TIFF OMITTED] T6712.039
    
    [GRAPHIC] [TIFF OMITTED] T6712.040
    
    [GRAPHIC] [TIFF OMITTED] T6712.041
    
    [GRAPHIC] [TIFF OMITTED] T6712.042
    
    [GRAPHIC] [TIFF OMITTED] T6712.043
    
    [GRAPHIC] [TIFF OMITTED] T6712.044
    
    [GRAPHIC] [TIFF OMITTED] T6712.045
    
    [GRAPHIC] [TIFF OMITTED] T6712.046
    
    [GRAPHIC] [TIFF OMITTED] T6712.047
    
    [GRAPHIC] [TIFF OMITTED] T6712.048
    
    [GRAPHIC] [TIFF OMITTED] T6712.049
    
    [GRAPHIC] [TIFF OMITTED] T6712.050
    
    [GRAPHIC] [TIFF OMITTED] T6712.051
    
    [GRAPHIC] [TIFF OMITTED] T6712.052
    
    [GRAPHIC] [TIFF OMITTED] T6712.053
    
    [GRAPHIC] [TIFF OMITTED] T6712.054
    
    [GRAPHIC] [TIFF OMITTED] T6712.055
    
    Mr. Souder. I also would like to make a brief statement 
because of my involvement. I would like to use some of my time 
for that at this point.
    I share some of Senator Brownback's concerns that we are 
not addressing the fact here that two-thirds of the money that 
goes for education on this issue is not abstinence-only. This 
hearing seems to be stacked against abstinence-only. If your 
intent was truly to assess the evidence on abstinence 
education, then why are we hearing from only one single 
proponent of the important public health approach? Where are 
the physicians who diagnose young girls, despite having used 
condoms, who now have the cancer-causing virus HPV? Where is 
the official who will talk about twice the amount of funding 
being used on things other than abstinence education?
    Extreme interests groups believing in sexual freedom and 
sexual justice have denigrated the debate over abstinence 
education by turning it into a vehicle to promote their own 
ideological agenda of radical sexual autonomy. We ought not to 
be persuaded by these groups who, although adopting the 
language of science and reason, are really just evangelists of 
a competing though tragically incorrect moral vision. This 
debate is not between those who on one side are trying to 
impose their values on others and those who on the other are 
proclaiming a purely disinterested and amoral rationality. 
Indeed, despite protests to the contrary, the other side, too, 
makes more arguments tethered to a particular ideology.
    While this hearing has been convened to assess the 
evidence, we must also realize that this debate involves deep 
disagreements between competing values. Abstinence education is 
a medically accurate, age-appropriate method that promotes 
character, healthy relationship building skills, and self worth 
to young people. It is far more than a just say no approach to 
public health.
    The name of this hearing, for example, wrongly suggests 
that teens who receive abstinence-only education are only 
taught to say no to sex. Mr. Chairman, this simply is not true. 
Abstinence education is a holistic approach to preventing the 
physical and emotional distress that premarital sex can bring, 
especially to teenagers. Abstinence education does, in fact, 
teach teens about contraceptives. It does teach teens about 
HIV/AIDS. It does teach teens about how to prevent pregnancy 
and disease. It encourages teens who are already sexually 
active to get tested for STDs, unlike the so-called 
comprehensive sex education curriculum, which often tells 
teachers specifically not to raise the failures of condoms or 
STDs.
    What abstinence education does not do, unlike 
contraception-based programs, is suggest to teens that they 
should ``wear shades as a disguise'' when buying condoms so 
adults don't recognize them, or encourage teens to 
``fantasize'' about using a condom.
    The Department of Health and Human Services reports that 
most popular so-called comprehensive programs spend less than 
10 percent of their class time promoting important health 
message of abstaining. The curriculum does, however, instruct 
girls on how to help their partner maintain an erection and 
other graphic behaviors too explicit to submit to the record.
    We can parade as many critics of abstinence education 
before this committee as we want, and nothing will change the 
fact that the only fully reliable way for young people to 
protect themselves from pregnancy or STDs is by abstaining from 
sex until a committed, faithful relationship with a partner who 
is also free of STDs. To withhold this evidence from our young 
people and the members of this committee is not only wrong but 
inexcusable and unjust. I would like to ask our two witnesses--
and I find some of these questions, quite frankly, shocking, 
but since it is used in schools down to age 9--do you believe 
this is appropriate to ask kids these questions which are: do 
you think a person is abstinent if he or she does the behaviors 
below: cuddle with someone with no clothes on, give oral sex, 
masturbate with a partner, receive oral sex, touch a partner's 
genitals? Do you believe those are appropriate for kids in 
school as an alternative to abstinence, or whether it should be 
defined as abstinence? Ms. Capps.
    Ms. Capps. Do I think this is appropriate personally? Not 
at all. I have been a part of many, many sex education classes, 
and I have never had this or been a witness to any discussion 
anything like this, particularly at the age that you are 
talking about.
    Mr. Souder. My time is on yellow. Let me ask Senator 
Brownback.
    Ms. Capps. Surely.
    Mr. Souder. This is a 2005 plan, Making Sense of abstinence 
Lessons for Comprehensive Sex Education for New Jersey.
    Senator Brownback. No. I don't think that is appropriate. 
And as a parent, if that were being taught to my kids I would 
find it very offensive. I think it is why most parents really 
get upset about a lot of these things, is that there are things 
being put forward that a lot of times are just really trying to 
encourage our kids, look, let's be responsible. We don't do 
these sort of things. It goes against what the parents are 
trying to teach.
    Chairman Waxman. Thank you, Mr. Souder.
    Mr. Sarbanes, I want to recognize you if you have any 
questions.
    Mr. Sarbanes. Not at this time.
    Chairman Waxman. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I am wondering, Senator Brownback, I think there is great 
agreement. As parents we all tell our children that they should 
delay sexual activity for many reasons--emotional, health, our 
family values, and that. But knowing what the statistics are 
from the CDC for the number of young adults that do engage in 
sexual activity, do you believe that we have a responsibility 
when Federal dollars are being used, especially in abstinence-
only programs, that if they do refer to condoms--and there are 
examples in here that the GAO cites in its report where 
inaccurate statements were made that condoms are porous, 
therefore a condom doesn't protect you against sexually 
transmitted disease--that we should not allow Federal dollars 
to be used to transmit misinformation, information that is not 
scientifically accurate, that is not a good use of our tax 
dollars? Would you at least agree with that, that we need to 
make sure that anything that is said in these abstinence 
programs must be scientifically accurate?
    Senator Brownback. I would. I would hope they would be 
applied to all sex education programs, the comprehensive ones, 
too. I would tie back in to your earliest piece of your 
statement. What about the emotional. There is an emotional 
issue that is involved here. Having three children either in or 
recently gone through teenage time periods, this is a big 
emotional time period. I would hope we would have scientific 
evidence on all of it.
    Ms. McCollum. Reclaiming my time, my challenge is, as an 
appropriator, with the limited amount of dollars that are 
available for public health, that every single penny that is 
spent should be made sure that the information is 
scientifically accurate.
    Ms. Capps, it is my understanding--and I am sure you have 
read the GAO report--that is has only been recently that there 
has been any scrutiny on these programs to make sure that they 
are scientifically accurate. As a nurse, as a mother, how do 
you feel about that? As a taxpayer, how do you feel about that?
    Ms. Capps. That distresses me because I have had personal 
experience in reviewing some of the abstinence-only materials. 
I will agree with the ranking member that they do discuss 
contraception, but I never saw one that said anything positive 
about it. It was always the failure rate. In other words, to 
infuse a sense of distrust among the students that they should 
rely on anything like this.
    I am concerned that we are spending Federal dollars on 
misinformation.
    Ms. McCollum. Representative Capps, as a person who has 
worked in public health, you know that we might have juniors 
and seniors in high school who don't have parents such as 
Senator Brownback, myself, you, and other members of the panel 
who would sit down and discuss fully options with our children 
as they are getting ready to perhaps even enter marriage. So 
knowing that we have 17 and 18-year-olds, do you feel that for 
many of these young adults in committed relationships who might 
be getting married at a very early age, that this might be the 
only information that is available to them?
    Ms. Capps. I can tell you I have heard it with my own ears, 
I have seen, and, as I mentioned in my testimony, I worked in a 
program for parenting teens. Teens already having chosen to 
keep their parents (sic) and go to a comprehensive high school, 
we provided them with life skills. Many of them were married. 
They were asking us for help because they got pregnant in the 
first place because they didn't know enough, and now they 
wanted to make sure that they took good care of the child that 
they had and were able to plan their families in the future.
    So there is a cry on the part of many teenagers for 
accurate information. Then, of course, we need to always be 
teaching them the life skills in order to make the good 
decisions about it, as well. The two go hand in hand.
    Ms. McCollum. Thank you.
    Chairman Waxman. Thank you, Ms. McCollum.
    Mr. Burton.
    Mr. Burton. I can wait.
    Chairman Waxman. Mr. Shays.
    Mr. Shays. I thank the colleague.
    Sometimes I think we are trying to repeal the law of 
gravity. There are natural instincts that young people have, 
and they are educated by their parents hopefully first to know 
proper conduct, and hopefully are given informed information in 
their process of going to school and so on. I am a chief 
cosponsor of the Responsible Education About Life [REAL] Act, 
which was introduced by Barbara Lee, and its whole purpose is 
to provide a comprehensive approach to sex education that 
includes information both about abstinence and contraception.
    I read these questions and I thought, you know what? Maybe 
they shouldn't have been asked by someone in school in a 
program, but they turn on their TV and they see it.
    We have had testimony in Congress where young people didn't 
realize that oral sex they could transmit disease. They just 
weren't informed, and they thought that wasn't sex, maybe as 
defined by the former President of the United States.
    But the bottom line is I don't understand why you wouldn't 
make sure that young people had all the information to 
counteract all the information they are getting every day from 
the news media, from TV, from programs, from books. I mean, the 
books I used to read were so ridiculous compared to what kids 
read today. But, frankly, if it be told, probably every one of 
my fellow boys and young men that were at school would have had 
sex if the girl had said yes. So your parents basically tried 
to determine who you were going out with, what kind of girl you 
were out with. It is a different world today. It is a different 
world, Senator, than you grew up in.
    I just don't know how we are going to help young people if 
we don't give them the information they need to make the 
choices, to know that they could get ill if they do certain 
things, to know the benefits of abstinence in the context of 
truly loving someone.
    I would like you both to speak to that, in terms of what 
kids get every day in the media. So these questions aren't 
shocking. They get it every day. They see it. They read about 
it. Why shouldn't they talk about it?
    Senator Brownback. Well, first, thanks, Chris, and, believe 
me, I know we are not in the world I grew up in. I have 
children operating in this culture. My older daughter is doing 
Teach for America in Houston in 7th grade, and the things she 
hears, that does shock me. So I am getting that.
    But I think there is an issue here. What about setting a 
high expectation? What if she in that 7th grade class sets a 
very low expectation and, you know, whatever you want with it.
    Mr. Shays. I don't know what you mean by expectation. A 
high expectation to me means treating a young people with 
respect that they get the information they need to counteract 
the information they are getting from somewhere else, so I 
don't know what you mean by respect.
    Senator Brownback. Well, what I mean by high expectation is 
maybe buttressing the expectations of their parents instead of 
attacking them or saying, well, we don't think you are really 
going to make that, so therefore let's go this route.
    There is a downside to not having high expectations. There 
is a clear downside. I think we should do that even in behavior 
areas.
    What I am submitting here is that I think you can look at 
all these abstinence programs and find ones that haven't 
worked. I think that is good. Let's not do that. But let's fund 
the ones that do work so you really are buttressing what 80 
percent of the parents want.
    Mr. Shays. Thank you.
    Ms. Capps.
    Ms. Capps. Again, I agree with so much of what the Senator 
is saying, and I totally support you. I am on the same 
legislation that you are co-authoring with our colleague, 
Barbara Lee. I would simply say that the studies are showing 
that the more information young people have the better 
decisionmaking skills they can employ, if they are taught some 
decisionmaking skills along the way. Schools are asked to do a 
lot of things today. They are asked to be parents and they are 
asked to bring up, for those kids who come, you know, with 
limited foundation at home, they are asked to teach young 
people to make good decisions, how to do that. But I believe 
that when you tie a hand behind your back when you are withheld 
information, you set up a sense of lacking trust. In fact, 
comprehensive sex education classes have encouraged young 
people to delay sex because they know all of the information.
    Our teen program where the babies were there with the moms 
in a classroom setting was a big deterrent for kids having sex. 
They saw what happens when you do.
    Mr. Shays. Thank you.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Shays.
    Mr. Welch, you are next.
    Mr. Welch. Thank you, Mr. Chairman.
    Senator Brownback, in listening, everyone agrees that we 
want to have kids protected as much as possible, so really it 
seems like this is a tough discussion and debate about what is 
effective to help kids make the right choices. But, as I 
understand your testimony, your view is that there should be no 
sex before marriage?
    Senator Brownback. I am saying 8 of 10 parents surveyed 
want that, and I am saying in our family that is what we talk 
about.
    Mr. Welch. And I obviously completely respect that. But I 
understand the statistics are that 95 percent of the American 
people do have sex before marriage.
    Senator Brownback. Well, the material I was looking at and 
that I think even the ranking member was citing was below 50 
percent on teens, and I don't know of the full number of what 
you are talking about on before marriage activities.
    Mr. Welch. I think it was a USA Today survey, and my 
understanding is that is a pretty accepted figure. But the 
question here I think that we have to resolve is effective use 
of taxpayer dollars to achieve the goal of diminishing teen 
pregnancy and diminishing sexually transmitted disease. Would 
you agree that is a shared goal?
    Ms. Capps. Yes.
    Mr. Welch. All right. So I would ask really both of you, 
bottom line, whether it is a comprehensive sex education 
program or an abstinence-only sex education program, that those 
programs should be subject to strict scrutiny for effectiveness 
before we allocate a taxpayer dollar. Do each of you agree with 
that?
    Senator Brownback. If I could, absolutely. But you can't 
just look then at abstinence programs, you need to look at 
comprehensive ones that get, by far, the lion's share of the 
dollars, and obviously it has not worked.
    Mr. Welch. I agree that they should be both looked at. That 
is what I am asking. Any time we spend money, we have to do 
oversight to see whether the intended purpose is being achieved 
with the money we are spending.
    Ms. Capps. Can I respond to that? You are talking about tax 
dollars, and it has come up before. To my knowledge, I want to 
address something that has come up where these figures come 
around like we spend $12 for comprehensive sex education, 
Federal dollars, for every dollar that is spent on abstinence-
only education. The truth is very different. To my knowledge 
the Federal Government has never funded comprehensive sex 
education as taught in a classroom, but rather these dollars 
are lumped together which are part of Title X, and all of the 
services, direct services that we provide for every age group 
through the Federal programs that we provide in family planning 
and contraception. I think those are very different.
    I am not so sure that we want the Federal Government doing 
anything prescriptive about what curriculum my grandchildren 
and your children would be taught in a school district. I think 
school districts and school boards and parents have the right 
and obligation really to choose what is appropriate for them. 
What I think we can lay out in these bills that I mentioned and 
that our colleague Mr. Shays is a coauthor of talk about the 
importance of doing that and making funds available so that 
districts can choose the appropriate methods that they want to 
teach.
    Mr. Welch. Thank you.
    You know, we have been referring to this GAO report that 
has done a study of abstinence education programs and come to 
the conclusion that they are not effective. Now, if that is the 
report that gives us guidance and money spent on these programs 
is not achieving the intended result, would it be your 
position, Senator, that we should continue to spend more money 
on programs that are judged to be ineffective?
    Senator Brownback. My position would be I think you should 
look at all the studies. There are studies that I cited. You 
are going to have another witness here today that is citing 
studies of ones that have worked. My position would be that you 
should look at those that work so that you are really going in 
flow with what the parents of the country want. The parents of 
the country want their children to be abstinent. That is what 
they do in the survey results. So why would we flow against it? 
Why wouldn't you find the ones that are working well and then 
let's fund those? And you really should look at comprehensive, 
because that is where we put most of the money, and that hasn't 
worked.
    Mr. Welch. Well, the dilemma we have is this: those of us 
who advocate always find something to hang our hat on to 
justify our position. That is you, it is me, it is all of us. 
But there are referees, and the GAO, when they do these studies 
at our request, is, in effect, an arbiter, and we either can 
disregard their study or accept the results and act 
accordingly.
    My understanding is that the study that the GAO has done, 
kind of a peer reviewed study, has concluded that these 
abstinence-only programs are not achieving the results that you 
would like to see achieved, so why would we spend more money?
    Senator Brownback. I would hope you would look at all 
studies, sir.
    Mr. Welch. OK. Thank you, Senator.
    Chairman Waxman. Thank you, Mr. Welch.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    Let me just say I am going to yield to my colleague from 
Indiana, Mr. Souder, but before I do let me just whistle into 
the wind a little bit. Mr. Shays mentioned what children are 
exposed to all the time, and I am sure this isn't going to 
change, but one of the things that disturbs me so much is there 
is a constant barrage of sex and violence on television all the 
time. I know that you can't really stop it, I guess, but that 
has to be a contributing factor to the violence that we have 
seen in places like Columbine and this boy that was stopped 
from blowing up his school the other day and these college 
campus attacks. We have to figure out some way as a society to 
cut back on the sex and violence that we are consuming, because 
as long as we do that, the kids are going to get a steady diet 
and you are going to have this thing go on and on.
    With that, I yield to Mr. Souder.
    Mr. Souder. I would first like to correct the record on a 
couple of things. I didn't use 12-to-1. I used 2-to-1 Federal 
funding for----
    Ms. Capps. I am sorry. I have seen 12-to-1.
    Mr. Souder. And you said that. You said you have seen 12-
to-1. You didn't say that I said that, but I wanted to point 
out that I said 2-to-1 in direct Federal funding, 68 percent of 
the schools offer contraceptive education compared to 25 
percent offering abstinence education. Not all of that is 
Federal funding and not all of it is even dollars, but that is 
also a fact. And there are 10 Federal sources for funding for 
contraceptive education and just 1 for abstinence education.
    Now, depending on what a school does with that funding, 
they may not use it for the curriculum. They may be blending 
this with local funding from different health groups, like in 
our community part of it is funded by Planned Parenthood 
directly, maybe not from Government funds, or from a health 
center, not from Government funds. But the fact is that the 
disproportionate amount of money in the United States is, in 
fact, going to contraceptive education.
    And we are also really happy to see that a number of people 
here seem to be expressing disappointment, even on the majority 
side, that we aren't looking at science on not only abstinence 
education but on the other, because clearly study after study 
have shown that contraceptive education hasn't worked on HPV, 
has not worked, either. And you can't just apply science when 
you ideologically oppose one goal but then not look at science, 
and we shouldn't pretend like science, GAO, or otherwise has 
defended the effectiveness of contraceptive programs.
    But there is another fundamental question here that we are 
debating, and that is that 70 to 90 percent of American people 
oppose explicit sexual content in comprehensive sex education; 
67 percent of teens who have initiated sex express regret for 
doing so; 90 percent of American people believe adolescents 
should not become sexually active; 70 to 90 percent want a 
strong abstinence message taught.
    Do you believe, Senator Brownback and then Ms. Capps, that 
the public, what they want from the schools, is at all relevant 
in this debate?
    Senator Brownback. I would hope it is relevant in this 
debate, and if it is not, you are going to be running at 
counter purposes and people are going to be arguing with it all 
the time and it is not going to be effective. But if we will 
work in concert with parents, I think we can have an effective 
program moving on forward.
    Ms. Capps. Thank you. I want to stress again that all of 
us--and I am now going back to my past life as a school nurse--
in the local schools I don't know a person who doesn't favor 
abstinence-only until it comes to the point of the knowledge 
that is available should abstinence not work for a particular 
child. We can't control what happens to them after school. Most 
of us want not abstinence-only but abstinence coupled with an 
understanding of available resources should they need it.
    Now, I also would like to say that I have never been a part 
of a plan or program that is called contraceptive education. I 
have only been associated with anything in my schools where I 
worked that was comprehensive sex education that included 
abstinence and also gave other information.
    Now, what I would say is that this decision, the public has 
its way of recording its desires and what it believes in and so 
forth, but really the important people in this conversation who 
we are talking about are the parents who send their kids to 
public school every day.
    Mr. Souder. How do you handle this question, and that is 
that those using the male condom at first sex has tripled from 
22 to 67 percent, contraceptive use has nearly doubled since 
the 1970's to 79 percent, and yet STDs and other problems are 
still increasing. How can anything but abstinence be said to be 
working?
    Ms. Capps. Abstinence works 100 percent, and that is why it 
should be the core of any kind of comprehensive education that 
involves sexuality with teenagers. Again, the decision should 
be made by the parents, and the young people are asking for 
information, and if they are asking they should get reliable 
information.
    Chairman Waxman. Thank you very much.
    I am going to now recognize Ms. Norton, but I want to 
indicate that our second panel will discuss evaluations of both 
and all sex education classes, which I think will be very 
helpful for the committee.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I have had the pleasure of working with you both, and I 
want to thank you both for very important leadership that I am 
personally aware of. Ms. Capps, you have become a particular 
leader on health issues here in the Congress, and Mr. Brownback 
and I have worked together on a number of issues, including 
issues that proved controversial in some forms--the marriage 
issue, where there has been a decline among African Americans. 
It is catastrophic. And I must say a similar decline among 
white people, except for people in the upper middle and upper 
classes.
    May I thank you, Mr. Brownback, for what you said about 
Best Friends. Best Friends has done an extraordinary job in the 
District of Columbia with its abstinence-only approach. The 
kind of caring attention that it gives is rare for any program. 
I know you did not mean to indicate that was what abstinence 
programs usually offered; nevertheless, this has been an 
extraordinary program of great value to us and the children and 
the parents that have chosen it.
    I don't understand why this subject has been so 
contentious. I agree with Mr. Brownback we ought to look at all 
the studies. Don't put a dime on comprehensive sex education 
programs that don't work. Test them in the same way that we 
test abstinence-only programs.
    The concern that many of us have with abstinence-only 
programs is the notion that there would be any such matter 
where one size could possibly fit all. It is so individual, so 
family oriented.
    Mr. Brownback, you have been Chair of the D.C. 
Appropriations Subcommittee. I don't need to tell you that you 
would be laughed out of many classrooms in the District of 
Columbia if you talked about abstinence where the children come 
to junior high school and high school already experiencing sex. 
This troubles me greatly. I wish there were some way. I cannot 
imagine wanting my own child to do anything but abstain until 
marriage. Frankly, that would be my wish. I would do everything 
I could to encourage that to happen, and many parents find that 
is a failing effort today.
    My question is particularly, Mr. Brownback, I know from my 
friendship with you, from your own work, your respect for local 
control, for the views of parents, the sensitive way you have 
handled the marriage funding that we did here, all with consent 
and encouraging greater marriage in some of our poorer 
communities. I am wondering why committing this to local 
control, where you might have some people--and I can tell you 
there would be some in the District that would say, I want a 
program like Best Friends in my community, and where you would 
have others with parents who are at their wits' end. Many of 
them are poor parents and single parents. Many of them are 
single parents of boy children. They can't begin to even talk 
with them about sex. If there is somebody in school that will 
give them the whole deal when this mother who works every day 
as a single mother doesn't even know how to approach the 
subject, is poorly educated, if you tell her that her son or 
her daughter should have an abstinence-only program she will be 
puzzled.
    Would there be any harm in allowing local communities to 
make this decision based on their own family needs, based on 
the composition of the community? Would that be consistent with 
your values and mine?
    Senator Brownback. First, let me say it has always been my 
pleasure to work with you, and I was looking at you and 
thinking there is nobody on your side of the aisle that has 
gotten more votes out of me than you on a whole range of 
topics, and I can't recall me getting one back from you.
    Ms. Norton. There is one more I want from you, too.
    Senator Brownback. I just want my first out of you. That is 
all I am looking for. I can't even get her to--I don't know, 
did you cheer for the Jayhawks in the final four?
    Ms. Norton. Don't change the subject, Sam.
    Senator Brownback. I just wanted you to at least give me 
that.
    You know, I have enjoyed working with you. I have enjoyed 
working in D.C. I know you say I would get laughed out of the 
classroom. I recall I think we were getting laughed out when we 
were promoting marriage. There are certain areas that people 
getting married is unusual within that block or that area. Now 
we have people that are getting married in some of these 
communities.
    Ms. Norton. Yes, but we don't have marriage only. We 
encourage them to come in. It is the exclusivity of the 
approach.
    Senator Brownback. I know, but let me make my point on 
this. Let me make my point, because you are very good at making 
yours.
    Ms. Norton. OK.
    Senator Brownback. Senator Moynihan, I took a lot of 
guidance from him before he left this body and passed away, and 
his view was the key thing we ought to be focused on is how you 
raise your next generation. The key thing you ought to be 
focused on is how you raise your next generation. I think for 
us, the Federal Government, to say, here are funds that we 
believe this is the high expectation approach is fully 
appropriate for the Federal Government to do, of a high 
expectation.
    Now, you are saying a bunch of States say we don't want it. 
Maybe the District of Columbia has said the same thing. We have 
a lot of money going to the sex education programs. GAO says it 
is 5-to-1 on comprehensive. There is a lot of funds going in 
there. I think this amount that we are putting in, what I would 
be critical of on it is that I think we need to make sure we 
are at ones like Best Friends that work and not ones that don't 
work. I think that really is where our focus should be.
    Chairman Waxman. Thank you, Ms. Norton.
    Let me advise the members of the committee that our two 
witnesses have other responsibilities and are anxious to go to 
them. I don't want to deny or deprive any Member of an 
opportunity to ask questions, because our rules do provide for 
5 minutes.
    Let me ask Members who are cognizant of that fact to try to 
limit your questions, recognizing the time constraints of our 
witnesses.
    Ms. Foxx. Mr. Chairman.
    Chairman Waxman. Yes.
    Ms. Foxx. I am having difficulty hearing people down here. 
I would just like to ask if people could really put the mics 
close and speak up. I just ask for clarity. I would really 
appreciate that. Thank you.
    Chairman Waxman. Good point.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I have someone waiting 
in my office, so I will be very brief.
    Senator Brownback just said a few minutes ago that the 
culture is pushing in the opposite or harmful direction at 
times, and someone else mentioned the TV shows and the movies, 
and they all work together to almost seem to pressure young 
people into thinking that they are odd if they don't have early 
sex. But Senator Brownback just mentioned Senator Moynihan, and 
Senator Moynihan made a famous statement several years ago. He 
said we have been defining deviancy down, accepting as a part 
of life what we once found repugnant. That seems to become more 
true with each passing year. So I think Senator Brownback is 
right when he says that we should encourage people to higher 
expectations or higher or better goals.
    There is some discrepancy that I don't understand. Maybe 
the witnesses can explain it later. But there is a Heritage 
study that came out yesterday that said we spend 12 times this 
much on comprehensive sex education as opposed to abstinence-
only education, but the Zogby poll that has been mentioned 
showed that by more than a 2-to-1 margin that parents want or 
prefer the abstinence approach, and it seems rather elitist to 
me for people who maybe have degrees in this field to feel that 
they, because they have studied it, somehow know better than 
the parents what is best. I still think parents know what is 
best for their children.
    The message that teens receive from abstinence is pretty 
simple and very clear. The only way to avoid all the harmful 
consequences of sexual activity is to abstain. Education about 
abstaining teaches young people how to set goals and build 
healthy relationships. So I don't think it is something that we 
should abandon, which seems to be sort of the thrust of where 
we are headed.
    The people who want to encourage young people to abstain 
could have produced numerous witnesses here to support or to 
show that this type of training is working, and so with that I 
will yield whatever time I have left to Mr. Issa.
    Mr. Issa. I thank the gentleman, and I will try to use this 
time rather than any further time.
    Lois, Sam, if we can get you two to agree on things I think 
it would go a long way toward this committee doing the right 
thing. Nancy Reagan, a famous California lady, had the 
expression Just Say No when it came to drugs. It didn't work, 
did it? People still use illegal drugs, don't they?
    Ms. Capps. Yes, they do.
    Mr. Issa. OK. We agree. But don't we also agree that the 
message of not doing illegal drugs is a good one to continue 
having?
    Ms. Capps. Are you asking me?
    Mr. Issa. Both of you.
    Ms. Capps. All right. I will answer quickly.
    Mr. Issa. I am looking for all yeses, because I think in a 
sense we are concentrating on what we disagree on rather than 
what we agree on.
    Ms. Capps. We agree on that, but I guess I would say 
knowing why you are saying no is a good idea.
    I apologize. I am going to have to leave the rest of this.
    Senator Brownback. I agree.
    Mr. Issa. So, Senator, continuing on with you, when we get 
to what is being called abstinence here, aren't we really just 
saying no, but the reason it is a chorus and not just 
abstinence is that it takes longer to explain to young and 
women why there are advantages health-wise, relation-wise, 
future-wise, that, in fact, abstinence training is a process of 
teaching why waiting makes sense, isn't it?
    Senator Brownback. Absolutely. And you didn't touch on the 
emotional side of it, but you are dealing with a teenage person 
generally with this, and the emotional side of this is so 
critical. And you are finding, too, in these studies that I 
have reviewed, that the abstinence programs that work the best 
generally spend the most time. They spend a lot of time 
drilling into these concepts as to why. And those are the ones 
that are more successful, not a superficial deal.
    Mr. Issa. So, just to conclude, because my time is limited, 
too, or Mr. Duncan's time is limited, two things: one, even 
though we will not have 100 percent success in abstinence, even 
though the figures will show that it does not work all the 
time, there is no reason not to continue doing it, for the same 
reason as we continue to teach not to take illegal drugs 
because men and women are dying in America.
    Senator Brownback. Agreed.
    Mr. Issa. And then, last, when it comes to the other side 
of the issue, teaching people that transmittable diseases have 
to be prevented and teaching about the consequences of those, 
that has to be done regardless of whether you are teaching it 
through abstinence or you are teaching it through other parts 
of sex education. That is just as important for men and women 
for their protection, young men and women.
    Senator Brownback. I have a book here that we could enter 
into the record that is an abstinence education booklet that 
teaches about that, as well.
    Mr. Issa. Thank you. Mr. Chairman, I would ask the 
chairman's consent that be entered into the record.
    Chairman Waxman. Without objection, that will be the order.
    Mr. Issa. Thank you, Senator.
    Thank you, Mr. Chairman.
    Chairman Waxman. Ms. Watson, do you wish to take your time? 
What some of the Members are going to be doing on the other 
side is splitting their time.
    Ms. Watson. OK. I will be real quick. I would like 
permission to submit my speech into the record, please.
    Chairman Waxman. Without objection.
    Ms. Watson. I just wanted to say this. As I listened to 
these two very fine, fine colleagues of mine, I see an 
ideological discussion versus a reality discussion. Abstinence-
only is more ideological rather than comprehensive sex 
education programs. Reality.
    I represent a community called Hollywood, and so many of 
the young people in my District and in California look at these 
performers as idols, and we watch their behavior and they 
pattern after that behavior. Abstinence-only does not reach in 
a comprehensive way these young people, because they take their 
lead from what they see on the Internet, what they see on 
television, what they hear in terms of music.
    So my question is: how do we get to the range of 
experiences when we talk about abstinence-only? Also, I 
represent an area where there are no fathers in the home, and 
mothers are there taking care the best they can. They are busy 
working one, two, and three jobs. They don't have time to focus 
on discussions of sex when the youngsters are on the streets 
and they take the lead from their peers. So my question to you, 
Senator Brownback: how do we then convey with funding only 
for--California turned down the abstinence-only funds. How do 
we convey to our young people when we don't have an intact 
home, we don't have a functioning home, we don't have two 
parents in the home, and we don't have the resources to really 
address abstinence-only? We really need to look at a 
comprehensive sex education program.
    Senator Brownback. Well, No. 1, I think you and the 
chairman probably represent the Districts that could affect 
this debate more than anybody else in the whole world, and your 
working with people in your Districts would probably do the 
most to change this whole debate of anybody anywhere because of 
what is coming out culturally----
    Ms. Watson. Taking back my time for a second, I have a bill 
out there that we are using films as diplomacy. it happens to 
be down in South Africa, because we are looking at the spread 
of HIV/AIDS. I would like to talk to you about going on as an 
author, because what we are trying to do is use those quality 
films to impress certain behaviors in other people and certain 
respect for us here in the United States. I would like to talk 
to you about it, because we are trying to use a media to give 
the right messages.
    But I don't see it in a narrow perspective of abstinence-
only. We have to face the reality of the audiences that we are 
dealing with, and we are trying to do that through a means of 
communication. We are going to use films, Hollywood.
    Senator Brownback. I work with a number of people from 
Hollywood a lot on African issues, because I have been involved 
a lot with the African continent. They are the ones that could 
change this debate more than anybody else. I would hope and 
pray they would do it in an abstinence and be faithful setting.
    Ms. Watson. But, you see, that is not the only means.
    Senator Brownback. I know that.
    Ms. Watson. Yes.
    Senator Brownback. You know that. But there is an 
expectation that we can set for society, we can set for our 
kids. You know, I want you to make all A's.
    Chairman Waxman. And not see those movies and not listen to 
those records.
    Senator Brownback. But my point is I don't set a low 
expectation----
    Chairman Waxman. I think you can do t in Kansas, not only 
in Hollywood.
    Senator Brownback [continuing]. And nor should the Federal 
Government set a low expectation.
    Ms. Watson. Just the bottom line is I don't think one size 
fits all, and that is the reason why California turned, because 
we deal with the realities of our various diversified segments 
of California, and we have to send a comprehensive message out 
there and hope that it can be backed up in the home and in the 
community as a whole.
    Senator Brownback. The comprehensive message hasn't worked. 
We have one in two African American teenage girls with an STD.
    Ms. Watson. Well, abstinence-only, and we have results from 
other areas where it has not worked, so I don't know if we are 
using our money wisely.
    Thank you, and I yield back my time.
    Senator Brownback. The current approach hasn't worked.
    Chairman Waxman. We are going to find out from the next 
panel, because they have done actual measurements, not just 
given us opinions. Let's find out what has worked.
    Senator, we still have some other Members who wish to ask 
you some questions.
    Senator Brownback. I am way past due on another set of 
activities that I was supposed to go to. I need to move on if I 
can, Mr. Chairman.
    Chairman Waxman. Well, my colleagues, I don't know what to 
do here, but I think out of respect to the Senator, who has 
given us very generously a great deal of his time, I think we 
ought to release him, unless there is objection.
    Mr. Souder. Reserving the right to object, what I have said 
is I will yield my time first on the next panel to the Members 
on our side who didn't get a chance.
    Senator Brownback. Mr. Chairman, thanks for your time and 
thanks for your courtesy. I appreciate both greatly.
    Chairman Waxman. Thank you so much.
    For our next panel we have the following witnesses who will 
share their assessment of the existing body of evidence on 
abstinence-only and comprehensive sex education programs.
    Dr. John Santelli is a professor and Chair of the Halbren 
Department of Population and Family Health at the School of 
Public Health at Columbia University and a senior fellow at the 
Guttmacher Institute. He is a pediatrician, an adolescent 
medicine specialist who has conducted research on HIV/STD risk 
behaviors, programs to prevent STD, HIV, and unintended 
pregnancy among adolescents, women, school-based health 
centers, and research ethics.
    Dr. Georges Benjamin has been the executive director for 
the American Public Health Association, the oldest and largest 
organization of public health professionals in the United 
States, since December 2002. His prior positions include chief 
of staff for Emergency Medicine at Walter Reed, and he is also 
a member of the Institute of Medicine, National Academies of 
Science.
    Dr. Margaret J. Blythe is Chair of the Committee on 
Adolescence for the American Academy of Pediatrics. She is a 
professor of pediatrics at Indiana University School of 
Medicine.
    Dr. Stanley Weed is the director of the Institute for 
Research and Evaluation, which he and colleagues formed in 1988 
to focus on social problems and programs related to 
adolescence, including teen pregnancy, drug abuse, and 
delinquency.
    Finally, we are very honored to have Dr. Harvey Fineberg, 
president of the Institute of Medicine of the National 
Academies. At the IOM he has chaired and served on numerous 
health policy panels ranging from AIDS to new medical 
technology.
    The last two speakers on this panel will help us put a face 
on the scientific evidence we discuss here today.
    At the age of 15, Shelby Knox led a campaign to replace her 
high school's abstinence-only curriculum with medically 
accurate, comprehensive sex education after realizing the 
programs were ineffective in preventing rising teen pregnancy 
and sexually transmitted diseases. Today she is a writer and 
speaker on youth and reproductive health.
    And Max Siegel leads student-based HIV prevention 
interventions and is a policy associate at the AIDS Alliance 
for Children, Youth and Families.
    We are pleased to have you here us at this hearing. Your 
prepared statements will be made part of the record in its 
entirety. We would like to ask each of you, however, to limit 
your oral presentations to no more than 5 minutes.
    Dr. Santelli, we will start with you. There is a button on 
the base of the mic. Please be sure it is pressed in so that 
the mic is working. We will start with you.

  STATEMENTS OF JOHN SANTELLI, DEPARTMENT CHAIR, PROFESSOR OF 
CLINICAL POPULATION AND FAMILY HEALTH, MAILMAN SCHOOL OF PUBLIC 
   HEALTH, AND PROFESSOR OF CLINICAL PEDIATRICS, COLLEGE OF 
PHYSICIANS AND SURGEONS, COLUMBIA UNIVERSITY; GEORGES BENJAMIN, 
    EXECUTIVE DIRECTOR, AMERICAN PUBLIC HEALTH ASSOCIATION; 
    MARGARET J. BLYTHE, M.D., CHAIR OF AMERICAN ACADEMY OF 
  PEDIATRICS' COMMITTEE ON ADOLESCENCE; STANLEY WEED, PH.D., 
    DIRECTOR, INSTITUTE FOR RESEARCH AND EVALUATION; HARVEY 
FINEBERG, M.D., PH.D., PRESIDENT, INSTITUTE OF MEDICINE OF THE 
NATIONAL ACADEMIES; MAX SIEGEL, POLICY ASSOCIATE, AIDS ALLIANCE 
   FOR CHILDREN, YOUTH AND FAMILIES; AND SHELBY KNOX, YOUTH 
                            SPEAKER

                   STATEMENT OF JOHN SANTELLI

    Dr. Santelli. Thank you, Chairman Waxman, distinguished 
members of the committee, and guests. Thank you all for the 
opportunity today to speak to you about the health needs of 
adolescents and my own research on abstinence-only education.
    My name is John Santelli, as the chairman indicated. I am a 
pediatrician, a father, and chair a department at Columbia.
    Importantly, before moving to New York City I worked for 13 
years with the CDC and, in fact, 5 years as a school health 
doctor for Baltimore City, worked extensively in research 
ethics.
    In the past few years I have conducted research that seeks 
to understand adolescent sexual behavior and the reasons for 
the recent declines in teen pregnancy rates. That is what I 
would like to speak with you about today.
    My written testimony goes into some of the other important 
scientific and ethical critiques that have been raised about 
abstinence-only education for young people. I brought slides 
today, so I hope this works.
    [Simultaneous slide presentation.]
    Dr. Santelli. First I would like to speak about some of the 
demographic realities for young people. I would suggest to you 
that the current U.S. emphasis on abstinence-only or 
abstinence-until-marriage is out of touch with the broad 
demographic trends and the realities of young people's lives. 
Premarital sex is nearly universal among young people. Based on 
CDC data, by the time one reaches age 44, 99 percent of 
Americans have had sex, and 95 percent have had premarital sex.
    This reality is the result of both trends toward an earlier 
age of sex, beginning in the 1960's at some point, but also 
later trends in marriage. So, as the slide shows, in 1970 there 
was a gap, a small gap of only about a year-and-a-half between 
first sexual intercourse and marriage, but by 2002 the gap for 
young women was a full 8 years. For young men it is more like 
10 years. This is a fairly universal phenomenon. It is seen 
around the globe, this rising age at marriage. And it suggests 
that trying to get young people to wait until marriage is going 
to be somewhat unrealistic.
    This is just to remind you of the statistic that has 
already been mentioned today. Teen pregnancy rates really 
declined fairly dramatically. Beginning around 1990 both teen 
birth rates and teen pregnancy rates declined pretty 
dramatically. The biggest declines have been among young 
people, often among minority youth, and that is all good news.
    Of course, there is this worrisome trend that is a little 
hard to see, but in 2006 the birth rates went up. Let me then 
talk about some of the explanation for that.
    Recent declines in teen sexual activity appear to be 
unrelated to the Federal program. According to data from CDC, 
rates of sexual experience among high school kids grades 9 to 
12 declined from about 54 percent in 1991 to about 47 percent 
in 2002, and essentially have been flat since 2001.
    Much of the reduction in the rates of adolescent sexual 
activity occurred before the Federal Government began 
widespread funding of abstinence education in 1998. You can see 
the points at which the two Federal programs were instituted.
    My own research suggests that most of the decline in teen 
pregnancy rates, about 86 percent among 15 to 19-year-olds 
between 1995 and 2002 was the result of improved contraceptive 
use. Not surprisingly, abstinence played a somewhat greater 
role for the younger kids, those 15 to 17, but even in that 
group three-quarters of the decline was the result of improved 
contraceptive use. This is data based on the CDC's National 
Survey of Family Growth, but we have recently repeated that 
data using the Youth Risk Behavior Survey data, and again we 
found about 70 percent of that decline was the result of 
improved contraceptive use, consistent, I would suggest, with 
the European experience where European teens have much lower 
pregnancy rates, similar rates of sexual involvement, but much, 
much better contraceptive use, and therefore much lower 
pregnancy rates.
    Unfortunately, these positive trends in contraceptive use 
reversed in 2005. Again, the top line is condom use, but you 
can see many of the other methods listed there. And you can see 
that in 2005, again in the high school data, condom use 
declined somewhat. Use of no method increased somewhat. This 
lines up precisely with the increase in birth rates. It is only 
a 1-year change, but we need to keep monitoring this.
    Chairman Waxman. Thank you very much, Dr. Santelli.
    Dr. Santelli. Am I out of time?
    Chairman Waxman. You are.
    Dr. Santelli. OK.
    Chairman Waxman. Do you want to make a concluding 
statement?
    Dr. Santelli. Let me just say one thing. I think a lot of 
what we are going to hear today or we have already heard today 
are differences of opinion about the facts. Good commonality on 
our goals. We all care about young people and I am glad to hear 
that. I think the panel today represents the folks who put 
together scientific and medical consensus in this country, and 
I hope we will stop arguing over the facts and move on to what 
we know works.
    Thank you.
    [The prepared statement of Dr. Santelli follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.056
    
    [GRAPHIC] [TIFF OMITTED] T6712.057
    
    [GRAPHIC] [TIFF OMITTED] T6712.058
    
    [GRAPHIC] [TIFF OMITTED] T6712.059
    
    [GRAPHIC] [TIFF OMITTED] T6712.060
    
    [GRAPHIC] [TIFF OMITTED] T6712.061
    
    [GRAPHIC] [TIFF OMITTED] T6712.062
    
    [GRAPHIC] [TIFF OMITTED] T6712.063
    
    [GRAPHIC] [TIFF OMITTED] T6712.064
    
    [GRAPHIC] [TIFF OMITTED] T6712.065
    
    [GRAPHIC] [TIFF OMITTED] T6712.066
    
    [GRAPHIC] [TIFF OMITTED] T6712.067
    
    [GRAPHIC] [TIFF OMITTED] T6712.068
    
    [GRAPHIC] [TIFF OMITTED] T6712.069
    
    [GRAPHIC] [TIFF OMITTED] T6712.070
    
    [GRAPHIC] [TIFF OMITTED] T6712.071
    
    [GRAPHIC] [TIFF OMITTED] T6712.072
    
    [GRAPHIC] [TIFF OMITTED] T6712.073
    
    [GRAPHIC] [TIFF OMITTED] T6712.074
    
    [GRAPHIC] [TIFF OMITTED] T6712.075
    
    [GRAPHIC] [TIFF OMITTED] T6712.076
    
    [GRAPHIC] [TIFF OMITTED] T6712.077
    
    [GRAPHIC] [TIFF OMITTED] T6712.078
    
    [GRAPHIC] [TIFF OMITTED] T6712.079
    
    [GRAPHIC] [TIFF OMITTED] T6712.080
    
    [GRAPHIC] [TIFF OMITTED] T6712.081
    
    [GRAPHIC] [TIFF OMITTED] T6712.082
    
    [GRAPHIC] [TIFF OMITTED] T6712.083
    
    [GRAPHIC] [TIFF OMITTED] T6712.084
    
    [GRAPHIC] [TIFF OMITTED] T6712.085
    
    [GRAPHIC] [TIFF OMITTED] T6712.086
    
    [GRAPHIC] [TIFF OMITTED] T6712.087
    
    [GRAPHIC] [TIFF OMITTED] T6712.088
    
    [GRAPHIC] [TIFF OMITTED] T6712.089
    
    [GRAPHIC] [TIFF OMITTED] T6712.090
    
    [GRAPHIC] [TIFF OMITTED] T6712.091
    
    [GRAPHIC] [TIFF OMITTED] T6712.092
    
    [GRAPHIC] [TIFF OMITTED] T6712.093
    
    [GRAPHIC] [TIFF OMITTED] T6712.094
    
    [GRAPHIC] [TIFF OMITTED] T6712.095
    
    [GRAPHIC] [TIFF OMITTED] T6712.096
    
    [GRAPHIC] [TIFF OMITTED] T6712.097
    
    [GRAPHIC] [TIFF OMITTED] T6712.098
    
    [GRAPHIC] [TIFF OMITTED] T6712.099
    
    [GRAPHIC] [TIFF OMITTED] T6712.100
    
    [GRAPHIC] [TIFF OMITTED] T6712.101
    
    [GRAPHIC] [TIFF OMITTED] T6712.102
    
    [GRAPHIC] [TIFF OMITTED] T6712.103
    
    [GRAPHIC] [TIFF OMITTED] T6712.104
    
    [GRAPHIC] [TIFF OMITTED] T6712.105
    
    [GRAPHIC] [TIFF OMITTED] T6712.106
    
    [GRAPHIC] [TIFF OMITTED] T6712.107
    
    [GRAPHIC] [TIFF OMITTED] T6712.108
    
    [GRAPHIC] [TIFF OMITTED] T6712.109
    
    [GRAPHIC] [TIFF OMITTED] T6712.110
    
    [GRAPHIC] [TIFF OMITTED] T6712.111
    
    [GRAPHIC] [TIFF OMITTED] T6712.112
    
    [GRAPHIC] [TIFF OMITTED] T6712.113
    
    [GRAPHIC] [TIFF OMITTED] T6712.114
    
    [GRAPHIC] [TIFF OMITTED] T6712.115
    
    [GRAPHIC] [TIFF OMITTED] T6712.116
    
    [GRAPHIC] [TIFF OMITTED] T6712.117
    
    [GRAPHIC] [TIFF OMITTED] T6712.118
    
    [GRAPHIC] [TIFF OMITTED] T6712.119
    
    [GRAPHIC] [TIFF OMITTED] T6712.120
    
    [GRAPHIC] [TIFF OMITTED] T6712.121
    
    Chairman Waxman. Thank you very much.
    Dr. Benjamin.

                 STATEMENT OF GEORGES BENJAMIN

    Dr. Benjamin. Good morning, Mr. Chairman and members of the 
committee. Let me just first of all thank you very much for 
having this hearing and just say that I am here representing 
the American Public Health Association, and we adopt policies 
every year looking at very, very important public policy 
issues. We have addressed this issue in 1990, 2003, 2005, and 
then again in 2006.
    Let me just say the bulk of our policies certainly 
recognize the critical, critical importance of ensuring 
abstinence. I think every public policy person and every parent 
certainly wants to do that. But we have expressed significant 
concern about abstinence-only programs, and actually would call 
for their termination in terms of Federal funding in their 
current form.
    We have had three areas of concern. Area of concern No. 1 
is fundamentally do they work. We think certainly that the 
weight of the evidence today, as they are currently constructed 
they do not work. What I mean by work means that do they create 
abstinence and do they create the public health outcomes that 
we really need in the long term. We don't think that they do 
that.
    Second, just to point out that we do believe that the 
alternative is comprehensive health education, particularly 
around sexuality issues, and we do think they work. We think 
that certainly nothing is perfect, but when you compare the 
two, that the comprehensive approach is much better.
    Second, do the abstinence-only programs complicate other 
public health measures? The answer to that we certainly think 
is that they do, and they do in a variety of ways. One, they 
cause a great deal of confusion. One of the things I have 
learned, both in my time practicing clinical medicine, and, of 
course, certainly my time as a parent, that our kids are much 
farther along than we think they are. They know much more and 
they are a whole lot more curious than we think. So when you 
give them only a single message, they are going to seek the 
stuff we don't tell them in other places.
    These programs in many cases don't give the kids the tools 
that they need, the facts that they need to combat 
inappropriate or inadequate or unscientific information that 
they may hear or pick up amongst their peers or in other 
places. We think there are lots of problems with that.
    We think that there has been real targeting on the efficacy 
of condoms as an alternative, again, for those children for 
which abstinence has now failed. It really doesn't give them 
the tools to go about that, because of the lack of facts.
    We think that certainly the fact that 17 States have now 
said that they are not going to take funding, having been a 
health officer in two jurisdictions, here in the District of 
Columbia and in the State of Maryland, I can tell you for a 
health department to give up funding is a very, very 
significant act. That is money that could go for very important 
public health efforts.
    And then I think finally significant ethical concerns. As a 
clinician, one of the challenges that I have always is figuring 
out what to tell people, what to tell patients, what to tell 
the community. I have discovered the best answer to that is to 
tell them what I know, tell them what I don't know, to be very 
clear with them, to tell them at a level, either if I am 
writing, at a literacy level, or in speaking, in a language 
that they will understand, that is culturally appropriate, that 
is age appropriate, and to deal with that in the most honest 
way that I can.
    My real concerns, I think the concerns of APHA, is that, at 
least as currently constructed, these abstinence-only programs 
on bulk don't do that, and so we have real significant concerns 
about their continuation.
    With that I will stop. Thank you.
    [The prepared statement of Dr. Benjamin follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.122
    
    [GRAPHIC] [TIFF OMITTED] T6712.123
    
    [GRAPHIC] [TIFF OMITTED] T6712.124
    
    [GRAPHIC] [TIFF OMITTED] T6712.125
    
    [GRAPHIC] [TIFF OMITTED] T6712.126
    
    [GRAPHIC] [TIFF OMITTED] T6712.127
    
    [GRAPHIC] [TIFF OMITTED] T6712.128
    
    Chairman Waxman. Thank you very much, Dr. Benjamin.
    Dr. Blythe.

                STATEMENT OF MARGARET J. BLYTHE

    Dr. Blythe. Chairman Waxman, Ranking Member Davis, members 
of the committee, good morning and thank you for inviting me.
    As a current Chair for the Committee on Adolescence, I have 
been asked to give testimony regarding the position of the 
American Academy of Pediatrics on Abstinence-Only Education and 
comprehensive sexuality education and the evidence supporting 
this decision.
    The American Academy of Pediatrics supports age-
appropriate, comprehensive sexuality education and wants to 
ensure that our Nation's resources are being allocated toward 
educational approaches that are science based, emphasize 
abstinence, but also provide medically accurate information for 
those teens contemplating or already having sexual experiences. 
That support for comprehensive education is apparent in the 
policies that we have written and endorsed and listed in this 
testimony.
    Nearly all teens experience pressure to have sex at some 
time, and therefore nearly all teens are at risk for having a 
pregnancy or a sexually transmitted infection. Abstinence-only 
programs have not been proven to change or impact adolescent 
sexual behaviors in an effective way, as documented by five 
reviews, which include the federally funded evaluation. Yet, 
vast sums of Federal moneys continue to be directed toward 
these programs.
    In fact, there is evidence to suggest that some of these 
programs are even harmful and have negative consequences by not 
providing adequate information for those teens who do become 
sexually active. Comprehensive sexuality education supports 
abstinence as the best strategy in which a teen can use to 
decrease the risk of unintended pregnancy and sexually acquired 
infections. Those adolescents who choose to abstain from sexual 
intercourse should obviously be encouraged and supported in 
their decisions by their families, peers, and communities. But 
abstinence should not be the only strategy that is discussed. 
Rigorous scientifically valid research supports the 
effectiveness of comprehensive sexuality education in delaying 
the initiation of sexual intercourse and reducing risky sexual 
behaviors.
    When the information presented is straightforward, that 
means real or relevant to their life experiences and specific. 
That means medically accurate and correct. This means that sex 
education must include information on contraception and condom 
use.
    Providing information to adolescents about contraception 
does not result in increased rates of sexual activity, earlier 
age of first intercourse, or result in a greater number of 
sexual partners. Emphasizing both abstinence and protection for 
those who do have sex is a realistic, effective approach that 
does not appear to confuse young people, only perhaps sometimes 
the adults around them.
    But, despite the encouraging results that have been 
reported when using comprehensive approaches, there have been 
no Federal moneys directed specifically toward education 
programs. Getting teens to delay having sex or to use safer sex 
practices remains a challenge, as there are many factors that 
determine sexual behavior, and estimates suggest that there are 
over 500 different factors.
    The most recent data suggests for the first time in 14 
years the birth rate for teens in the United States has 
increased across virtually all racial and ethnic groups. A 
recent report by the Center for Disease Control estimates that 
one in four girls between the ages of 14 to 19 has at least one 
sexually transmitted infection, and, as already indicated this 
morning, citing the ineffectiveness of abstinence-only 
programs, 17 States have opted out of Federal funding.
    Adolescence is a time of growth both physically, psycho-
socially, and emotionally. Developing a healthy sexuality is a 
key developmental task for adolescents. As a physician, I spend 
the majority of my professional time in the trenches. Each week 
I personally see teens in consultation clinics, three different 
community sites, a school-based clinic, and the county juvenile 
detention center. I also serve as the medical director of the 
clinical program that provided over 40,000 visits to teens last 
year in these different settings. In every venue teens are 
trying to figure it out--who they are, where they want to go, 
and what they want to be.
    Adolescence is a time of trial and error, and, frankly, 
sometimes they get burned even when appropriate information has 
been offered or given. But we do not want them to get burned 
just because the information given or offered was inaccurate or 
distorted or not available at all. We need available to us in 
the trenches evidence-based approaches that support healthy 
decisionmaking regarding sexuality, which will benefit not only 
the health of the teens we work with on a day-to-day basis, but 
ultimately the health of our society and Nation as a whole.
    Thank you.
    [The prepared statement of Dr. Blythe follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.129
    
    [GRAPHIC] [TIFF OMITTED] T6712.130
    
    [GRAPHIC] [TIFF OMITTED] T6712.131
    
    [GRAPHIC] [TIFF OMITTED] T6712.132
    
    [GRAPHIC] [TIFF OMITTED] T6712.133
    
    [GRAPHIC] [TIFF OMITTED] T6712.134
    
    [GRAPHIC] [TIFF OMITTED] T6712.135
    
    Chairman Waxman. Thank you very much, Dr. Blythe.
    Dr. Weed.

                   STATEMENT OF STANLEY WEED

    Mr. Weed. Thank you, Mr. Chairman, for inviting me here 
today. I have been working in this field for almost 20 years. I 
have learned some things about abstinence education programs. I 
started with a very skeptical attitude thinking how in the 
world could this work, given the culture and the society that 
kids live in. Since that time I have learned that it can work. 
Not all of them do, but many of them do, and we have learned 
which ones do and why.
    I have also seen that there is a lot of misunderstanding 
and misperceptions. Let me give you two examples.
    One young man who was asked about if he was abstinent said, 
No, sir. I am here every day. Another example, I have heard the 
phrase abstinence-only maybe 100 times here today, and in the 
100 programs that I have evaluated I wouldn't classify any of 
them as abstinence-only. They are much broader, they are much 
richer, and they are much deeper than an abstinence-only just 
say no kind of message.
    [Simultaneous slide presentation.]
    Mr. Weed. With chart No. 4 I would like to illustrate some 
examples of programs that work. This is out of Virginia. This 
program, the comparison group without the program, their 
initiation rate 12 months later was 16.4 percent. The program 
kids, their transition rate was 9.2 percent. That is a fairly 
substantial and significant difference in terms of impact on 
initiation rates.
    Patterns of evidence are critical in terms of understanding 
program and policy effects. One rigorous study along is not 
sufficient. Informed decisions require multiple studies with 
replication of results across populations, programs, and 
settings. Our goal should be to look for patterns of research 
results that can inform best practices for risk avoidance 
programs.
    Here is another example. This one comes from Georgia. Our 
comparison kids, the transition rate for this group is 20.9 
percent, and for our program kids it was 11.1 percent--again, 
47 percent is likely to initiate sexual activity, a fairly 
substantial impact in terms of initiation rates.
    The next example, this one comes from South Carolina, a 
large study of kids where the comparison group initiation rates 
of sexual activity is 26.5 percent, and in our program group it 
was 14.5 percent.
    Again, in all three cases cutting initiation rates in half 
in a 1-year time period.
    Now, there is a public perception that abstinence education 
doesn't work and that contraceptive education does work. In 
fact, there is a brochure out by the national Campaign to 
Prevent Teen Pregnancy. There is a brochure that says we have 
strong evidence about what works in preventing teen pregnancy. 
They list 28 programs, the impression being any 1 of these 28 
will reduce teen pregnancy; 20 of those 28 never measured the 
impact on teen pregnancy. The 8 that did measure it, 3 had 
results 12 months or beyond; 1 of the 3 was not a sex education 
program, 1 was retested later and failed to find results, and 1 
of 28 reported pregnancy reduction beyond 12 months. That does 
not constitute, in my opinion, strong evidence, nor does it 
support the public perception that we have mounds of evidence 
that this works.
    Douglas Kirby, a colleague of yours and mine, I think, 
reviewed 115 programs--released in 2007 called Emerging 
Answers--108 could be considered, could be categorized as 
comprehensive in terms of providing contraceptive education to 
kids. However, only 22 of those 115 measured the most important 
measure of condom use, which I think we all agree is consistent 
condom use. Of those 22, 1 reported an increase in consistent 
condom use, and this occurred in a clinic setting not in a 
public school education setting. One reported no increase, but 
it did better than the comparison group; 1 out of 115 does not 
constitute compelling evidence favoring contraceptive 
education.
    There is an important point here about measurement and 
impact and effects. This critical measure of consistent condom 
use is the best indicator of success. Anything less than this 
standard of effectiveness cannot be considered success. 
Inconsistent use, according to the CDC, failure to use condoms 
with every act of intercourse, can lead to STD transmission 
because transmission can occur with a single act of 
intercourse.
    So when we look at these programs, we are trying to compare 
them and weigh the evidence--which I think is your goal and I 
applaud you for it--we have to look at these programs in terms 
of do they have similar behavioral outcomes, and abstaining 
from sexual activity is a clear one, and consistent condom use 
is as close as we can come in comprehensive sex to that 
behavioral short-term kind of outcome. We have to have similar 
target populations and appropriate and similar timeframes.
    Based on comparability categories--that is, population and 
program settings are the same, followup is the same, outcome 
measures are the same--we have only got 8 studies in the 
abstinence category, we have 34, and not all of them measure 
CCU.
    Here's the bottom line: even when we have comparable 
programs, the abstinence education in Kirby's review showed 5 
out of 7 increased abstinence and 9 out of 34 increased 
abstinence in the comprehensive program. However, consistent 
condom use, zero out of 34 in the comprehensive side, zero out 
of 34 that decreased STD rates. It was three that decreased 
pregnancy, but one of them was, as I mentioned, not replicated.
    I see my time is up. I can hold my last two slides if there 
are questions. Thank you very much.
    [The prepared statement of Mr. Weed follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.136
    
    [GRAPHIC] [TIFF OMITTED] T6712.137
    
    [GRAPHIC] [TIFF OMITTED] T6712.138
    
    [GRAPHIC] [TIFF OMITTED] T6712.139
    
    [GRAPHIC] [TIFF OMITTED] T6712.140
    
    [GRAPHIC] [TIFF OMITTED] T6712.141
    
    [GRAPHIC] [TIFF OMITTED] T6712.142
    
    [GRAPHIC] [TIFF OMITTED] T6712.143
    
    [GRAPHIC] [TIFF OMITTED] T6712.144
    
    [GRAPHIC] [TIFF OMITTED] T6712.145
    
    [GRAPHIC] [TIFF OMITTED] T6712.146
    
    [GRAPHIC] [TIFF OMITTED] T6712.147
    
    [GRAPHIC] [TIFF OMITTED] T6712.148
    
    [GRAPHIC] [TIFF OMITTED] T6712.149
    
    [GRAPHIC] [TIFF OMITTED] T6712.150
    
    [GRAPHIC] [TIFF OMITTED] T6712.151
    
    [GRAPHIC] [TIFF OMITTED] T6712.152
    
    [GRAPHIC] [TIFF OMITTED] T6712.153
    
    Chairman Waxman. OK. Thank you very much, Dr. Weed.
    Dr. Fineberg, good to see you again.

                  STATEMENT OF HARVEY FINEBERG

    Dr. Fineberg. Thank you very much, Mr. Chairman, members of 
the committee. I am Harvey Fineberg. I am the president of the 
Institute of Medicine. Prior to becoming the president of the 
organization, I did serve as the chair of the committee that 
was looking into ways to reduce the risk of HIV infection, 
produced a report in 1999, No Time to Lose. Before that I 
served as dean at the Harvard School of Public Health, and 
prior to that practiced part time in neighborhood health 
centers in Boston. I have seen this issue from a variety of 
perspectives.
    I would like to make five points in my oral presentation to 
supplement the written testimony that I have submitted.
    First point I would like to make is that we are dealing 
with very complicated and variable interventions when we talk 
about sex education. Even though we are lumping them in two big 
categories of abstinence-only or abstinence-plus, the variety 
of elements in these programs should be a cautionary note to us 
in trying to interpret their effects. Exactly what is included? 
Exactly who is taught? Exactly how often? Exactly by whom? Over 
what timeframe? What exactly is being measured as the outcome 
that you are interested in? And how are you deciding whether or 
not the program is successful? These are all highly variable 
enterprises.
    My second point: if you are looking for penicillin to treat 
pneumonia, something that has proven to work and is 
demonstrably successful almost all the time, no one has yet 
found that magic formula for sex education. Programs can be 
variably successful for variable times on variable outcomes, 
but fundamentally the dominant problems that we have in 
sexually transmitted infections in our young people and the 
continued risks of exposure to infection, as well as these 
other problems, are still very significant and still the most 
important problem that I believe you, as Members of the 
Congress, should be concerned with and attempting to help our 
Nation do better with.
    My third point: because of all the variability and because 
of the emotionality and the prefixed positions about what works 
or should work, what do we want to work, one has to be 
especially scrupulous in examining the evidence in order to try 
to discern what does it tell us to date beyond this fundamental 
conclusion that there is no dominant, clearly victorious, magic 
strategy that will solve all of these problems.
    And if you look at the studies that have tried to separate 
out the most rigorous evaluations and combine them in these 
broad clusters of abstinence-only or abstinence-plus and ask 
them, when they have looked at behavioral interventions, that 
is behavioral outcome reports by individuals in the studies--
are they having sex earlier, are they having more or less sex, 
are they using protection--when you apply those standards and 
look at the studies in that light, two very significant reviews 
from the Cochrane Collaborative give us the following bottom-
line information: If you look at the abstinence-only studies of 
the 13 that they included, none of those studies that passed 
this rigorous methodologic standard demonstrated to have 
enduring behavioral affects. If you look at the 39 studies that 
they classified as abstinence-plus--and there is a lot of 
variability of what counts as abstinence-plus--23 of the 39 of 
those studies in this rigorous review found at least some 
benefit reported on one or another measure of behavior as a 
result of exposure to the programs.
    Now, that doesn't mean they worked very, very well, and it 
doesn't mean that it is impossible that other programs could be 
constructed that would work better. In fact, my hope is and my 
urging is that we will look for those.
    So my fourth point is: if you want to base your judgment on 
the evidence and where your dollars will go the furthest, to 
hamstring the interventions and the assessments, to limit them 
to abstinence-only education does not, in my judgment, comport 
with the evidence. It does not seem wise.
    And my final point is that it is incumbent, I believe, to 
have a more flexible, substantive, careful, evaluative 
approach, allowing more different strategies to be tried that 
are built upon the evidence to date so that we can learn better 
what works over time, and in another 10 years, when another 
committee is looking at the question of sex education, we will 
not be in the same position that we are today.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Fineberg follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.154
    
    [GRAPHIC] [TIFF OMITTED] T6712.155
    
    [GRAPHIC] [TIFF OMITTED] T6712.156
    
    [GRAPHIC] [TIFF OMITTED] T6712.157
    
    [GRAPHIC] [TIFF OMITTED] T6712.158
    
    [GRAPHIC] [TIFF OMITTED] T6712.159
    
    [GRAPHIC] [TIFF OMITTED] T6712.160
    
    [GRAPHIC] [TIFF OMITTED] T6712.161
    
    [GRAPHIC] [TIFF OMITTED] T6712.162
    
    Mr. Sarbanes [presiding]. Thank you.

                    STATEMENT OF MAX SIEGEL

    Mr. Siegel. Good morning. My name is Max Siegel. Thank you 
for the chance to address abstinence-only until-marriage, a 
policy that has transformed my life.
    I share my recommendations on how to improve sexuality 
education programs as a 23-year-old living with HIV who has 
spent the entirety of his young adulthood working to prevent 
new infections. My goal is to portray the personal impact of 
this flawed policy, while explaining how the lessons I have 
learned may apply to other young people who today make up 15 
percent of all new HIV infections.
    Thank you to Chairman Waxman and the Committee on Oversight 
and Government Reform for including HIV-positive young people 
in today's hearing.
    I experienced abstinence-only until-marriage education 
taught by my junior high school gym teacher. In his class he 
told me and my male classmates that sex is dangerous and that 
we should think more seriously about it when we grow up and 
marry. He made clear that only one kind of sexuality, 
heterosexuality, ending in marriage was acceptable to talk 
about. Already aware of my sexual orientation, I found no value 
in his speech. It did not speak to me in my life. It might as 
well not have happened.
    While most formal abstinence-only programs are more 
extensive than the class I experienced, they rely on similarly 
exclusive and stigmatizing messages that lack basic information 
about sexual health. Multiple studies, including a recent 
Federal evaluation, have found that the more expansive 
abstinence-only programs do not work either.
    When I was 17 I began seeing someone 6 years older than me. 
The first time we had sex I took out a condom but he ignored 
it. I did not know how to assert myself further. I knew enough 
to suggest a condom, but I didn't adequately understand the 
importance of using one. And even if I did, I had no idea how 
to discuss condoms with my partner. The abstinence-only message 
did not prepare me for life, and I contracted HIV from the 
first person with whom I consented to having unprotected sex. I 
was still in high school.
    I was diagnosed with HIV a few months after becoming 
infected. My friends and family were devastated. We didn't know 
about HIV, and we quickly developed false and damaging beliefs 
about my situation. It seemed as though I had done something 
particularly wrong, but it never occurred to us that I, in 
fact, engaged in fewer risk behaviors for HIV infection than 
most of my peers.
    My parents were in no position to dispel these beliefs or 
otherwise educate me about HIV or AIDS because they, too, 
lacked sufficient knowledge of sexual health. Instead, they 
mourned the loss of their child.
    I decided to pursue a career in the prevention and 
treatment of the virus, and one role I assumed was the role of 
an HIV test counselor. Over 3 years I gained a great deal of 
insight into the shared experiences of individuals living with 
HIV. I have not allowed discomfort to prevent me from 
addressing the needs of those around me, and as an educator 
from reacting in ways that are proven to be helpful. Sexuality 
education shouldn't be different. Adults should not allow their 
moments of discomfort to trump the needs of youth for complete 
and accurate information.
    Sexuality education programs must be as focused as my 
counselling sessions. Programs must be designed to meet the 
needs of individual students, most of whom will be sexually 
active before high school graduation. Students of all ages 
should know abstinence as the primary method to maintain one's 
sexual health, but they must be given additional tools to equip 
them for later life. Those tools should be discussed in a way 
that is age appropriate by educators with whom students can 
identify and communicate openly. We must facilitate critical 
thought about sexuality in terms of keeping students healthy 
and ultimately alive.
    Today's hearing is not about abstinence being a prevention 
tool--I think we all agree it is--but rather whether 
abstinence-only programs are deserving of Federal resources, 
and the answer is no.
    More individuals have this virus now than ever before in 
history. Most children born with HIV no longer die, they go 
into adolescence and adulthood. Within and outside of marriage, 
these young people must know how to prevent transmission of HIV 
to their sexual partners and how to protect themselves from 
further co-infection, other infections, and unintended 
pregnancy.
    Abstinence-only curricula fail to meet the needs of 
individuals who are living with HIV. They further disparage 
HIV-positive youth by suggesting that they are dirty, dying, 
and unfit to be loved.
    What I experienced in junior high gym class is a routine 
example of the messages of abstinence-only until-marriage 
programs that children across the country still experience 
today. These programs ignore the needs of lesbian, gay, 
bisexual, and trans-gender youth who are at particularly high 
risk for HIV infection, and use Government dollars to condemn 
them. They also compromise young women's safety by portraying 
sexually active females as scarred and untrustworthy.
    From the health care perspective, it is essential that 
congressional scrutiny of these programs focus on the 
consequences of abstinence-only's condemnation of young people.
    HIV prevention must respond to the state of our domestic 
epidemic now. I have worked with many women who contracted HIV 
within marriage. A woman asking her husband to respect her 
decision to abstain from sex or to use a condom is not 
supported by abstinence-only's teaching that sex is an 
expectation within marriage and that condoms do not work. There 
is no sufficient reason why this completely preventable 
infectious disease should have impacted any of our lives.
    After 6 years of living with HIV and striving to prevent 
this virus in others, I strongly believe that it is society's 
responsibility to give young people all the tools they will 
need to lead healthy lives. Any American infected with HIV is a 
societal failure. I see no room for abstinence-only in this 
time of shrinking public health budgets and increased 
accountability. Please end the failed experiment of abstinence-
only until-marriage education.
    [The prepared statement of Mr. Siegel follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.163
    
    [GRAPHIC] [TIFF OMITTED] T6712.164
    
    [GRAPHIC] [TIFF OMITTED] T6712.165
    
    [GRAPHIC] [TIFF OMITTED] T6712.166
    
    [GRAPHIC] [TIFF OMITTED] T6712.167
    
    [GRAPHIC] [TIFF OMITTED] T6712.168
    
    [GRAPHIC] [TIFF OMITTED] T6712.169
    
    [GRAPHIC] [TIFF OMITTED] T6712.170
    
    [GRAPHIC] [TIFF OMITTED] T6712.171
    
    [GRAPHIC] [TIFF OMITTED] T6712.172
    
    [GRAPHIC] [TIFF OMITTED] T6712.173
    
    [GRAPHIC] [TIFF OMITTED] T6712.174
    
    [GRAPHIC] [TIFF OMITTED] T6712.175
    
    Mr. Sarbanes. Thank you very much, Mr. Siegel.
    Ms. Knox, please, 5 minutes.

                    STATEMENT OF SHELBY KNOX

    Ms. Knox. Thank you.
    Good morning distinguished members of the committee. My 
name is Shelby Knox, and I am a 21-year-old speaker and sexual 
health educator. It is an honor to be here to share my personal 
experience with abstinence-only until-marriage programs and to 
provide a youth perspective on their appropriateness and 
effectiveness.
    I was born and raised in a Southern Baptist family in 
Lubbock, TX, a city with some of the highest rates of sexually 
transmitted infection and teen pregnancy in the Nation. At 15, 
in accordance with my faith, I took a virginity pledge at my 
church. The same pastor who officiated at my religious pledge 
ceremony also presented a secularized abstinence-only program 
to students in my school district. Many students were already 
having sex and needed information to protect their health; 
however, he expounded on the ineffectiveness of condoms, 
explaining in graphic detail and with even more graphic 
pictures the sexually transmitted infections one could get if 
we trusted our health to a flimsy piece of latex.
    We were all too intimidated or embarrassed to ask for 
clarification, but it seemed as if sex with a condom was the 
equivalent of sex without a condom.
    He also touched on the ills of masturbation and warned 
against homosexual sex. One demonstration he used left little 
doubt as to our worth as a future spouse or partner or person 
if we were to engage in sexual activity before marriage. He 
pulled an often squirming and reluctant and always female 
volunteer onto the stage, took out a toothbrush that looked 
like it had been used to scrub toilets, and asked her if she 
would brush her teeth with it. When she predictably refused, he 
pulled out another toothbrush, this one pristine, in its 
original box, and asked her if she would brush her teeth with 
that toothbrush. When she answered in the affirmative, he 
turned to the assembly and said, If you have sex before 
marriage, you are a dirty toothbrush.
    Many of my peers were struggling with questions, and most 
were not abstaining from sex. The statistics became alarmingly 
personal when the girl who sat next to me in math class got 
pregnant. She told me her boyfriend had said she couldn't get 
pregnant the first time she had sex. Her growing belly was the 
result of that first and only time.
    Another friend, trying to be responsible, used two condoms 
at once. He had been taught that using a condom wouldn't work, 
so he tried two. Only later did I find out that using two 
condoms together was likely to cause both to break.
    I believed in abstinence in a religious sense, but it was 
clear that abstinence-only as a policy for students who simply 
were not abstaining was dangerous. Even if we did wait until 
marriage, we still lacked a basic understanding of our bodies, 
reproduction, and how to prevent pregnancy, as well as a long 
list of sexually transmitted infections, including HIV, and the 
skills to have conversations about sex and protection. I felt 
betrayed by the people who I trusted to tell me the truth--my 
pastor, my teachers, the school district, and the elected 
officials who deemed an ineffective policy good politics if not 
sound science.
    I got involved with a group urging the school district to 
change the abstinence-only policy to a more comprehensive 
sexuality education curriculum that would include abstinence, 
as well as medically accurate information on a wide range of 
human sexuality topics.
    My parents, proud conservatives who encouraged my virginity 
pledge, joined me in asking the school board to change the 
curriculum, because they wanted me to have complete and 
accurate information about my body and sexuality. They didn't 
see a conflict with encouraging me to remain abstinent while at 
the same time ensuring that my classmates and I received the 
tools in school to make healthy and responsible decisions about 
our lives. They were in good company--85 percent of parents 
believe that teens should receive information about abstinence 
as well as how to protect themselves.
    Abstinence works. Abstinence-only until-marriage does not. 
It is morally unethical to leave young people without the 
information they need to protect themselves. Studies have shown 
a more comprehensive approach to sex education that gives us a 
strong message about abstinence and information about condoms 
and contraception does a better job helping young people 
abstain than do abstinence-only until-marriage programs.
    So why is it that not a single Federal dollar has ever been 
dedicated to a comprehensive approach while more than $1 
billion has been spent on abstinence-only education? As a young 
person with first-hand experience about the misinformation, 
shame, guilt, and intolerance propagated by these programs, I 
urge you to eliminate funding for abstinence-only until-
marriage programs and to, instead, allocate those funds to 
comprehensive, medically accurate sex education that provides 
young people with the tools they need to make responsible, 
informed decisions about their sexual health.
    Once again, it was an honor to speak to you today, and I 
will be happy to answer any of your questions at the 
appropriate time.
    [The prepared statement of Ms. Knox follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.176
    
    [GRAPHIC] [TIFF OMITTED] T6712.177
    
    [GRAPHIC] [TIFF OMITTED] T6712.178
    
    [GRAPHIC] [TIFF OMITTED] T6712.179
    
    Mr. Sarbanes. Thank you very much for the testimony, 
everybody on the panel, in particular Mr. Siegel and Ms. Knox 
for relating your personal perspective on these issues.
    I share the concern of a number who have already spoken 
today about the failure of these programs to demonstrate 
success, the abstinence-only programs, to demonstrate success, 
and the fact that we plow over $1 billion now into these 
programs.
    One of the questions that I wanted to ask you, Dr. 
Benjamin, you noted--and I have taken note of this, as well--
that 17 States have now refused to take this funding because of 
the restrictions that accompany it, and you mentioned that is a 
huge decision. I mean, States are strapped. They need as many 
dollars as they can to support their public health initiatives. 
I was curious if you could maybe expound on that a little bit. 
What would go into a decision at the State level to pass up 
that kind of funding? what would the discussion process be 
inside the department?
    Dr. Benjamin. You know, we would first of all look at the 
program guidance and see if a particular program strapped our 
hands around our other programs. That would be the first thing 
we looked at. If that did, that creates a real problem for us.
    Second, we have lots of programs already in place, and the 
question is would it create a dilemma for us to have a program 
where our citizens were going into Door A and getting one kind 
of program, which was maybe State funded and supported, which 
was more comprehensive, and then Door B, where they could only 
get another particular program. That creates logistical, 
ethical, and programmatic problems.
    I think at the end of the day are the reporting 
requirements and are the logistical problems and ethical 
problems not worth taking the money, quite frankly. At least 
that is what we would do at my health department. We would have 
sat down and had those discussions.
    We would certainly also ask ourselves how can we 
effectively evaluate these programs. In other words, you know, 
we are always doing pilots. As you know, I am from Maryland, so 
we love pilots in Maryland, at least we did. We might have even 
tried to do a pilot program. Let's see if they work. But then, 
of course, we would have to have adequate funds to evaluate 
that program. And then, of course, if it didn't work we would 
stop.
    Mr. Sarbanes. Beyond the logistics of it, presumably these 
States have made a judgment, based on the research and the 
success or lack of success of these programs, that it is not 
worth the funding.
    Dr. Benjamin. I think from a programmatic and policy 
perspective, absolutely.
    Mr. Sarbanes. Right.
    Dr. Benjamin. And the more evidence that comes out that 
suggests they may not work, the more States you will see not 
taking the dollars.
    Mr. Sarbanes. This is a question I would put to anyone on 
the panel who would like to answer it, including Mr. Siegel and 
Ms. Knox, and that is: I am getting the impression that there 
has been a lot of testimony that the comprehensive sex 
education programs are more effective, and the debate is 
largely a false one because we keep hearing people interpret 
the objection to abstinence-only programs as an objection to 
abstinence education, when, in fact, I don't think that is what 
anyone is saying here who opposes abstinence-only. So we kind 
of dance around the concept, but not landing on it four square 
yet, and that is this: listening to testimony and reading the 
research, it strikes me that the abstinence education actually 
is advanced and reinforced when it is inside of a comprehensive 
program, so that those who feel strongly about the message of 
abstinence--and I echo the parents who have spoken here today. 
I have a 17-year-old, a 14-year-old, and a 9-year-old, so all 
these statistics are ones that catch my attention, and I 
understand what my own kids are grappling with. But as somebody 
who would like them to get that message of the benefits of 
abstinence, I come away from this discussion believing strongly 
that if they get that message inside a larger program it is 
going to be more effective.
    I invite anybody to address that. We can just go down the 
line here.
    Mr. Weed. I would like to respond to that, Mr. Chairman.
    Looking at the evidence in terms of abstinence in the 
context of the broader, there are some studies that have 
produced effects in terms of initiation of sexual activity, but 
those effects have been smaller for initiation than the effects 
that we find in programs that are abstinence centered, and I 
will use that term advisedly rather than abstinence-only. The 
effects are smaller when it is in the context than they are 
when it is done well and separately.
    Mr. Sarbanes. Let me get some other perspectives on that, 
going down the line.
    Dr. Santelli. I guess I would firmly agree with you. I draw 
the attention of the committee to the written testimony of Doug 
Kirby, who is, I think, the leading expert at reviewing 
sexuality education. It is fully consistent with what Dr. 
Fineberg was talking about, the Cochrane reviews. Those 
evaluations suggest that many of the comprehensive sexuality 
education programs are effective when they deliver both 
messages, if you will, are effective at getting kids to delay 
initiation.
    Now, on the other hand I would point out that across these 
programs, even the best ones, we are talking about a delay of 
maybe 4 to 6 months, sometimes smaller, and that really begs 
the question: what are we doing for kids for the rest of their 
lives? So if we delay from 15 to 15\1/2\ or 17 to 17\1/2\ or 
18, we need to make sure that those young people are ready.
    Dr. Blythe. Can I have another comment?
    Mr. Sarbanes. Yes.
    Dr. Blythe. As a physician in the field, in the trenches, 
one of the issues that has come up is the teaching that we give 
in clinics, and even families give to their young people, are 
being revoked by the education in school. We had a clear 
example of this last week when a young man was being pulled 
into the clinic by his Mom, 16-year-old, with an obvious 
genital infection, and his comment to her was, But, Mom, I was 
told in school they don't work. So when our clinical messages 
are being revoked by the education that they are getting in the 
schools, it is clearly counterproductive to the health of these 
young people.
    Mr. Sarbanes. I have run out of time, but maybe if you two 
have a brief response.
    Mr. Siegel. It is a blatant indication of policymakers' 
distrust of youth to make responsible decisions about their 
sexual health, and it is not empirically supported. It has been 
shown repeatedly in Federal evaluation that comprehensive 
sexuality education is better at leading to abstinence, which 
should be the goal of these programs, along with preventing HIV 
and other STIs and unintended pregnancy.
    Mr. Sarbanes. Thank you very much.
    Mr. Sali.
    Mr. Sali. Thank you, Mr. Chairman.
    First of all, I have a written statement that I had 
intended to give at the beginning of the meeting but wasn't 
allowed the opportunity. I would ask unanimous consent that be 
added to the record.
    Mr. Sarbanes. Without objection.
    [The prepared statement of Hon. Bill Sali follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.180
    
    [GRAPHIC] [TIFF OMITTED] T6712.181
    
    Mr. Sali. As a part of this, as well, Senator Brownback 
referred to a Heritage Foundation study that was released 
yesterday, and I would ask unanimous consent that be included 
as part of the record of the hearing today, as well.
    Mr. Sarbanes. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.182
    
    [GRAPHIC] [TIFF OMITTED] T6712.183
    
    [GRAPHIC] [TIFF OMITTED] T6712.184
    
    [GRAPHIC] [TIFF OMITTED] T6712.185
    
    [GRAPHIC] [TIFF OMITTED] T6712.186
    
    [GRAPHIC] [TIFF OMITTED] T6712.187
    
    [GRAPHIC] [TIFF OMITTED] T6712.188
    
    [GRAPHIC] [TIFF OMITTED] T6712.189
    
    [GRAPHIC] [TIFF OMITTED] T6712.190
    
    [GRAPHIC] [TIFF OMITTED] T6712.191
    
    [GRAPHIC] [TIFF OMITTED] T6712.192
    
    [GRAPHIC] [TIFF OMITTED] T6712.193
    
    [GRAPHIC] [TIFF OMITTED] T6712.194
    
    [GRAPHIC] [TIFF OMITTED] T6712.195
    
    [GRAPHIC] [TIFF OMITTED] T6712.196
    
    [GRAPHIC] [TIFF OMITTED] T6712.197
    
    [GRAPHIC] [TIFF OMITTED] T6712.198
    
    [GRAPHIC] [TIFF OMITTED] T6712.199
    
    [GRAPHIC] [TIFF OMITTED] T6712.200
    
    [GRAPHIC] [TIFF OMITTED] T6712.201
    
    [GRAPHIC] [TIFF OMITTED] T6712.202
    
    [GRAPHIC] [TIFF OMITTED] T6712.203
    
    [GRAPHIC] [TIFF OMITTED] T6712.204
    
    [GRAPHIC] [TIFF OMITTED] T6712.205
    
    Mr. Sali. Thank you.
    Dr. Benjamin, a moment ago I was hearing some discussion 
about the delay of sexual activity, and I think I heard a 
number of 4 to 6 months delay. I think in your testimony you 
refer to a delay from abstinence pledges by up to 18 months, 
delaying the sexual activity. Am I correct, No. 1, in your 
statement? And can you tell me why we are getting that 
disparity in the figures that we are hearing here?
    Dr. Benjamin. The answer is yes, that is what we said.
    Dr. Santelli. I mean, one has to look at programs that are 
attempting and a curriculum that are attempting to change 
something and a study that is following kids who then self 
report. OK? So the 18-month delay which was found by Peter 
Bearman and his colleagues was a study where kids said they 
signed up for a virginity pledge. If you intend to be 
abstinent, you are more likely.
    I would also point out that in Dr. Bearman's own work, that 
the long-term followup of that was that STD rates were the same 
among the pledging group and among the non-pledging group, and, 
in fact, there was--what shall we say, a displacement 
phenomenon? So anal sex was increased in the pledging group. So 
yes, there is one study that shows this long delay, but in 
terms of the outcomes that Stan was mentioning, we are not 
seeing them.
    Mr. Sali. That would lead me to believe that the 
information about abstinence was incomplete. Is that what you 
are saying? In other words, nobody told the kids that if they 
deviate from regular intercourse, heterosexual intercourse, 
that wouldn't be abstinent? Is that the message you are 
telling?
    Dr. Benjamin. That is correct. I think the point is that if 
you don't give kids all of the information, then they 
misinterpret vaginal intercourse and they totally associate 
that with abstinence, and yet then they have these other risky 
behaviors, which they do continue because they don't think that 
is sex.
    Mr. Sali. Thank you.
    Dr. Weed, you had a couple slides you didn't get to. Is 
there any way we could see those at this time?
    Mr. Weed. I could tell you something. Put No. 15 up there. 
There are effective programs, there are less-effective programs 
when it comes to abstinence education. Just to clarify, 
however, on the Bearman study, we wouldn't call that an 
abstinence education program. It was kind of a rally and a 
pledge deal, but it didn't fulfill the kinds of requirements we 
think that effective programs need.
    I have listed them up here. First of all, an effective 
program has adequate dosage. Successful programs attend to the 
critical factor of adequate dosage and deliver that dosage on 
an effective schedule.
    The pledge programs don't meet that criteria. There are 
important mediating factors, and this goes beyond the 
simplistic notion of providing information, but effectively 
addressing the key predictors of adolescent sexual risk 
behavior that are amenable to intervention, and we have 
identified at least a half dozen of these important mediating 
variables, and if a program doesn't address those it will not, 
in all likelihood, produce an effect on sexual activity.
    We have also determined that the messenger in a program is 
at least as important as the message. I am thinking of Max's 
example. I think he didn't have a very good messenger in that 
gym teacher. Effective teachers make more of a difference in 
program outcomes than do printed materials. These teachers 
engage students in the learning process, gain their respect, 
model their message, and believe in their ability to impact 
students.
    Finally, effective programs conduct quality program 
evaluation and take seriously the lessons learned, especially 
those that identify program shortcomings.
    So it is a process of growth and development and 
maturation, and effective programs that follow even those basic 
steps are within a 12-month period, after a 12-month period are 
reducing transition rates by 50 percent.
    Mr. Sali. Dr. Weed, if I understand you correctly, your 
message here is that an effective abstinence program will make 
a difference, but the program in most of what has been passing 
for abstinence, that message is either not the message, it is 
not delivered in the correct manner, or the people who are 
delivering it are not doing a good job at it. Is that accurate?
    Mr. Weed. That is correct.
    Mr. Sali. Thank you.
    Mr. Weed. And there are good ones, there are weak ones. 
They vary.
    Dr. Blythe. Can I just hasten to make a comment?
    Mr. Sali. Quickly.
    Dr. Blythe. That particular study is good, but we also have 
to realize that was in 7th graders, and so when the rate of 
sexual experience is very low we need to look at programs that 
carry forth the message of abstinence in a realistic way into 
the high school years in terms of as kids get older. I just 
hesitate to say that this gives a good example of all the 
information that kids need, obviously.
    Mr. Sarbanes. Thank you.
    Mr. Hodes.
    Mr. Siegel. May I also respond to the personal statement 
about my personal experience?
    Mr. Sarbanes. Let me just get to Mr. Hodes, because I know 
he has to get to another hearing.
    Mr. Hodes.
    Mr. Hodes. Thank you very much, Mr. Chairman.
    I want to thank the panel for your testimony. We are 
dealing with what strikes me as a public health crisis, and we 
are doing so in a society which has an extraordinarily uneasy 
relationship with the issues of sexual activity, given what we 
see in the media, given the messages our kids get, given my 
experience prior to coming to Congress as a family lawyer where 
I saw divorce rates above 50 percent, so marriage isn't always 
working the way it should.
    But our Nation is facing a crisis in adolescent 
reproductive health--750,000 pregnancies among teens aged 15 to 
19 annually, nearly one in three teen girls becomes pregnant 
before reaching the age of 20. Last year, as we have heard, the 
teen birth rate rose for the first time in 15 years, and the 
CDC is telling us that one in four teen girls has a sexually 
transmitted disease.
    In terms of an effective response to this public health 
crisis, does the impartial, peer-reviewed, scientific evidence 
support abstinence-only programs as an effective response to 
this crisis? Dr. Santelli.
    Dr. Santelli. No. You would have to say no. I mean, I think 
science operates by a number of mechanisms, one of which is 
peer review, another of which is weight of the evidence, so one 
realizes that it is difficult to establish cause and effect, 
that the program actually worked. These are not easy things, 
and so scientists work together through their professional 
associations, through journals, medical and scientific 
journals, to establish what we understand is the weight of the 
evidence. And then people like the Cochrane Group in Great 
Britain, people like Doug Kirby then try to review the 
evidence.
    The answer, from both Cochrane and Dr. Kirby, is no, these 
programs are not working. I know we have heard some evidence 
presented today. I would take exception to some of the 
specifics that I heard today. At least one of the studies was 
passing out condoms that is represented as an abstinence-only 
study. I think that the work of Mr. Rector and Stan's review 
here needs to be subjected to peer review, and I don't think it 
is going to hold up.
    Mr. Hodes. Dr. Benjamin.
    Dr. Benjamin. I think the answer is not as currently 
constructed for the abstinence-only programs. May I go further 
by saying that I do think that we have a crisis. I agree 
wholeheartedly with you. And I believe that means that we need 
to structure, fund, and fully support a more comprehensive 
approach. I do believe those programs should be evaluated, and 
then we should continue to fund those things that work, and 
they need to have a very strong abstinence component to them.
    Mr. Hodes. Dr. Blythe.
    Dr. Blythe. I think the short answer is no, obviously both 
from the reviews that are being mentioned, but also from a 
clinical perspective, as well as a policy perspective.
    Mr. Hodes. Dr. Weed.
    Mr. Weed. Thank you. It is true that there is a small 
amount of evidence even available on abstinence education. 
There is not a lot of people that do that kind of work. Our 
company probably does more than anybody in the Nation. But if 
you look on balance, you look at where we are with 
contraceptive programs, contraceptive education, and after 115 
peer-reviewed studies they haven't been able to demonstrate an 
impact on STD rates, then we are not very good in that camp, 
either. So let's look at both, figure out what is going to 
work, and be fair about how we compare them.
    Dr. Fineberg mentioned that there were nine studies that 
showed some positive outcomes. Well, that is great, but if they 
don't produce consistent condom use they are not going to be 
protected, and we can't find any studies in a school or 
community setting, never mind the clinic, but in a school or 
community setting where consistent condom use has been 
increased by contraceptive and comprehensive sex education.
    Mr. Hodes. Dr. Weed, could I just drill down for a moment?
    Mr. Weed. You bet.
    Mr. Hodes. One thing I would like to ask you. You 
understand the importance and value and general accepted 
standard of impartial peer review of studies, do you not?
    Mr. Weed. Sure.
    Mr. Hodes. Has an impartial peer review journal ever 
endorsed or reported your findings?
    Mr. Weed. Yes. The three that I put up, two of them have 
been peer reviewed and the third one is in the pipeline.
    Mr. Hodes. Could I ask one last question, just finish this 
with Dr. Fineberg?
    Briefly, Dr. Fineberg, my question: does the impartial 
peer-reviewed scientific evidence support abstinence-only as an 
effective response to our public health crisis?
    Dr. Fineberg. It does not.
    Mr. Hodes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Sarbanes. Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. I would ask unanimous 
consent that my statement and some accompanying abstinence 
education material be included in the record.
    Mr. Sarbanes. Without objection.
    [The prepared statement of Hon. Jim Jordan and referenced 
information follow:]

[GRAPHIC] [TIFF OMITTED] T6712.206

[GRAPHIC] [TIFF OMITTED] T6712.207

[GRAPHIC] [TIFF OMITTED] T6712.208

[GRAPHIC] [TIFF OMITTED] T6712.209

[GRAPHIC] [TIFF OMITTED] T6712.210

[GRAPHIC] [TIFF OMITTED] T6712.211

[GRAPHIC] [TIFF OMITTED] T6712.212

[GRAPHIC] [TIFF OMITTED] T6712.213

[GRAPHIC] [TIFF OMITTED] T6712.214

[GRAPHIC] [TIFF OMITTED] T6712.215

[GRAPHIC] [TIFF OMITTED] T6712.216

[GRAPHIC] [TIFF OMITTED] T6712.217

[GRAPHIC] [TIFF OMITTED] T6712.218

[GRAPHIC] [TIFF OMITTED] T6712.219

[GRAPHIC] [TIFF OMITTED] T6712.220

[GRAPHIC] [TIFF OMITTED] T6712.221

[GRAPHIC] [TIFF OMITTED] T6712.222

[GRAPHIC] [TIFF OMITTED] T6712.223

[GRAPHIC] [TIFF OMITTED] T6712.224

[GRAPHIC] [TIFF OMITTED] T6712.225

[GRAPHIC] [TIFF OMITTED] T6712.226

[GRAPHIC] [TIFF OMITTED] T6712.227

[GRAPHIC] [TIFF OMITTED] T6712.228

    Mr. Jordan. Thank you.
    I want to thank the panel for being here, too. I have two 
fundamental questions that I want to ask, and I was going to 
ask these of the Senator and I should say at the start I kind 
of share the Senator's perspective on this entire issue, but I 
want to get to two fundamental questions. Do you really think 
the Federal Government should be involved in this area to begin 
with, the same Federal Government that can't secure the border, 
loses your tax return, the same Federal Government that is 
going to spend $3.1 trillion this year? Do you really think 
this is an area that the Federal Government should be involved 
with to begin with, regardless of which one it is, but 
particularly, in my judgment, the comprehensive approach?
    And then the second question--and you can all jump in on 
both of these when I finish--the premise of all this, 
particularly the comprehensive approach is--and we have heard 
this discussed here all morning long--the premise is the 
culture is such young people are bombarded with all kinds of 
messages, they are already engaging in some of this risky 
behavior, so we need to talk about a comprehensive approach, we 
need to give them the facts on how to prevent disease, etc.
    But do you ever think that by the fact we are having 
educators, people in positions of authority, talk about this, 
we actually might contribute to the problem? I think, Doctor, 
we talked about effective educators versus those who aren't. 
Maybe this is just a country boy from ohio talking, but I have 
heard this from constituents: the more you talk about it, the 
more it happens, particularly when someone in positions of 
authority giving mixed messages to young people.
    I want to just cite one example of that, and then I will be 
happy to hear your response.
    This is material our office obtained. It is called, Be 
Proud, Be Responsible: Strategies to Empower Youth to Reduce 
the Risk of HIV and AIDS. It was put together by a grant. Are 
any of you familiar with this curriculum? Heads shaking. OK.
    I look at one of the worksheets here. Talk about mixed 
messages and are we maybe even contributing to some of the 
figures that were given to us. This is an HIV risk continuum 
worksheet, lists different things. Then it has on the side here 
red light, yellow light, green light. Red light, don't do; 
yellow light caution, obviously. And we are all familiar with 
this green light, or some of us view yellow lights as different 
than caution, but I understand.
    But I will list just a couple. One says having sex with 
multiple partners and not using a condom, red light. Two 
others, though, showering together, green light. So maybe there 
is a green light, but think about the message that indirectly 
sends to young people. The third, doing drugs but not sharing 
needles and syringes, and the correct placement here on the 
side says yellow or green light.
    Again, I think sometimes we get so focused on what is 
happening, but we might be sending the wrong kind of message, 
and that has always been my concern with the comprehensive 
approach, the mixed messages we are sending out there to 
people.
    I would also argue that folks in west-central Ohio, which I 
get the chance to represent, when you talk to them about the 
Federal Government getting involved--I made a statement 
yesterday to a group of folks I made a speech to, and I said 15 
months on the job--I am just a rookie--has confirmed what I 
suspected: with the exception of the military, the Federal 
Government doesn't do anything very well. And now we are going 
to get into this whole area.
    With all that, fire away and tell me if I am wrong or tell 
me if you agree with me.
    Mr. Siegel. Can I respond? It is great to hear someone from 
Ohio speak. Ohio recently rejected the Title V funding and 
applied for CDC-DASH funding, so they are moving in the 
direction of comprehensive from what I can tell.
    Responding to your first question about Government 
involvement, I definitely understand what you are saying. I 
mean, if Government is a consumer they have two products to buy 
from. They can buy from the abstinence-only program or they can 
buy from the comprehensive sexuality education program.
    Mr. Jordan. My point is this, though: should they be buying 
from the Federal Government, or would we be better served if 
they bought from the State and local government, parents, 
school boards, teachers, and folks at the State level.
    Mr. Siegel. Which I agree with. I definitely think that 
local level they need to make those decisions, which Ohio is 
doing, from what I can tell.
    Also, as far as mixed messages, I don't totally understand 
that logic and never have as an educator. I mean, I feel like 
if you teach students about fire extinguishers, you are not 
encouraging them to start fires. I don't see what the mixed 
message is and I don't think that shows up in the research as 
frequently.
    Mr. Jordan. Most everywhere else educators set the 
standard, recognizing that 100 percent of the students won't 
meet the standard, but we set the standard and that is what we 
aim for. We don't say, oh, because we know some of you aren't 
going to get there, here's what you should. Everywhere else in 
our culture, everywhere else in life, everywhere else in 
education we set the high standard. This is coming from someone 
that spent years in the coaching and teaching profession. That 
is what we do. Yet this area is different.
    Mr. Siegel. It hasn't been different, though, is the thing.
    Mr. Jordan. I would argue it has.
    Ms. Knox. May I respond, as well? Could I say that west 
Texas is a lot like Ohio. That is where I come from, west 
Texas. My parents, who are no fans of Government involvement in 
anything, always told me that they wanted the school to be 
teaching this information because they didn't have that 
information themselves. They wanted me to have complete and 
accurate medical information about my sexual health, but 
neither of them had been to medical school, neither of them had 
gotten information about the up-to-date information to protect 
yourself, so they wanted a reliable sex education program 
within the schools to be teaching me that information. That is 
just coming from my perspective with my parents.
    I also wanted to add really quickly----
    Mr. Jordan. I want to hear from two others up there.
    Ms. Knox. I have always liked the analysis that umbrellas 
don't cause rain. Young people are smart enough to make 
responsible decisions, especially when they are given the tools 
to interpret those complex messages that we are receiving.
    Mr. Jordan. Let me hear from Dr. Weed and Dr. Santelli.
    Mr. Weed. The question I think you are asking--let me get 
back to it--is should the Federal Government be involved in 
trying to promote good health and preventive medicine. If we 
could do it right, if we could do it well, I would say yes. So 
far we haven't done that. I think there are ways that we can 
structure policies and programs and funding strategies to be 
more effective.
    For example, in the abstinence education area I have some 
suggestions on how that money could be better spent. I have 
also got some suggestions on how we could do better with our 
comprehensive sex dollars and hold them to a standard and 
evaluate them the same way we are doing with the abstinence 
programs.
    I think there is a role, but it is that the responsibility 
is so huge and the impact is so large it has to be done 
extremely well, and we haven't been very good at it.
    Mr. Sarbanes. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I was in my office, and people were kind of watching this 
along with me, so I didn't get all of the testimony but quite a 
bit of it.
    Dr. Blythe, if I could pull from the back end of your 
testimony, the Society of Adolescent Medicine summarizes its 
expert review of sexuality education with the following: 
``Abstinence from sexual intercourse represents a healthy 
choice for teenagers. As teenagers face considerable risk to 
their reproductive health from unintended pregnancies, STIs, 
including infection with HIV. Remaining abstinent--'' and I am 
quoting from your words. I think this is wonderful. ``Remaining 
abstinent, at least through high school, is strongly supported 
by parents and even adolescents, themselves. However, few 
Americans remain abstinent until marriage. Many do not or 
cannot marry, and most initiate sexual intercourse and other 
sexual behaviors as adolescents. Abstinence as a behavioral 
goal is not the same as abstinence-only programs. Abstinence 
from sexual intercourse, while theoretically is fully 
protective, often fails to provide against pregnancy, disease, 
and actual practice because abstinence is not maintained.'' In 
other words, it is having all the information available to you.
    We talked to the earlier panel. There is a continuum of sex 
education. I mean, parents with different skill sets feel more 
comfortable talking to their children. We just heard Ms. Knox 
say her parents liked having accurate, scientific information 
made available to their daughter.
    I would like you to address why it is so important that 
age-appropriate, parent-involved--and I think school boards 
need to involve the parents when they do this--why this is so 
important to a whole child's health, because pediatrics doesn't 
end when they are 10, 12, 13, or 14.
    And then to the two women on the panel, I am kind of 
concerned about some of the things that have been said both in 
testimony and by some of my colleagues up here. One in four 
girls having sexually transmitted diseases. Well you know, 
folks, it just isn't the girls that have the sexually 
transmitted diseases. You know, checking out who my son was 
going out with or who my daughter is going out with, with the 
implication one gender is more temptuous or whatever. I hope we 
can leave those stereotypes behind, because the stereotypes are 
also in some of the abstinence-only, such as the man's role is 
to protect the woman, or that women need financial support. 
Women, we need to protect ourselves and we need to support 
ourselves.
    Doctor, would you please?
    Dr. Blythe. Well, obviously the statement stands, as we 
believe. I think a couple comments. Abstinence is part of 
comprehensive sexuality education, and we have heard several 
comments this morning about parents want abstinence for their 
children, and that is correct, but in all the surveys that we 
have available--and the most recent one actually just came out 
of Minnesota--is that 89 percent of parents of school-aged 
children want their young people to have comprehensive, age-
appropriate sexuality education, with abstinence as a center 
stage, but also giving them the tools to deal with the 
complexities of life that they are faced with on a day-to-day 
basis.
    So in young people, meaning in the middle school age, 
strong messages of abstinence often work. But as they get older 
and they become more cognitively complex, then they need more 
answers than just this or that, so we need to be able to give 
them the tools to deal with the different issues, the different 
situations that come up on a day-by-day basis as they get 
older.
    Ms. McCollum. Thank you.
    Thank you, Mr. Chairman.
    Mr. Sarbanes. Thank you, Ms. McCollum.
    Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    There is so much to try to get on the record in so little 
time. I want to ask the panel a question. Mr. Hodes a few 
minutes ago made the comment that 50 percent of marriages end 
in divorce. How many of you have heard that before and think 
that it is the commonly accepted fact in our country? Would you 
hold up your hand? Just hold up your hand if you believe that.
    Mr. Weed. That was 50 percent of what?
    Ms. Foxx. That 50 percent of marriages end in divorce. How 
many of you have heard that comment over and over in our 
country and believe it? You believe it, hold up your hand.
    [Show of hands.]
    Ms. Foxx. All right. Well, let me tell you, in 1987 
pollster Lew Harris has written, ``The idea that half of 
American marriages are doomed is one of the most specious 
pieces of statistical nonsense ever perpetuated in modern 
times. It all began when the Census Bureau noted that during 1 
year there were 2.4 million marriages and 1.2 million divorces. 
Someone did the math without calculating the 54 million 
marriages already in existence, and presto, a ridiculous but 
quotable statistic was born.'' Harris concludes, ``Only one out 
of eight marriages will end in divorce. In any single year, 
only about 2 percent of existing marriages will break up.'' 
Task order my point on that is to support what Mark Twain said: 
figures often beguile me, particularly when I have the 
arranging of them myself, in which case the remark attributed 
to Desraili would often apply with justice and force. There are 
three kinds of lies: lies, damn lies, and statistics. Both of 
those things I think sort of the framework for what we have 
been listening to this morning.
    I want to also make a comment about what Ms. Knox said in 
her comments: ``So why is it that there is not a single Federal 
dollar dedicated to a comprehensive approach, while more than 
$1 billion has been spent on abstinence-only until-marriage?'' 
This from someone who sat through all of the testimony this 
morning on the fact that seven times more money is going into 
comprehensive programs than abstinence programs.
    I have one other question I would like to ask you, and I 
just want a yes or no answer from each member of the panel. I 
will start on that end.
    If, provided evidence of abstinence education programs are 
as or more effective than comprehensive sex education, would 
you support optional Federal funding for such programs? I just 
want a yes or no.
    Dr. Santelli. No.
    Ms. Foxx. Next person.
    Dr. Benjamin. No.
    Dr. Blythe. No.
    Mr. Weed. Yes.
    Dr. Fineberg. Yes.
    Mr. Siegel. No.
    Ms. Knox. No.
    Ms. Foxx. OK. Thank you very much. The record will show how 
each person answered.
    To me I think this shows the situation that we are dealing 
with here. I also find it very interesting that the word 
scientific has been used a lot. Do we have scientific studies 
that prove the abstinence issue? Well, I would like to say to 
you that there is no more scientific fact than that abstinence 
is the only sure way to avoid pregnancy and sexually 
transmitted diseases. I don't know how anybody could argue that 
is the scientific fact. Yet, people keep saying we need 
scientific evidence that these programs are working, and we 
don't have the scientific evidence that they are working.
    I want to tell you I come from a background of being a 
social scientists, so I know a little bit about how these 
things can be used.
    I have one more question. Dr. Weed, you stated about goals, 
intensity, content, all of those things vary across all types 
of sex education programs. Do we have any kind of evidence as 
to the effectiveness of the programs? And, Dr. Fineberg, you 
can answer this, too, but, Dr. Weed, would you answer it? I 
believe you have a study that shows that; is that correct?
    Mr. Weed. I am trying to sort the question out. The studies 
that we have done, if the program is designed well, implemented 
well, has the right kind of teachers, focuses on the right kind 
of issues, and is not narrowly defined and prescribed as an 
abstinence-only, which I think is a terrible misnomer, if it is 
done well, if it is done right we see impact. However, programs 
that are fairly new, fresh out of the block, they are trying to 
figure it out, it sometimes takes them about 3 years to work 
out the kinks and get on a track where they have an impact.
    Ms. Foxx. Thank you.
    Dr. Fineberg, would you like to say anything?
    Dr. Fineberg. Again, the most rigorous comparisons with 
very strict methodologic requirements to look at the studies 
find that the more comprehensive and inclusive programs do have 
approximately two-thirds of the time in those studies some 
positive effects. That was 23 of 39 studies.
    Of the studies that were looked at, the 13 that were more 
narrowly framed as abstinence-only, they found in none of those 
cases that there were positive behavioral effects. That was in, 
again, applying this very strict, rigorous, methodologic screen 
for studies aimed at preventing infection of HIV and sexually 
transmitted infections.
    Ms. Foxx. Who did that study?
    Dr. Fineberg. These are studies by the Cochrane 
Collaboration, the lead author is Underhill. I did include the 
citations in my written testimony.
    Ms. Foxx. Mr. Chairman, I have just one other comment to 
make.
    We have thrown again a lot of statistics around here, and 
much has been made about the fact that 17 States are not taking 
the funding, but let me point out 33 is more than 17.
    Thank you, Mr. Chairman.
    Chairman Waxman [presiding]. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. I thank all the 
witnesses.
    Doctor Weed, you showed us some studies that indicated that 
in--I guess you call them abstinence-centered programs?
    Mr. Weed. Abstinence-centered would be the preferred term.
    Mr. Yarmuth [continuing]. Succeeded in reducing the rate of 
initiation of sex by 40 something percent, which I think people 
would say that is a benefit. That would be successful. But in 
the most optimum case, the rate of those who, if I read the 
chart correctly, who did initiate sex in spite of that was 
still around 10 percent. That was the best performance. So my 
question is, While we may say that the program was successful 
in one respect, was it a failure with regard to the 10 percent 
or more, and, in fact, did we not do them a disservice and 
maybe even put them at risk because we didn't give them other 
information?
    Mr. Weed. I think that is a good question, because--by the 
way, it applies broadly. If we want to apply that standard of 
success, we say yes, we had a 10 percent failure, whereas in 
terms of consistent condom use we have 100 percent failure. So 
let's kind of balance it and look at both sides.
    Mr. Yarmuth. I get that, but would not the real followup to 
that be: did you do any damage by including comprehensive? Did 
you make it worse for anyone by including comprehensive sex 
education, because, as I understand all the rest of the 
studies, there really isn't any evidence that comprehensive sex 
education increases the rate of sexual activity.
    Mr. Weed. We can apply one standard that says it doesn't 
increase the rate, and we can apply the other standard that 
says it fails 10 percent of the time. Those are two different 
standards. I am just asking for using the same standards when 
we do the comparison.
    Mr. Yarmuth. All right. Let me ask Mr. Siegel and Ms. Knox, 
because they both alluded to things that have intrigued me, and 
I only focus on you because you are the youngest among us.
    Is sex education, whether it is abstinence-only or 
comprehensive or anything else they learn in school the only 
thing kids learn about sex?
    Mr. Siegel. Absolutely not.
    Mr. Yarmuth. So what you may learn in abstinence-only 
education or in comprehensive sex education actually is 
considered, and it is input that is taken against a backdrop of 
a lot of different input about sex, including peers, 
information from your peers, including media, all sorts of 
things.
    Ms. Knox. Yes, I would agree, although let me point out 
quickly that I have undergone both abstinence-only and 
comprehensive sex education. Only comprehensive sex education 
gave me the tools, gave me the information to go out and 
interpret the other messages that I was getting from the media, 
from my peers, other things that I was hearing.
    Mr. Yarmuth. So if you are getting information, let's say 
you are getting abstinence-only education in school or 
abstinence-centered education, there is a real danger that it 
is going to run up against a lot of different contrary input 
that you are getting from your friends. I mean, you may be 
talking to your friends who are having sex every weekend, 
unprotected, protected, but you are getting different 
information from them than you are getting in school. My 
question would be: how does that make you feel about the rest 
of your education? Does it undermine the credibility of what 
you are getting in other areas?
    Ms. Knox. It would be the same to me as if I went into math 
class and my teacher said two plus two is five. I mean, that 
doesn't jive with anything that I have ever heard out there in 
the world. That is what abstinence-only education was to me. It 
was not in reality as to what was happening in my live and in 
the lives of other people in my community.
    Mr. Siegel. May I also add abstinence-only education 
teaches stigma. If you can't get married, how is abstinence 
ever going to help you? That is reinforced by the rest of 
society as a young person when you go out there, and it doesn't 
serve the needs of young people living with HIV, because they 
will need to know how to use condoms even if they get married. 
So once again it is neglected. It is neglected in greater 
culture and it is neglected in the classroom.
    Mr. Yarmuth. I am not sure exactly how this relates, but I 
know it relates in some way. I was a journalist before I 
entered politics, and the paper that I worked with did a story 
several years ago about oral sex among 12 and 13-year-olds, and 
we sent actually teenage reporters out into the community and 
talked to them. The response that we got or our reporters got 
most frequently was they didn't consider that sex. This was 
just fun and games. It was no different than hugging.
    So I wonder whether, when we talk about educating some of 
these programs starting in 7th grade, whether even that is 
early enough, whether the horse is out of the barn on this 
issue even by that time.
    Dr. Weed.
    Mr. Weed. We found, of course, lots of variety. There are 
some places where 7th grade could be too late and other places 
where it wouldn't be. I think that the good programs really do 
take into account the cultural context in which they are being 
delivered, and the program that might work well in an inner 
city, high-minority, high-risk population, lots of broken 
families, might be a different kind of strategy than the one 
you would do in middle America where it is pretty calm and 
peaceful.
    Mr. Yarmuth. My time is up. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Yarmuth.
    Mr. Burton.
    Mr. Burton. Dr. Fineberg, you talked about these studies. 
Have they ever included in these studies that you are referring 
to the Peers program in Indiana?
    Dr. Fineberg. Not to my knowledge, Mr. Burton. The studies 
that I talked to were premised on peer-reviewed, published 
studies that were randomized or quasi-randomized, and so these 
other experiences would not have been included.
    Mr. Burton. Gotcha. I understand. But you are not familiar 
with the Peers program in Indiana?
    Dr. Fineberg. I am not.
    Mr. Burton. The Peers program was started in 1994 by St. 
Vincent's Hospital in Indiana, and it is an abstinence program. 
I have been watching on television and listening to the debate 
on this issue. I just want to read you a little bit about this 
particular program that has been in effect since 1994.
    ``Does abstinence education really work?'' This is one of 
their brochures. ``Compared to non-participants, the Peers 
project participants were four times more likely to have 
remained virgins. Seventy percent of peers program participants 
reported that they have remained committed to abstaining from 
sexual activity at the conclusion of a 3-year, independent 
evaluation.''
    Then the brochures go into some other details about it. 
Since 1994 nearly 15,000 peer mentors--they use students that 
they train, come in and work with them at St. Vincent's--15,000 
peer mentors have taught the Peer Educating Peers curriculum to 
150,000 program participants throughout Indiana. Organizations 
and other States have replicated the Peers model.
    The result in my Congressional District--they sent this to 
me--was in Miami County there was, for 15 to 17-year-olds 
between 2000 and 2005 there was a decrease in teen birth rates 
and sexually transmitted diseases by 34 percent. In Wabash 
County the decrease for that age group was 28 percent. So it 
has been very beneficial.
    It was students talking to students after they had been 
made aware and trained in the Peers program. So abstinence 
programs do work. I know you can go across the country and do 
these national studies and come up with these statistics, like 
my colleague was talking about, which make it sound like it is 
a waste of money to train and create abstinence programs, but 
this is a fact in Indiana. This is my Congressional District. 
It does work. I think that funding these programs does create 
some real positive results.
    I know some of my colleagues say we ought to just have a 
complete sex education program, we don't need abstinence 
training, but it does work, and it is helping in Indiana, and I 
think it is something that we ought to continue to fund.
    Dr. Weed, you are moving around there. Did you have 
anything you would like to comment on that?
    Mr. Weed. Well, a point that I think is relevant is that we 
have heard discussion about embedding abstinence and 
comprehensive sex education together, and that may be more 
effective. But I think I have heard agreement, which I am 
encouraged by, that abstinence ought to be the central message 
and the major emphasis.
    If you look, however, at the programs that claim to be 
abstinence-plus, the ratio of a contraceptive and condom 
education to abstinence education is about 9-to-1, so it is 
really not the major emphasis, it is kind of an afterthought. 
It is kind of stuck in there to meet, I think in some cases, 
the political correctness of yes, well, we teach abstinence.
    If you look at the reality of the ratio, however, of what 
gets the most attention, that is not what is happening.
    Ms. Knox. Could I respond quickly, as well? Congresswoman 
Foxx was talking about the statistics we use and the studies 
that we use. The study that Mr. Weed is referencing I believe 
was a study that looked at how many times the word abstinence 
was mentioned on a page of comprehensive sex education 
curricula. Now, that is just the word abstinence. That is how 
they got that statistic.
    When the Federal Government does their abstinence PSAs, 
public service announcements, they don't use the word 
abstinence. They use wait for sex until marriage. So I think 
that we have to re-look at the studies that we are using, and I 
just want to point that out there to correct the congressional 
record.
    Mr. Burton. I think this has been a very interesting 
hearing. You know, when you represent 700,000 people, like we 
do, and you see some positive results in a program in your 
District, and it is irrefutable as far as the statistics are 
concerned in my District, it sounds like to me, at least in my 
District, and I think across the country, as well, but at least 
in my District abstinence programs specifically designed for 
that do work. They have reduced by 34 and 28 percent the 
pregnancy rates and the rates of communicable diseases. I think 
that is something that we should continue to support.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Burton.
    I am going to take my time.
    My view is that if the local area wants to try something 
that they think is best, let them spend their money on it; but 
if we are going to use Federal dollars, I want to be sure those 
Federal dollars are being used for a program that works and is 
successful. If we have had studies showing they are not 
successful, as we have with the abstinence-only programs, then 
I think we ought to let the local governments decide whether 
they are going to pay for it.
    Dr. Weed, there is one thing I wanted to ask you about. In 
explaining the evidence for some or these abstinence-only 
programs, you referred to them in your testimony as abstinence-
centered programs. One of the studies has an abstract that 
states, ``The intervention is not an abstinence-until-marriage 
intervention. The target behavior is abstaining from sexual 
activity until later in life when the adolescent is more 
prepared to handle the consequences.''
    Would a program that is not focused on abstinence until 
marriage qualify for Federal funding under the State or 
community-based abstinence-only programs?
    Mr. Weed. Would it qualify for funding if it did not target 
abstinence until marriage?
    Chairman Waxman. Yes.
    Mr. Weed. Well, of course, you know how the A3H guidelines 
are written, but I think one of the things that helps us in 
this area is that young people who are fairly concrete----
    Chairman Waxman. I am asking a very specific question, 
because my understanding is the answer would be no, that 
teaching abstinence until marriage is the sole and mandatory 
purpose of these programs. This illustrates some of the 
concerns I have with the current policy. It isn't just for a 
committed relationship or later in life, as valuable as I think 
that might be in and of itself. There are programs that appear 
to have real success, but they are being excluded from Federal 
funding because they don't meet this strict ideological test. 
It has to be until marriage, itself.
    Mr. Weed. Well, I guess I don't see that these other 
programs are being excluded because 68 percent of our school 
systems are using comprehensive and contraceptive education, as 
compared to 25 percent who get abstinence education, so I think 
it is probably a misunderstanding to think that abstinence-
centered education is displacing and replacing all this other 
stuff. I think it is still there. Kids can----
    Chairman Waxman. It is certainly still there, but it is 
being funded at the local level, while these abstinence 
programs are being funded exclusively at the Federal level with 
over $1 billion.
    Dr. Santelli, did you want to comment?
    Dr. Santelli. Yes. I think Stan is absolutely wrong on 
that. I mean, the research we did, which was based again on 
national data between 1995 and 2002, showed that virtually 
every 15 to 19-year-old young woman in this society and the 
young men as well are getting abstinence education. They are 
getting it. What we found, though, was education about 
contraception declined sharply, so many fewer. So almost 100 
percent of young people are getting abstinence education. It 
may not be abstinence-only. We don't know whether it is 
abstinence-only, but they are getting the abstinence message, 
but only two-thirds are getting the message about 
contraception, and that is going down.
    Chairman Waxman. I appreciate that point.
    Now, you were asked, all of you, a few minutes ago by Ms. 
Foxx to give a yes or no answer only to a more complicated 
question of whether you would support abstinence-only if 
evidence became available that it was successful, and you had 
to say yes or no. A number of you said no and you didn't have a 
chance to explain, but I presume that you would have said 
because it is not public health information, it is not the full 
story.
    Dr. Blythe, is that accurate?
    Dr. Blythe. I totally agree. It was, I felt, like a trick 
question almost. I think that none of us at this table deny the 
importance of abstinence as a major part of the message, but it 
is, again, including all that other information that will help 
young people develop healthy sexual lives.
    Chairman Waxman. Thanks. I presume that was also--without 
responding, because I have very limited time already to go to 
other questions.
    One of the major concerns of opponents of comprehensive sex 
education is that teaching teens about condoms and other 
contraceptives will encourage them to have sex. The suggestion 
is that teaching about contraception will delude or confuse an 
abstinence message.
    Dr. Benjamin, is there any scientific evidence that 
comprehensive sex education encourages sexual activity?
    Dr. Benjamin. The answer is to the contrary, that it does 
not.
    Chairman Waxman. Dr. Weed, do you think it encourages 
sexual activity to talk about more comprehensive approach than 
just the abstinence-only?
    Mr. Weed. I haven't seen evidence that addresses that 
directly. We are currently doing a study where both messages 
are combined in the classroom. It is very early, but the 
evidence looks like that the impact of the program gets 
minimized when the combination is in place.
    Chairman Waxman. OK. Well, let me ask the two young people, 
Shelby and Max. In your experiences now as young adults who 
speak with young people, what is your understanding--does 
comprehensive sex education cause teens to have sex, or is this 
kind of education effective in encouraging teens to delay 
sexual activity?
    Ms. Knox. I would say once again umbrellas don't cause 
rain. Young people are smart enough to make responsible 
decisions when they are given all the information. Myself, the 
young people that I talk to, we actually are encouraged to make 
more responsible decisions when we understand about 
contraception, when we understand about using condoms, when we 
are not confused, when we don't have misinformation, then we 
are more likely to make responsible decisions.
    Chairman Waxman. Thank you very much.
    Mr. Siegel. I would assert that when we are being told that 
condoms and contraceptions do not work we are less likely to 
use them if we do choose to go about that path.
    Chairman Waxman. Thanks.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I am sorry I was away. 
I was speaking on the floor of the House and then I was meeting 
with a mother whose daughter was raped allegedly by a Marine 
and then killed. I was meeting with that family, with her, 
talking about that issue.
    I know Mr. Burton has one quick thing he wants to say and I 
will yield to him for that purpose.
    Mr. Burton. Real briefly, I think one of the reasons the 
Peer program in Indiana has been successful is they are 
training students to work with students, and peer to peer I 
think really has a tremendous impact on the attitudes of these 
young people. I think that is why these statistics show some 
dramatic results.
    I thank the gentleman for yielding.
    Mr. Shays. What I am struck with is that young people learn 
from TV, the movies, the books they read, the magazines they 
read, they learn from the Internet, they learn things from 
their peers. I think that there is a natural interest on the 
part of young people to know about things about sex. They are 
going to learn it. The question is: are they only learning part 
of it, and what part are they learning?
    Dr. Weed, where I have my problem is that you would object 
to them having the armor they need in the daily battle of life. 
You want to tell them one way, one kind of armor, but you don't 
want to protect them, it seems to me, in all the other ways.
    Would you agree that some young people are going to not 
practice abstinence?
    Mr. Weed. Yes. Some will not, and I would say that the 
armor is great, but if it is flawed armor we don't give them 
the kind of help you need.
    Mr. Shays. You tell them it is flawed, but you tell them 
risks and you tell them information, so what you are doing is 
basically saying if you are going to abstain you are going to 
be protected, but if you do anything else you are on your own. 
It seems to me that borders on cruelty, and the young man to 
your left dealing with HIV is one of the outcomes. That is 
tragic.
    I just don't get it. I don't understand why it has to be 
only. Why only? Tell me why only?
    Mr. Weed. I think that maybe you weren't here when I 
mentioned this. I think that is a poor definition of abstinence 
education programs.
    Mr. Shays. It is an accurate one.
    Mr. Weed. No, it is not. Abstinence-centered is a very 
different picture than abstinence-only.
    Mr. Shays. Let me just say why. You can't rest on the 
laurels of saying the States do it and someone else will tell 
you the rest of the story. The reason why my State chooses not 
to be part of it is they think it is going to ultimately result 
in young people being deprived of knowledge that could save 
their lives.
    Mr. Weed. We do have a premise, sir, that if we give kids 
more and better information they are going to be better 
decisionmakers. The recent research in the last 5 to 10 years 
on the adolescent brain makes us rethink that conventional 
wisdom. It is a whole different kind of picture that is 
happening with young people.
    Mr. Shays. Isn't it an interesting concept. Really what you 
are saying is abstinence-only works better if they don't know 
all the information, so we are going to deprive them. But you 
know what? Some of them are going to then try to find it on 
their own and it is going to be incomplete information, it is 
going to be from the wrong places. It seems to me it would be 
better that they get the right information from the right 
place.
    Mr. Weed. That is part of the misunderstanding, that 
abstinence-only, as we use that label, assumes that they don't 
learn anything else. The fact is they do.
    Mr. Shays. Yes, but they learn it from the wrong places.
    Mr. Weed. I am saying within an abstinence program, a good 
abstinence program isn't that narrow kind of definition that 
you----
    Mr. Shays. Is there anyone on the panel that would disagree 
with that? And tell me why? Do you agree that Dr. Weed is 
correct when he says that they are going to learn all that they 
need to know----
    Mr. Weed. I didn't say all. I said that it is not narrow 
the way you have defined it.
    Mr. Shays. Well, if they are not going to learn all they 
need to know, then your comment to me is disingenuous.
    Mr. Weed. I don't think they are going to learn all they 
need to know in any program, including a comprehensive sex 
education program. And, as we have seen, as I have shared with 
you, we don't have any program yet that has shown a reduction 
in STD rates that is a comprehensive education program.
    Mr. Shays. Well, even if that were true----
    Mr. Weed. And it is. Yes.
    Mr. Shays. Even if it were true, I would say to you that at 
least we gave them the information. So if Mr. Siegel decides to 
do something and he takes risk, at least he did it with the 
knowledge that he was taking the risk and that he wasn't 
ignorant of it.
    Mr. Weed. And I think good abstinence programs do that.
    Mr. Shays. Well, all that I have read about it would 
totally refute that.
    Mr. Weed. You know, I have been there in them. I have 
watched them. I have observed them. I have interviewed 
thousands of kids. It is not this narrow kind of----
    Mr. Shays. Could I just make one more point.
    Mr. Weed [continuing]. Perspective that we are hearing 
here.
    Mr. Shays. If you are telling me that an abstinence-only 
program is compromised by telling them about other ways to deal 
with the issue of sex and not having a pregnancy and not having 
an illness, if you are telling me that then encourages them to 
do it, you have this conflict, because you are telling me on 
one hand that weakens the program, and then you are telling me 
the program does it.
    Mr. Weed. I am saying that you can do both if you do it 
right and if you do it well. But most of the time, as we have 
seen in a lot of these programs that are now on the CDC Web 
site as being effective and proven, the information that is in 
both programs I think is going to be harmful to kids, not 
helpful.
    Mr. Shays. Thank you.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Souder.
    Mr. Souder. Thank you.
    Mr. Siegel and Ms. Knox, were the programs at your school 
funded by the Federal Government?
    Ms. Knox. Yes.
    Mr. Siegel. I believe so. I am not certain.
    Ms. Knox. I believe so.
    Mr. Souder. What years were they?
    Mr. Siegel. Sorry?
    Mr. Souder. What year were you in the program?
    Mr. Siegel. What year was I in the program? It must have 
been 12 years ago. I believe----
    Mr. Souder. There was not abstinence education----
    Ms. Knox. I was in the program from 2001 to 2004, so it was 
within the funding.
    Mr. Souder. And you are sure that your school----
    Ms. Knox. I cannot say absolutely sure, but I can get the 
information to find out.
    Mr. Souder. And we would like that for the record, because 
a description that you had of your program, that a church came 
in, did an independent program, is not likely a Federal 
program.
    Ms. Knox. Can I just make the clarification? That was a 
secular program. It was done by a local pastor. He was 
operating within a secular capacity within the school. That was 
made sure of by the school district.
    Mr. Souder. Because most likely that your two programs--you 
have both been very articulate, very passionate--but are mostly 
irrelevant to this debate, because, in fact, what you are 
advocating is what everybody on the Republican and Democratic 
side said is that these should be State and local decisions, 
and abstinence education programs coming out of Washington, 
abstinence-centered, which I agree with Dr. Weed, have to meet 
certain criteria. They go through certain bid process, and they 
generally aren't random at a local level. Most likely you are 
dealing with something that, were it done out of the Federal 
Government, you wouldn't have had the experiences that you had 
at your school.
    In response to Mr. Jordan, one of the questions, if we are 
going to get into this, how much do we decentralize and wind up 
with all sorts of variations, or how much do we centralize. 
This is an interesting debate back and forth, but for the most 
part your experiences, if they were Federal funded, none of us 
would have ever supported, and that really weren't relevant.
    Further, you had a major factual error, Ms. Knox, and 
Chairman Waxman and I have been going around this. It is 
incorrect to say that the Federal Government funds no programs. 
The Federal Government plans--a statement that Dr. Weed made 
and was debated--12 times as much money goes into family 
planning. Not all of that goes into schools. I use the figure 
2-to-1 into the schools. In addition, I know from my own home 
town that displacement of other funds go--for example, in safe 
and drug-free schools--if you get your money for drug-free 
schools from other programs, that you can then use the money 
for other health programs, which then they use for a 
comprehensive sex education and health care program in the 
schools with direct Government funding, because under our 
Education Committee rules, if you cover one category then it 
becomes fungible funding for the school.
    It is absolutely false to assert that no Federal money is 
in. The only question is whether it is twice as much in the so-
called comprehensive or twelve times as much, but clearly far 
more is spent of Federal dollars in this category, and it is 
important that the record shows that.
    We are going to try to sort out exactly how that funding 
goes, but that is just not true.
    Ms. Knox. Can I ask you for a minute to respond, as well, 
about the----
    Mr. Souder. There is not really a response to that.
    And let me say one thing else, Mr. Chairman. We have six 
witnesses on the majority side and one on the minority side.
    Dr. Weed, I would take you in any battle with me to do a 
course with six people, but this is as stacked a panel as I 
have ever experienced as a staffer or Member in the House to 
only have one person on one side and six.
    Furthermore, this was represented as a scientific panel. 
Mr. Siegel and Ms. Knox have been very articulate, but they are 
not scientists. Out of the others, from what I can tell, Dr. 
Santelli is a scientist who has worked with it directly, but he 
is on, as he says in his testimony, he is a senior fellow at 
the Guttmacher Institute, very tied in with Planned Parenthood. 
He clearly has a bias, just as others would have a bias.
    It isn't clear to me, did you do field research yourself or 
were you summarizing studies, Dr. Santelli?
    Dr. Santelli. I have worked in public health for 20 years. 
I worked in Baltimore for 5 and did a lot of field studies and 
I worked at CDC for 13 years and was involved in a whole bunch 
of studies.
    Mr. Souder. Reclaiming my time, your charts did go to 
direct questions, while I may not agree with them, may not 
agree with your summary.
    Dr. Fineberg clearly has summarized a group of studies, but 
did you do any of those yourself? Are you a scientist who has 
been out in the field and studied this issue?
    Dr. Fineberg. No.
    Mr. Souder. And Dr. Blythe and Dr. Benjamin basically read 
ideological statements on the behalf and summarized other 
people's studies. But this was supposed to be a panel of 
scientists who were going to show us the true science debate 
that was occurring, and that has not happened today. It was 
false representation.
    Dr. Weed, I happen to remember you from another life of 
mine three jobs ago when I was the Republican staff director on 
the Children and Family Committee, and I believe in the mid-
1980's you did a study in Baltimore on teen pregnancy; is that 
correct?
    Mr. Weed. Yes.
    Mr. Souder. That is how you more or less got started in 
this field, by showing some of the ineffectiveness of the teen 
pregnancy programs in Baltimore that was astounding and 
resulted in programs being put in in Baltimore because their 
teen pregnancy was totally--it was 90-some percent in some of 
the schools. I went up there and met with them. You are 
actually a field researcher.
    Mr. Weed. Yes. All my work has been on the ground. I have 
interviewed thousands of kids. I have personally evaluated over 
100 programs. I have data on 500,000 teenagers in my files.
    Chairman Waxman. The gentleman's time has expired.
    The Chair wants to indicate that the witnesses who are here 
were invited because either they have done the research or they 
represent organizations. I don't think it is fair to criticize 
them if they represent groups like the pediatricians or the OB/
GYNs or the American Medical Association or the Institute of 
Medicine. I also think it is unfair to say that they are not 
only unbalanced because they represent medical organizations, 
but that they in some way lack credibility because they 
represent--and the American Health Association and others--
because they represent these organizations. That is why they 
have been invited.
    Second, we have accepted every witness that has been 
recommended to us from the Republican side of the aisle. Matter 
of fact, we have never turned down a request from the 
Republicans on any witness at any hearing.
    Third, I just think that an attack on people's views by 
calling them ideological when they are scientists and they are 
medical professionals is trying to turn tables by calling them 
ideological when, in fact, I think that you are attacking them 
from an ideological perspective.
    Do you want to say anything, since I have jumped on you?
    Mr. Souder. I wasn't questioning the organizations. What I 
was questioning is that you earlier stated this was a 
scientific panel, and I was trying to establish that you only 
have two people who appear to have done scientific research; 
others were summarizing or giving their personal opinions. In 
fact, Dr. Weed was criticized for being ideological. I 
certainly criticized a number of people here for being 
ideological--making the point again that this is not really a 
scientific debate but a heavily ideological one.
    Chairman Waxman. OK.
    Well, we have the positions set out.
    Dr. Santelli, we are going to have to move on. We have a 
third panel waiting. Yes?
    Dr. Santelli. I just spent 2 days, because I am here the 
3rd day missing part of the meetings. The American Public 
Health Association and the Academy of Pediatrics, I have served 
on committees on both of them, spend a lot of time trying to 
review scientific evidence. I mean, they also filter it through 
their clinical wisdom. Maggie is a great example of combining 
the two. All the professional medical groups in the country are 
very attuned to the science and try to represent the best 
science.
    Chairman Waxman. I think that is an important statement to 
make.
    I want to thank all of you very much for your presentation 
to us and your willingness to answer questions from members of 
the committee. Thank you very much.
    Our third panel, I want to call forward Charles Keckler, 
who is the Acting Deputy Assistant Secretary for Policy at 
Administration for Children and Families at the Department of 
Health and Human Services. His department coordinates the two 
largest Federal abstinence-only programs.
    Dr. Marcia Crosse is the director for the Healthcare Group 
in the U.S. Government Accountability Office. She has been with 
GAO's Healthcare Group since 1996, and since then has led a 
variety of assignments on public health issues.
    I want to welcome you to our hearing today. Your prepared 
statements will be in the record in full. We would like to ask 
if you would to limit your oral presentation to 5 minutes.
    It is the policy of this committee that all witnesses be 
sworn in before they testify, although it was pointed out to me 
that perhaps that didn't happen with the last panel, but I am 
not sure. But we will continue the practice with you two, if 
you would please rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that both 
witnesses answered in the affirmative.
    Mr. Keckler, why don't we start with you?

    STATEMENTS OF CHARLES KECKLER, ACTING DEPUTY ASSISTANT 
SECRETARY FOR POLICY, ADMINISTRATION FOR CHILDREN AND FAMILIES, 
   U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND MARCIA 
     CROSSE, PH.D., DIRECTOR, HEALTHCARE, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

                  STATEMENT OF CHARLES KECKLER

    Mr. Keckler. Mr. Chairman and members of the committee, 
thank you for the opportunity to discuss abstinence education 
programs administered by the Department of Health and Human 
Services.
    The administration continues to support abstinence 
education programs as one among several methods to address the 
continuing problems created by adolescent sexual activity, the 
result of which includes unacceptably high rates of non-marital 
child-bearing and sexually transmitted diseases among America's 
youth. Remarkable progress has occurred in this area over the 
last 15 to 20 years. Pregnancy among 15 to 17-year-old girls 
declined over 20 percent since the early 1990's, although it 
remains above the rates for other industrialized nations.
    Teenage sexual activity and non-marital child-bearing have 
serious consequences for teens, their families, their 
communities, and our society. The two greatest risk factors for 
teen pregnancy and transmission of STDs are age at first onset 
and number of partners. In other words, if a teen delays the 
onset of sexual activity and reduces the number of partners, 
they are much less likely to become pregnant or get someone 
pregnant.
    By definition, abstinence education programs aim to address 
these two risk factors. Abstinence is the only 100 percent 
effective method to prevent pregnancy and sexually transmitted 
diseases. Through education, mentoring, and peer support, 
abstinence education helps teens delay the onset of sexual 
activity and reduce the number of sexual partners they have. In 
addition to the serious risks of disease, early child-bearing 
often limits later opportunities for both the parents and the 
children involved, creating risks of a fragile family 
structure, poverty, and welfare dependence.
    HHS' abstinence education programs are part of a broader 
strategy to combat teen pregnancy and STDs. Over the last 5 
years, the Department estimates that it has expended billions 
of dollars toward this effort.
    HHS funds a variety of interventions, both primary models, 
which include a risk avoidance message provided through 
abstinence education programs, as well as secondary models, 
which include a risk reduction message. These interventions 
provide information about the risks of sexual activity and the 
ways to eliminate or reduce these risks, with the goal of 
altering adolescent attitude and behaviors in ways that lead to 
healthier outcomes.
    Other interventions can provide direct health services to 
adolescents, including administering contraception and 
providing information about its proper use. Beyond abstinence 
education, the Department provides at least $300 million 
annually to administer a variety of pregnancy prevention or 
STD/HIV prevention and awareness programs. Some of these 
programs may include information about abstinence or 
encouraging delayed sexual activity, but are not subject to the 
Title V, Section 510 A-H definition of abstinence education in 
the Social Security Act.
    Curriculum often called abstinence-plus or comprehensive 
sex education could be supported under these funding streams. 
Additionally, the Department provides hundreds of millions 
annually in family planning services to adolescents through a 
variety of programs. Of the total Federal resources devoted to 
combatting teen pregnancy and STD prevention, abstinence 
education accounts for a fraction.
    As a general matter, health education interventions have a 
record of mixed success. While the majority of studies have 
shown a limited impact on sexual behavior, some programs have 
shown evidence for effectiveness. This became increasingly 
apparent during the 1990's, as studies showed certain programs 
had effects of delaying the age at first intercourse and 
sometimes reducing the frequency of sexual activity or the 
number of partners involved.
    The use of abstinence education curricula as such has a 
shorter history of evaluation, but the results have been 
similar. Some peer reviewed research has shown an effect in 
delaying intercourse among program participants. Other studies 
have shown some effect on partner number, even if intercourse 
is not delayed.
    We are using the results of these studies to identify the 
characteristics that distinguish effective from ineffective 
implementations. There is no strong evidence for a decline in 
the use of contraception as a consequence of these programs.
    The administration believes that the abstinence education 
program sends the healthiest message, as it is the only certain 
way to avoid out-of-wedlock pregnancy and sexually transmitted 
diseases. The great majority of American parents agree. A 2007 
poll conducted by the National Campaign to Prevent Teen 
Pregnancy found that 90 percent of teens age 12 to 19 and 93 
percent of adults agree that it is important for teens to be 
given a strong message that they should not have sex until they 
are at least out of high school.
    The administration appreciates the opportunity to update 
the committee on the progress we are making in this important 
area of adolescent health and remains committed to providing 
accurate information that effectively assists young people to 
make healthy and responsible choices as they mature toward 
adulthood.
    I would be pleased to take any questions that you may have.
    [The prepared statement of Mr. Keckler follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.229
    
    [GRAPHIC] [TIFF OMITTED] T6712.230
    
    [GRAPHIC] [TIFF OMITTED] T6712.231
    
    [GRAPHIC] [TIFF OMITTED] T6712.232
    
    [GRAPHIC] [TIFF OMITTED] T6712.233
    
    [GRAPHIC] [TIFF OMITTED] T6712.234
    
    [GRAPHIC] [TIFF OMITTED] T6712.235
    
    [GRAPHIC] [TIFF OMITTED] T6712.236
    
    [GRAPHIC] [TIFF OMITTED] T6712.237
    
    [GRAPHIC] [TIFF OMITTED] T6712.238
    
    [GRAPHIC] [TIFF OMITTED] T6712.239
    
    [GRAPHIC] [TIFF OMITTED] T6712.240
    
    [GRAPHIC] [TIFF OMITTED] T6712.241
    
    [GRAPHIC] [TIFF OMITTED] T6712.242
    
    Chairman Waxman. Thank you very much.
    Dr. Crosse.

                   STATEMENT OF MARCIA CROSSE

    Ms. Crosse. Mr. Chairman and members of the committee, I am 
pleased to be here today as you examine abstinence education 
programs.
    My testimony is based on GAO's report on this topic that we 
prepared for you and other congressional requesters in October 
2006, and we have updated certain information for today's 
hearing. You asked that we examine efforts to assess the 
scientific accuracy of materials used in abstinence education 
programs and efforts to assess the effectiveness of these 
programs.
    I will also discuss a Public Health Service Act requirement 
regarding medically accurate information about condom 
effectiveness that may be relevant for abstinence education 
materials.
    We reported 18 months ago that efforts by HHS and States to 
assess the scientific accuracy of materials used in abstinence 
education programs have been limited. At the time, HHS' 
Administration for Children and Families [ACF], did not review 
its grantees' education materials for scientific accuracy in 
either the State or the community-based programs, nor did it 
require the grantees in either program to do so. Further, not 
all States that received funding from ACF had chosen to review 
the accuracy of their program materials.
    In contrast to ACF, HHS' Office of Population Affairs 
[OPA], had reviewed the scientific accuracy of its grantees' 
proposed education materials and any inaccuracies that were 
found had to be corrected before those materials were used.
    The extent to which federally funded abstinence education 
materials are inaccurate wasn't known, but both OPA and some 
States reported finding inaccuracies. For example, one State 
official described an instance in which abstinence education 
materials incorrectly suggested that HIV can pass through 
condoms because the latex used in condoms is porous.
    To address concerns about the scientific accuracy of 
materials used in these programs, we recommended in our report 
that the Secretary of HHS develop procedures to help assure the 
accuracy of such materials. In response to our recommendation, 
ACF is currently implementing a process to review the accuracy 
of community-based grantees' curricula and has required those 
grantees to sign assurances that the materials they propose 
using are accurate. HHS reported to us that in the future State 
program grantees' will also have to sign written assurances and 
provide ACF with descriptions of their strategies for reviewing 
the accuracy of their programs.
    We also examined efforts to assess the effectiveness of 
abstinence education programs. At the time of our report, we 
found that HHS, States, and researchers had made a variety of 
efforts to assess effectiveness. For example, ACF analyzed 
national data on adolescent birth rates and the proportion of 
adolescents who report having had sexual intercourse. 
Additionally, 6 of the 10 States in our review worked with 
third party evaluators to assess the effectiveness of their 
programs.
    However, the conclusions that can be drawn from these 
efforts are limited because most of the efforts to evaluate 
program effectiveness have not met certain minimum criteria, 
such as random assignment of participants and sufficient 
followup periods and sample sizes that are necessary for such 
assessments to be scientifically valid.
    Further, the results of some efforts that do meet such 
criteria have varied. Since our report was issued, a key HHS-
funded study has been completed which found few differences on 
a variety of measures of sexual activity between youth who 
participated in abstinence education programs and control group 
youth.
    Finally, while conducting work for our 2006 report we 
identified a legal matter that required the attention of HHS. A 
section of the Public Health Service Act, Section 317 P, 
requires certain educational materials to contain medically 
accurate information about condom effectiveness. At the time of 
our review, an ACS official reported that materials prepared by 
abstinence education grantees were not subject to this 
provision. However, we concluded that this requirement does 
apply to abstinence education materials prepared and used by 
Federal grant recipients, depending on their substantive 
content. In other words, for materials that meet the statutory 
criteria, HHS' grantees are required to include information on 
condom effectiveness, and that information must be medically 
accurate. Therefore, we recommended that HHS adopt measures to 
ensure that, where applicable, abstinence education materials 
comply with this requirement.
    HHS has told us that they have accepted our recommendation. 
The fiscal year 2007 community-based program announcement 
provides information about the applicability of this 
requirement, and future State program announcements will also 
include information on this requirement.
    In conclusion, when we reported to you 18 months ago on 
this topic we identified several concerns and information gaps 
in HHS' abstinence education programs and made recommendations 
to the Department. HHS has now begun to make changes in 
response to our recommendations which could improve the 
accuracy of the materials used in these programs.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions that you or other members of 
the committee may have.
    [The prepared statement of Ms. Crosse follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.243
    
    [GRAPHIC] [TIFF OMITTED] T6712.244
    
    [GRAPHIC] [TIFF OMITTED] T6712.245
    
    [GRAPHIC] [TIFF OMITTED] T6712.246
    
    [GRAPHIC] [TIFF OMITTED] T6712.247
    
    [GRAPHIC] [TIFF OMITTED] T6712.248
    
    [GRAPHIC] [TIFF OMITTED] T6712.249
    
    [GRAPHIC] [TIFF OMITTED] T6712.250
    
    [GRAPHIC] [TIFF OMITTED] T6712.251
    
    [GRAPHIC] [TIFF OMITTED] T6712.252
    
    [GRAPHIC] [TIFF OMITTED] T6712.253
    
    [GRAPHIC] [TIFF OMITTED] T6712.254
    
    [GRAPHIC] [TIFF OMITTED] T6712.255
    
    [GRAPHIC] [TIFF OMITTED] T6712.256
    
    [GRAPHIC] [TIFF OMITTED] T6712.257
    
    [GRAPHIC] [TIFF OMITTED] T6712.258
    
    [GRAPHIC] [TIFF OMITTED] T6712.259
    
    [GRAPHIC] [TIFF OMITTED] T6712.260
    
    [GRAPHIC] [TIFF OMITTED] T6712.261
    
    [GRAPHIC] [TIFF OMITTED] T6712.262
    
    [GRAPHIC] [TIFF OMITTED] T6712.263
    
    [GRAPHIC] [TIFF OMITTED] T6712.264
    
    [GRAPHIC] [TIFF OMITTED] T6712.265
    
    [GRAPHIC] [TIFF OMITTED] T6712.266
    
    [GRAPHIC] [TIFF OMITTED] T6712.267
    
    Chairman Waxman. Thank you very much for your presentation 
to us and the hard work that you have done at our request.
    Mr. Keckler, I have some questions about your 
characterization of the evidence on abstinence-only programs. 
You acknowledge that the data supports the effectiveness of 
teen sex education programs in delaying sex and reducing sexual 
frequency or the number of partners. You then said that ``the 
use of abstinence education curricula has a shorter history of 
evaluation, but the results have been similar.''
    But this isn't the view of medical experts. The American 
Medical Association, the American Public Health Association, 
the American Academy of Pediatrics have all looked at 
abstinence-only programs and found that they are not as 
effective as comprehensive sex education. Why is it that what 
you are telling us is so different from the expert medical 
bodies? You are drawing one conclusion, and they look at the 
same evidence and draw a completely different conclusion.
    Mr. Keckler. Thank you for the question, Mr. Chairman.
    Well, I think that we need to be, when we say one works 
better than the other, that comparison has never been done. We 
have a study ongoing that will compare the two treatments side 
by side. But some of these statements and some of the 
collections of studies which were referred to earlier are 
something else. They are accumulations of studies of, on the 
one hand, studies that have been done of comprehensive sex 
education over the years, and some studies that have been done 
on abstinence until marriage.
    Chairman Waxman. Well, OMB, for example, the Office of 
Management and Budget at the White House, does program 
assessments of different Government programs called PART 
assessments.
    Mr. Keckler. Yes.
    Chairman Waxman. In its assessment of the abstinence-only 
programs, OMB gave the program a very low score of 33 out of 
100 for program results and accountability. The answer to, 
``Has the program demonstrated adequate progress in achieving 
its long-term goals'' was ``small extent.'' The answer to 
whether the program achieves its annual performance goals was 
``no,'' because the programs won't even set baselines until 
March 2009, so basically we have no idea if individual programs 
are having any impact on participant behavior and health. Why 
are we continuing to fund programs where even OMB is saying 
there is virtually no evidence of effectiveness?
    Mr. Keckler. Mr. Chairman, with regard to the OMB PART 
assessment, the PART assessment ultimately of these programs 
was ranked as adequate with the conditions that we make certain 
evaluation changes that OMB recommended. We are making those 
changes, which include standardized reporting from CBA grantees 
on the outputs of their programs and, starting in the upcoming 
year, standardized survey of participants, which will include 
outcomes of the programs, including whether or not the 
participants are having sexual activity.
    Chairman Waxman. Let me ask Dr. Crosse about that 
evaluation. Do you think the administration is doing enough to 
establish baselines and other measurement goals for these 
programs so we can measure them and see whether they are 
succeeding?
    Ms. Crosse. Well, they are currently funding some well-
designed studies, and the one study that I cited that had been 
completed since our report was issued was one of the studies 
that the Department funded that did meet the standards for a 
scientifically valid study that was a situation where they had 
random assignment.
    I think some of our concerns are some of the measures that 
the Department has been using are ones that cannot be clearly 
linked back specifically to the program. The national rates of 
pregnancy is not something where you can say that the impact on 
that is specifically because of the program, because you don't 
have any information about the differences in the rates between 
those who have received that information and those who didn't.
    Chairman Waxman. Let me get into another question.
    Mr. Keckler, we know some teens are going to have sex. We 
can talk to them about abstinence until marriage, but let's say 
a young person comes to you and says, I put a lot of thought 
into it, but I am going to go have sex. I have reached a point 
that I am going to do this. The question comes to you, Should I 
use a condom? What would you say to him or her?
    Mr. Keckler. Well, I am not sure that my personal response 
to a teen in my life is germane, but I think----
    Chairman Waxman. What do you think somebody running a 
program should say to that individual?
    Mr. Keckler. Well, I can tell you what they will say in the 
CBA programs, which is that if somebody is in need of other 
services, our grantees are asked and encouraged to give them 
referrals to other services. Our grantees, of course, are bound 
by the A through H requirements to focus on abstinence, but 
they will make referrals for other services, and that is what 
they would say.
    Chairman Waxman. I find that nonsense, nonsensical. If 
somebody is coming to you and asking in one of these programs, 
admitting that they are going to be sexually active--which 
probably means they already are sexually active--to tell them, 
I am going to refer you to someone else will probably mean 
that, if they go to someone else, it will be after they have 
already had enough sexual contact where they might have 
contracted HIV or some other sexually transmitted disease. That 
is one of the big problems I have with this separation. We can 
only talk about abstinence. We can't talk about the rest of the 
information that is pertinent.
    I just know, if the Members will forgive me--and I will 
allow them a little extra time, as well--I know a lot of people 
have said over the years we ought to let States and local 
governments make the decision. Maybe we ought to just have a 
block grant. Let the States and local governments decide if 
they want an abstinence-only program or if they want to use the 
money for a broader comprehensive program. But here we have 
Washington, DC, saying, ``We know what is best, and if you want 
money for sex education in the schools, you have to use 
abstinence-only funds.''
    When we hear about these other programs being funded, most 
of them are at the local level. The others are extrapolations 
of Medicaid funding for family planning services--they are not 
going to schools, they are not going to teenagers. They're 
funding for Title X clinics, well, they are clinics. They are 
not in the schools. They may have some relationship. The Indian 
Health Services and some of these others, I think that is being 
used to say we have a lot more dollars going to these other 
programs. Well, they are not Federal dollars for the most part.
    Is that an accurate statement, Dr. Crosse? Have you looked 
at the funding mechanisms?
    Ms. Crosse. My understanding is that the only Federal money 
that specifically is targeted for sex education programs is 
through these programs that we focused on, these three big 
programs at the Department--the State program, the community-
based program [CBA] program, and the adolescent family life 
program. There may be small amounts in other areas, but the 
targeted areas for sex education are abstinence-only ones.
    Chairman Waxman. Thank you.
    I have used 7.4 minutes, but I am going to yield to the 
gentleman and each of the other gentleman on the panel 8 
minutes so we will be fair. They don't have to use it all, but 
each will get 8.
    Mr. Souder. It won't be entirely fair because it is two 
against one again.
    Chairman Waxman. Well, I haven't used the full 8.
    Mr. Souder. First, let me say sometimes I get in trouble 
for this, and I have complained about a number of hearings that 
we have had here, including today, but I find the chairman very 
fair. We have a good personal relationship. It concerns some of 
my colleagues that I speak highly of him many times, but, in 
fact, he attempts to be fair. Sometimes liberals have a tough 
time understanding our perspective enough to what we consider 
fair or not, but I believe he is genuine in his ability to 
desire to do that.
    Chairman Waxman. Time's up. [Laughter.]
    Mr. Souder. Mr. Keckler, we have had a lot of discussion 
today about the Federal funding for sex education. I would 
appreciate your getting back to the committee with the 
specifics here. You chose your words carefully. You said that 
the Federal Government funds money for Planned Parenthood, 
family planning, and other types of things. What we really need 
here is how much of that actually goes to schools. Dr. Crosse 
picked her words very carefully there, said the dedicated 
stream. But, in fact, we all know these programs are in the 
schools, have been in the programs for many years. They are 
funded through the Federal Government, through the family 
planning that comes through. There are also health grants that 
come through that may not be in your area, but if you could 
break that out. I mentioned Safe and Drug-Free Schools because 
I wrote that section and allowed it to be fungible funding, and 
I know that in school districts people use it there. But we 
need some kind of a read with this, because this has, in my 
opinion, been a false track that we got off to. I think it is a 
legitimate debate that the chairman said should any be 
specifically dedicated. That is a fair debate.
    But partly what Dr. Crosse, whose recommendation seemed 
pretty reasonable, has suggested is that when we, the Federal 
Government, give the funds without any guidelines, then we get 
charges like came up from the two younger people here today 
that clearly those wouldn't have met Federal standards to do a 
program like that.
    It would be very helpful if you can get us a funding 
stream, not only of this much goes in family planning, but to 
see if we can do a down-stream track of where that funding 
breaks out. I don't know whether this is a school survey 
working with the Department of Education, but I think it is 
very important for us to understand how these programs are 
funded in the schools.
    Mr. Keckler. I agree with you, Congressman, and the problem 
has been that, because the other forms of comprehensive sex 
education and prevention programs are folded into, sometimes 
they are block granted, they are folded in throughout the 
Department of Health and Human Services in a variety of ways, 
and some of them are also directed both to young adults and to 
adolescents in order to get a real apples-to-apples comparison.
    There is some work that needs to be done with our budget 
people, but we will be happy to get you firmer estimates along 
those lines.
    Mr. Souder. Because without that it is hard for anybody to 
allege scientific comparisons if, in fact, we don't even know 
what Federal funding is where. I support block grants, but I 
also have historically believed there should be accountability. 
We have run into huge problems with the No Child Left Behind 
with this, because then nobody likes the accountability 
measures and we argue over the accountability measures. But the 
fact is that if the Federal Government is going to be tasked 
with raising the taxes and spending the funding, we shouldn't 
dictate how a local district meets it, but there ought to be 
requirements that meet basic standards so that we know tax 
dollars are being spent.
    If you are a Libertarian and don't want the Federal 
Government to do it, that is one thing, but if the Federal 
Government is going to do it, in the day and age of the 
computer reporting system it seems like this would be not that 
hard to put a designation on a form for the data to come back 
of did this go into school, how many dollars went to the 
school, the schools to report back. I mean, they already deal 
with mounds of reports, and I understand that, but if we are 
going to have--how are people alleging scientific comparisons 
here, because there are controlled programs and non-controlled 
programs.
    I heard data thrown out today not comparing, when they were 
comparing abstinence programs, comparing it to the universe 
rather than the schools around it, may have had an alternative 
program, which in science would have been mandatory. What is 
the universe? What is the comparison? What are the control 
groups?
    One of the most famous early studies in the 1980's was in 
Minnesota, where a school that had a family planning program 
said they reduced teen pregnancy. A quick check showed that 
every other school in Minneapolis went down more, because there 
were cultural variables and other things happening in the 
community, not just that program. So you have to have multiple 
control groups.
    We are having this debate today sounding like the science 
is in one direction when, as Dr. Crosse has pointed out, and I 
think fairly, that there should be factual information in any 
abstinence program. They shouldn't be able to put out false 
information. There ought to be accountability to it.
    One other question I had that was raised by--I forget her 
name, the young girl on the first panel--she said, as I 
understood her to say--Shelby--it was a secular program and a 
pastor came in as part of that. In these programs, are they 
allowed to invite guest speakers in? And if guest speakers come 
in, are they held to any accountable standards, which is 
something else that ought to be looked at. Did you look at 
that, Dr. Crosse?
    Ms. Crosse. We did not look at the specifics of the 
structures. And our recommendations are to the general 
information that are distributed for the programs. There is 
certainly always the possibility that someone can come in and 
write something up on a blackboard that would not be under any 
kind of control or review.
    Mr. Souder. Because when we are dealing with these social, 
controversial issues, often somebody will be invited in from a 
local church, or somebody will be invited in from the other 
side. If, in fact, it is a religious community they will invite 
somebody in from Planned Parenthood to present that. The 
question is: how fact-based are we going to have this? Is there 
an accountability procedure? But I would think we should at 
least know in the presentation of a grantee whether they intend 
to do that, because otherwise it becomes hard. Do you know 
whether that is done now?
    Mr. Keckler. Well, there are a variety of methods. I think 
Dr. Fineberg talked about the great variety of methods that 
people are using, and we as a Department are going through this 
process to try to identify best practices, along with many 
other people in the field. So could somebody come in and speak? 
Yes. The grantee, however, is responsible under our current 
rules for ensuring medical accuracy, and when we make a site 
visit there, either because we think there are good practices 
there or we have heard some problems with the grantee, medical 
accuracy is looked at, as well. So it is their assurance and 
their responsibility to maintain medical accuracy.
    Our efforts on that have been welcomed by all the grantees. 
They want to be medically accurate. They appreciate our help.
    Mr. Souder. I need to get another factual question on the 
record here. We have heard about the 17 States opting out, 33 
are in. Have you had a drop-off in application rates?
    Mr. Keckler. The CBA grants have not shown any particular 
drop-off in that program. There have been this year fewer 
States applying for the State funds.
    Mr. Souder. But there is still more demand than there is 
money?
    Mr. Keckler. Oh, yes. The CBA grants are probably the most 
competitive grant program that is currently making grants in 
ACF. In the last 3 years----
    Mr. Souder. You are saying of all the programs----
    Mr. Keckler. In ACF, all the grant programs.
    Mr. Souder. So the demand for this is huge.
    Mr. Keckler. Right. We have funded between 8 and 14 percent 
of grant applications in the last 3 fiscal years, so there is 
tremendous unmet demand.
    Chairman Waxman. Thank you, Mr. Souder.
    Mr. Shays.
    Mr. Shays. Thank you.
    I don't intend to use my full 8 minutes, given I missed a 
good chunk of this hearing, but I want to ask you an ethical 
question, both of you. I think it clearly matters if a program 
is successful or not, and we determine success based on certain 
outcomes. I guess the first outcome, are young people having 
premarital sex or not. The outcomes disease, pregnancy, 
emotional issues, as well.
    But the ethical question for me is let's just say that an 
abstinence program was equal to, in terms of outcome, as one 
that was more comprehensive. Let me even say it this way. Let's 
just say an abstinence program was even better. Don't young 
people have a right to know the truth? And it seems to me that 
we are almost suggesting that if we can just focus on 
abstinence-only and leave out the rest of the story, because if 
we leave out the rest of the story they may have more sex, so 
we leave out the rest of the story.
    But it seems to me that is unethical. It seems to me maybe 
when you are talking to a 6th grade kid I don't know, but it 
seems to me by the time a young people is a junior in high 
school they just deserve to know the truth, whatever the truth 
is. And you try to have impact on their young minds to do what 
we as adults thinks is responsible.
    The irony, I was speaking to some of my colleagues here and 
asked them if they had premarital sex. They said they did. And 
when they started to talk about it, it was almost like it was a 
good thing. I mean, the irony, the hypocrisy of this is kind of 
interesting, too. So I am just asking you about the ethics of 
denying people information. Do they not deserve to know it? Or 
if they do know it, do you think they are going to do the wrong 
thing, so they shouldn't have it?
    Chairman Waxman. Before you answer that question I want to 
indicate for the record that the gentleman did not ask me that 
question. [Laughter.]
    Mr. Keckler. Well, Congressman Shays, that is a very 
important question. Clearly, teens need to know the truth about 
their lives and about this area. The question, though, is do 
they need to know it all at once and in the same place. The 
Department supports a risk avoidance message and a risk 
reduction message. There is important programmatic and 
practical reasons why we should have the capacity to be able to 
keep those messages distinct. There is a lot of jurisdictions 
and there is a lot of grantees that want to help and want to 
give the risk avoidance message but they don't want to be 
compelled to include with that a risk reduction message.
    So being able to deliver those separately is useful from a 
programmatic context. There are hypotheses out there on both 
sides of whether it is more effective to deliver a focused, 
pure risk avoidance message or whether it might be more 
effective some way combining it. As I have mentioned, that 
direct comparison of whether it is better to put them together 
or keep them separate has never fully been done, but it is 
important that both messages be out there and that both 
messages be accurate.
    Ms. Crosse. Just for the record, GAO has no position on 
this, but I will answer your question in that I think it is 
important and it is ethical for students, teenagers to be given 
complete information. I think it is a policy question where 
they get that information. I think the heart of the ethical 
issue that we spoke to in our work is whether they be given any 
misleading information, and that clearly we have taken a 
position would not be ethical, and certainly not that the 
Federal Government would be supporting the dissemination of the 
information that is not accurate to these teenagers in the 
programs.
    Mr. Shays. I thank both of you.
    Mr. Souder. Mr. Chairman, very briefly?
    Do you favor the same policy for cigarettes, that low-tar 
cigarettes, that we would show kids the level of nicotine and 
tar in the cigarettes between the different brands so that, 
since a high percentage of them smoke anyway, we can give them 
better information on which cigarettes would be better to 
smoke?
    Mr. Shays. I would do this. I would make sure they had 
total knowledge, because if a young person is going to smoke, 
then I want to make sure that they have a sense of the degrees 
of harm they are causing themselves, so in that answer, yes, 
but I would be working overtime to have them understand that it 
would be a pretty bad thing to smoke.
    Chairman Waxman. Does the gentleman yield back the balance 
of his time?
    Mr. Shays. I do yield back.
    Chairman Waxman. I thank you very much. I thank the two of 
your for your presentation.
    Without objection, we are going to keep the record open for 
an additional 7 days so that Members may ask all the witnesses 
or any of the witnesses additional questions and get a response 
in writing, and then others may be able to submit additional 
information for the record.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 1:50 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6712.268

[GRAPHIC] [TIFF OMITTED] T6712.269

[GRAPHIC] [TIFF OMITTED] T6712.270

[GRAPHIC] [TIFF OMITTED] T6712.271

[GRAPHIC] [TIFF OMITTED] T6712.272

[GRAPHIC] [TIFF OMITTED] T6712.273

[GRAPHIC] [TIFF OMITTED] T6712.274

[GRAPHIC] [TIFF OMITTED] T6712.275

[GRAPHIC] [TIFF OMITTED] T6712.276

[GRAPHIC] [TIFF OMITTED] T6712.277

[GRAPHIC] [TIFF OMITTED] T6712.278

[GRAPHIC] [TIFF OMITTED] T6712.279

[GRAPHIC] [TIFF OMITTED] T6712.280

[GRAPHIC] [TIFF OMITTED] T6712.281

[GRAPHIC] [TIFF OMITTED] T6712.282

[GRAPHIC] [TIFF OMITTED] T6712.283

[GRAPHIC] [TIFF OMITTED] T6712.284

[GRAPHIC] [TIFF OMITTED] T6712.285

[GRAPHIC] [TIFF OMITTED] T6712.286

[GRAPHIC] [TIFF OMITTED] T6712.287

[GRAPHIC] [TIFF OMITTED] T6712.288

[GRAPHIC] [TIFF OMITTED] T6712.289

[GRAPHIC] [TIFF OMITTED] T6712.290

[GRAPHIC] [TIFF OMITTED] T6712.291

[GRAPHIC] [TIFF OMITTED] T6712.292

[GRAPHIC] [TIFF OMITTED] T6712.293

[GRAPHIC] [TIFF OMITTED] T6712.294

[GRAPHIC] [TIFF OMITTED] T6712.295

[GRAPHIC] [TIFF OMITTED] T6712.296

[GRAPHIC] [TIFF OMITTED] T6712.297

[GRAPHIC] [TIFF OMITTED] T6712.298

[GRAPHIC] [TIFF OMITTED] T6712.299

[GRAPHIC] [TIFF OMITTED] T6712.300

[GRAPHIC] [TIFF OMITTED] T6712.301

[GRAPHIC] [TIFF OMITTED] T6712.302

[GRAPHIC] [TIFF OMITTED] T6712.303

[GRAPHIC] [TIFF OMITTED] T6712.304

[GRAPHIC] [TIFF OMITTED] T6712.305

[GRAPHIC] [TIFF OMITTED] T6712.306

[GRAPHIC] [TIFF OMITTED] T6712.307

[GRAPHIC] [TIFF OMITTED] T6712.308

[GRAPHIC] [TIFF OMITTED] T6712.309

[GRAPHIC] [TIFF OMITTED] T6712.310

[GRAPHIC] [TIFF OMITTED] T6712.311

[GRAPHIC] [TIFF OMITTED] T6712.312

[GRAPHIC] [TIFF OMITTED] T6712.313

[GRAPHIC] [TIFF OMITTED] T6712.314

[GRAPHIC] [TIFF OMITTED] T6712.315

[GRAPHIC] [TIFF OMITTED] T6712.316

[GRAPHIC] [TIFF OMITTED] T6712.317

[GRAPHIC] [TIFF OMITTED] T6712.318

[GRAPHIC] [TIFF OMITTED] T6712.319

[GRAPHIC] [TIFF OMITTED] T6712.320

[GRAPHIC] [TIFF OMITTED] T6712.321

[GRAPHIC] [TIFF OMITTED] T6712.322

[GRAPHIC] [TIFF OMITTED] T6712.323

[GRAPHIC] [TIFF OMITTED] T6712.324

[GRAPHIC] [TIFF OMITTED] T6712.325

[GRAPHIC] [TIFF OMITTED] T6712.326

[GRAPHIC] [TIFF OMITTED] T6712.327

[GRAPHIC] [TIFF OMITTED] T6712.328

[GRAPHIC] [TIFF OMITTED] T6712.329

[GRAPHIC] [TIFF OMITTED] T6712.330

[GRAPHIC] [TIFF OMITTED] T6712.331

[GRAPHIC] [TIFF OMITTED] T6712.332

[GRAPHIC] [TIFF OMITTED] T6712.333

[GRAPHIC] [TIFF OMITTED] T6712.334

[GRAPHIC] [TIFF OMITTED] T6712.335

[GRAPHIC] [TIFF OMITTED] T6712.336

[GRAPHIC] [TIFF OMITTED] T6712.337

[GRAPHIC] [TIFF OMITTED] T6712.338

[GRAPHIC] [TIFF OMITTED] T6712.339

[GRAPHIC] [TIFF OMITTED] T6712.340

[GRAPHIC] [TIFF OMITTED] T6712.341

[GRAPHIC] [TIFF OMITTED] T6712.342

[GRAPHIC] [TIFF OMITTED] T6712.343

[GRAPHIC] [TIFF OMITTED] T6712.344

[GRAPHIC] [TIFF OMITTED] T6712.345

[GRAPHIC] [TIFF OMITTED] T6712.346

[GRAPHIC] [TIFF OMITTED] T6712.347

[GRAPHIC] [TIFF OMITTED] T6712.348

[GRAPHIC] [TIFF OMITTED] T6712.349

[GRAPHIC] [TIFF OMITTED] T6712.350

[GRAPHIC] [TIFF OMITTED] T6712.351

[GRAPHIC] [TIFF OMITTED] T6712.352

[GRAPHIC] [TIFF OMITTED] T6712.353

[GRAPHIC] [TIFF OMITTED] T6712.354

[GRAPHIC] [TIFF OMITTED] T6712.355

[GRAPHIC] [TIFF OMITTED] T6712.356

[GRAPHIC] [TIFF OMITTED] T6712.357

[GRAPHIC] [TIFF OMITTED] T6712.358

[GRAPHIC] [TIFF OMITTED] T6712.359

[GRAPHIC] [TIFF OMITTED] T6712.360

[GRAPHIC] [TIFF OMITTED] T6712.361

[GRAPHIC] [TIFF OMITTED] T6712.362

[GRAPHIC] [TIFF OMITTED] T6712.363

[GRAPHIC] [TIFF OMITTED] T6712.364

[GRAPHIC] [TIFF OMITTED] T6712.365

[GRAPHIC] [TIFF OMITTED] T6712.366

[GRAPHIC] [TIFF OMITTED] T6712.367

[GRAPHIC] [TIFF OMITTED] T6712.368

[GRAPHIC] [TIFF OMITTED] T6712.369

[GRAPHIC] [TIFF OMITTED] T6712.370

[GRAPHIC] [TIFF OMITTED] T6712.371

[GRAPHIC] [TIFF OMITTED] T6712.372

[GRAPHIC] [TIFF OMITTED] T6712.373

[GRAPHIC] [TIFF OMITTED] T6712.374

[GRAPHIC] [TIFF OMITTED] T6712.375

[GRAPHIC] [TIFF OMITTED] T6712.376

[GRAPHIC] [TIFF OMITTED] T6712.377

[GRAPHIC] [TIFF OMITTED] T6712.378

[GRAPHIC] [TIFF OMITTED] T6712.379

[GRAPHIC] [TIFF OMITTED] T6712.380

[GRAPHIC] [TIFF OMITTED] T6712.381

[GRAPHIC] [TIFF OMITTED] T6712.382

[GRAPHIC] [TIFF OMITTED] T6712.383

[GRAPHIC] [TIFF OMITTED] T6712.384

[GRAPHIC] [TIFF OMITTED] T6712.385

[GRAPHIC] [TIFF OMITTED] T6712.386

[GRAPHIC] [TIFF OMITTED] T6712.387

[GRAPHIC] [TIFF OMITTED] T6712.388

[GRAPHIC] [TIFF OMITTED] T6712.389

[GRAPHIC] [TIFF OMITTED] T6712.390

[GRAPHIC] [TIFF OMITTED] T6712.391

[GRAPHIC] [TIFF OMITTED] T6712.392

[GRAPHIC] [TIFF OMITTED] T6712.393

[GRAPHIC] [TIFF OMITTED] T6712.394

[GRAPHIC] [TIFF OMITTED] T6712.395

[GRAPHIC] [TIFF OMITTED] T6712.396

[GRAPHIC] [TIFF OMITTED] T6712.397

[GRAPHIC] [TIFF OMITTED] T6712.398

[GRAPHIC] [TIFF OMITTED] T6712.399

[GRAPHIC] [TIFF OMITTED] T6712.400

[GRAPHIC] [TIFF OMITTED] T6712.401

[GRAPHIC] [TIFF OMITTED] T6712.402

[GRAPHIC] [TIFF OMITTED] T6712.403

[GRAPHIC] [TIFF OMITTED] T6712.404

[GRAPHIC] [TIFF OMITTED] T6712.405

[GRAPHIC] [TIFF OMITTED] T6712.406

[GRAPHIC] [TIFF OMITTED] T6712.407

[GRAPHIC] [TIFF OMITTED] T6712.408

[GRAPHIC] [TIFF OMITTED] T6712.409

[GRAPHIC] [TIFF OMITTED] T6712.410

[GRAPHIC] [TIFF OMITTED] T6712.411

[GRAPHIC] [TIFF OMITTED] T6712.412

[GRAPHIC] [TIFF OMITTED] T6712.413

[GRAPHIC] [TIFF OMITTED] T6712.414

[GRAPHIC] [TIFF OMITTED] T6712.415

[GRAPHIC] [TIFF OMITTED] T6712.416

[GRAPHIC] [TIFF OMITTED] T6712.417

[GRAPHIC] [TIFF OMITTED] T6712.418

[GRAPHIC] [TIFF OMITTED] T6712.419

[GRAPHIC] [TIFF OMITTED] T6712.420

[GRAPHIC] [TIFF OMITTED] T6712.421

[GRAPHIC] [TIFF OMITTED] T6712.422

[GRAPHIC] [TIFF OMITTED] T6712.423

[GRAPHIC] [TIFF OMITTED] T6712.424

[GRAPHIC] [TIFF OMITTED] T6712.425

[GRAPHIC] [TIFF OMITTED] T6712.426

[GRAPHIC] [TIFF OMITTED] T6712.427

[GRAPHIC] [TIFF OMITTED] T6712.428

[GRAPHIC] [TIFF OMITTED] T6712.429

[GRAPHIC] [TIFF OMITTED] T6712.430

[GRAPHIC] [TIFF OMITTED] T6712.431

[GRAPHIC] [TIFF OMITTED] T6712.432

[GRAPHIC] [TIFF OMITTED] T6712.433

[GRAPHIC] [TIFF OMITTED] T6712.434

[GRAPHIC] [TIFF OMITTED] T6712.435

[GRAPHIC] [TIFF OMITTED] T6712.436

[GRAPHIC] [TIFF OMITTED] T6712.437

[GRAPHIC] [TIFF OMITTED] T6712.438

[GRAPHIC] [TIFF OMITTED] T6712.439

[GRAPHIC] [TIFF OMITTED] T6712.440

[GRAPHIC] [TIFF OMITTED] T6712.441

[GRAPHIC] [TIFF OMITTED] T6712.442

[GRAPHIC] [TIFF OMITTED] T6712.443

[GRAPHIC] [TIFF OMITTED] T6712.444

[GRAPHIC] [TIFF OMITTED] T6712.445

[GRAPHIC] [TIFF OMITTED] T6712.446

[GRAPHIC] [TIFF OMITTED] T6712.447

[GRAPHIC] [TIFF OMITTED] T6712.448

[GRAPHIC] [TIFF OMITTED] T6712.449

[GRAPHIC] [TIFF OMITTED] T6712.450

[GRAPHIC] [TIFF OMITTED] T6712.451

[GRAPHIC] [TIFF OMITTED] T6712.452

[GRAPHIC] [TIFF OMITTED] T6712.453

[GRAPHIC] [TIFF OMITTED] T6712.454

[GRAPHIC] [TIFF OMITTED] T6712.455

[GRAPHIC] [TIFF OMITTED] T6712.456

[GRAPHIC] [TIFF OMITTED] T6712.457

[GRAPHIC] [TIFF OMITTED] T6712.458

[GRAPHIC] [TIFF OMITTED] T6712.459

[GRAPHIC] [TIFF OMITTED] T6712.460

[GRAPHIC] [TIFF OMITTED] T6712.461

[GRAPHIC] [TIFF OMITTED] T6712.462

[GRAPHIC] [TIFF OMITTED] T6712.463

[GRAPHIC] [TIFF OMITTED] T6712.464

[GRAPHIC] [TIFF OMITTED] T6712.465

[GRAPHIC] [TIFF OMITTED] T6712.466

[GRAPHIC] [TIFF OMITTED] T6712.467

[GRAPHIC] [TIFF OMITTED] T6712.468

[GRAPHIC] [TIFF OMITTED] T6712.469

[GRAPHIC] [TIFF OMITTED] T6712.470

[GRAPHIC] [TIFF OMITTED] T6712.471

[GRAPHIC] [TIFF OMITTED] T6712.472

[GRAPHIC] [TIFF OMITTED] T6712.473

[GRAPHIC] [TIFF OMITTED] T6712.474

[GRAPHIC] [TIFF OMITTED] T6712.475

[GRAPHIC] [TIFF OMITTED] T6712.476

[GRAPHIC] [TIFF OMITTED] T6712.477

[GRAPHIC] [TIFF OMITTED] T6712.478

[GRAPHIC] [TIFF OMITTED] T6712.479

[GRAPHIC] [TIFF OMITTED] T6712.480

[GRAPHIC] [TIFF OMITTED] T6712.481

[GRAPHIC] [TIFF OMITTED] T6712.482

[GRAPHIC] [TIFF OMITTED] T6712.483

[GRAPHIC] [TIFF OMITTED] T6712.484

[GRAPHIC] [TIFF OMITTED] T6712.485

[GRAPHIC] [TIFF OMITTED] T6712.486

[GRAPHIC] [TIFF OMITTED] T6712.487

[GRAPHIC] [TIFF OMITTED] T6712.488

[GRAPHIC] [TIFF OMITTED] T6712.489

[GRAPHIC] [TIFF OMITTED] T6712.490

[GRAPHIC] [TIFF OMITTED] T6712.491

[GRAPHIC] [TIFF OMITTED] T6712.492

[GRAPHIC] [TIFF OMITTED] T6712.493

[GRAPHIC] [TIFF OMITTED] T6712.494

[GRAPHIC] [TIFF OMITTED] T6712.495

[GRAPHIC] [TIFF OMITTED] T6712.496

[GRAPHIC] [TIFF OMITTED] T6712.497

[GRAPHIC] [TIFF OMITTED] T6712.498

[GRAPHIC] [TIFF OMITTED] T6712.499

[GRAPHIC] [TIFF OMITTED] T6712.500

[GRAPHIC] [TIFF OMITTED] T6712.501

[GRAPHIC] [TIFF OMITTED] T6712.502

[GRAPHIC] [TIFF OMITTED] T6712.503

[GRAPHIC] [TIFF OMITTED] T6712.504

[GRAPHIC] [TIFF OMITTED] T6712.505

[GRAPHIC] [TIFF OMITTED] T6712.506

[GRAPHIC] [TIFF OMITTED] T6712.507

[GRAPHIC] [TIFF OMITTED] T6712.508

[GRAPHIC] [TIFF OMITTED] T6712.509

[GRAPHIC] [TIFF OMITTED] T6712.510

[GRAPHIC] [TIFF OMITTED] T6712.511

[GRAPHIC] [TIFF OMITTED] T6712.512

[GRAPHIC] [TIFF OMITTED] T6712.513

[GRAPHIC] [TIFF OMITTED] T6712.514

[GRAPHIC] [TIFF OMITTED] T6712.515

[GRAPHIC] [TIFF OMITTED] T6712.516

[GRAPHIC] [TIFF OMITTED] T6712.517

[GRAPHIC] [TIFF OMITTED] T6712.518

[GRAPHIC] [TIFF OMITTED] T6712.519

[GRAPHIC] [TIFF OMITTED] T6712.520

[GRAPHIC] [TIFF OMITTED] T6712.521

[GRAPHIC] [TIFF OMITTED] T6712.522

[GRAPHIC] [TIFF OMITTED] T6712.523

[GRAPHIC] [TIFF OMITTED] T6712.524

[GRAPHIC] [TIFF OMITTED] T6712.525

[GRAPHIC] [TIFF OMITTED] T6712.526

[GRAPHIC] [TIFF OMITTED] T6712.527

[GRAPHIC] [TIFF OMITTED] T6712.528

[GRAPHIC] [TIFF OMITTED] T6712.529

[GRAPHIC] [TIFF OMITTED] T6712.530

[GRAPHIC] [TIFF OMITTED] T6712.531

[GRAPHIC] [TIFF OMITTED] T6712.532

[GRAPHIC] [TIFF OMITTED] T6712.533

[GRAPHIC] [TIFF OMITTED] T6712.534

[GRAPHIC] [TIFF OMITTED] T6712.535

[GRAPHIC] [TIFF OMITTED] T6712.536

[GRAPHIC] [TIFF OMITTED] T6712.537

[GRAPHIC] [TIFF OMITTED] T6712.538

[GRAPHIC] [TIFF OMITTED] T6712.539

[GRAPHIC] [TIFF OMITTED] T6712.540

[GRAPHIC] [TIFF OMITTED] T6712.541

[GRAPHIC] [TIFF OMITTED] T6712.542

[GRAPHIC] [TIFF OMITTED] T6712.543

[GRAPHIC] [TIFF OMITTED] T6712.544

[GRAPHIC] [TIFF OMITTED] T6712.545

[GRAPHIC] [TIFF OMITTED] T6712.546

[GRAPHIC] [TIFF OMITTED] T6712.547

[GRAPHIC] [TIFF OMITTED] T6712.548

[GRAPHIC] [TIFF OMITTED] T6712.549

[GRAPHIC] [TIFF OMITTED] T6712.550

[GRAPHIC] [TIFF OMITTED] T6712.551

[GRAPHIC] [TIFF OMITTED] T6712.552

[GRAPHIC] [TIFF OMITTED] T6712.553

[GRAPHIC] [TIFF OMITTED] T6712.554

[GRAPHIC] [TIFF OMITTED] T6712.555

[GRAPHIC] [TIFF OMITTED] T6712.556

[GRAPHIC] [TIFF OMITTED] T6712.557

[GRAPHIC] [TIFF OMITTED] T6712.558

[GRAPHIC] [TIFF OMITTED] T6712.559

[GRAPHIC] [TIFF OMITTED] T6712.560

[GRAPHIC] [TIFF OMITTED] T6712.561

[GRAPHIC] [TIFF OMITTED] T6712.562

[GRAPHIC] [TIFF OMITTED] T6712.563

[GRAPHIC] [TIFF OMITTED] T6712.564

[GRAPHIC] [TIFF OMITTED] T6712.565

[GRAPHIC] [TIFF OMITTED] T6712.566

[GRAPHIC] [TIFF OMITTED] T6712.567

[GRAPHIC] [TIFF OMITTED] T6712.568

[GRAPHIC] [TIFF OMITTED] T6712.569

[GRAPHIC] [TIFF OMITTED] T6712.570

[GRAPHIC] [TIFF OMITTED] T6712.571

[GRAPHIC] [TIFF OMITTED] T6712.572

[GRAPHIC] [TIFF OMITTED] T6712.573

[GRAPHIC] [TIFF OMITTED] T6712.574

[GRAPHIC] [TIFF OMITTED] T6712.575

[GRAPHIC] [TIFF OMITTED] T6712.576

[GRAPHIC] [TIFF OMITTED] T6712.577

[GRAPHIC] [TIFF OMITTED] T6712.578

[GRAPHIC] [TIFF OMITTED] T6712.579

[GRAPHIC] [TIFF OMITTED] T6712.580

[GRAPHIC] [TIFF OMITTED] T6712.581

[GRAPHIC] [TIFF OMITTED] T6712.582

[GRAPHIC] [TIFF OMITTED] T6712.583

[GRAPHIC] [TIFF OMITTED] T6712.584

[GRAPHIC] [TIFF OMITTED] T6712.585

[GRAPHIC] [TIFF OMITTED] T6712.586

[GRAPHIC] [TIFF OMITTED] T6712.587

[GRAPHIC] [TIFF OMITTED] T6712.588

[GRAPHIC] [TIFF OMITTED] T6712.589

[GRAPHIC] [TIFF OMITTED] T6712.590

[GRAPHIC] [TIFF OMITTED] T6712.591

[GRAPHIC] [TIFF OMITTED] T6712.592

[GRAPHIC] [TIFF OMITTED] T6712.593

[GRAPHIC] [TIFF OMITTED] T6712.594

[GRAPHIC] [TIFF OMITTED] T6712.595

                                 <all>

</pre></body></html>
